<html>
<title> - FAA REAUTHORIZATION: NEXTGEN AND THE BENEFITS OF MODERNIZATION</title>
<body><pre>[Senate Hearing 111-379]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-379

                     FAA REAUTHORIZATION: NEXTGEN 
                   AND THE BENEFITS OF MODERNIZATION

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 25, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation










                  U.S. GOVERNMENT PRINTING OFFICE
52-164 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

BYRON L. DORGAN, North Dakota,       JIM DeMINT, South Carolina, 
    Chairman                             Ranking Member
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BARBARA BOXER, California            JOHN THUNE, South Dakota
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
MARK PRYOR, Arkansas                 SAM BROWNBACK, Kansas
CLAIRE McCASKILL, Missouri           MEL MARTINEZ, Florida
AMY KLOBUCHAR, Minnesota             MIKE JOHANNS, Nebraska
MARK WARNER, Virginia
MARK BEGICH, Alaska
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 25, 2009...................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator DeMint......................................     2
Statement of Senator Lautenberg..................................     3
Statement of Senator Rockefeller.................................     5
Statement of Senator Hutchison...................................     6
    Prepared statement...........................................     6
Statement of Senator Begich......................................     7
Statement of Senator Johanns.....................................     7
Statement of Senator Brownback...................................    57
    Prepared statement...........................................    57
Statement of Senator Nelson......................................    63
Statement of Senator Thune.......................................    65

                               Witnesses

Hank Krakowski, Chief Operating Officer, Air Traffic 
  Organization, Federal Aviation Administration..................     8
    Prepared statement...........................................    10
Gerald L. Dillingham, Ph.D. Director, Physical Infrastructure 
  Issues, U.S. Government Accountability Office..................    15
    Prepared statement...........................................    17
Joe Kolshak, Senior Vice President--Operations, United Airlines 
  on Behalf of the Air Transport Association of America..........    26
    Prepared statement...........................................    28
Dale Wright, Director of Safety and Technology, National Air 
  Traffic Controllers Association................................    33
    Prepared statement...........................................    35
T. K. Kallenbach, Vice President, Marketing and Product 
  Management, Honeywell Aerospace................................    43
    Prepared statement...........................................    45

                                Appendix

Letter, dated March 24, 2009, from Joseph D. Gebhardt, Gebhardt & 
  Associates, LLP, to Hon. Byron L. Dorgan.......................    69
Response to written questions submitted to Hank Krakowski by:
    Hon. John D. Rockefeller IV..................................    70
    Hon. Bill Nelson.............................................    72
    Hon. Mark Warner.............................................    73
    Hon. Mark Begich.............................................    74
    Hon. John Ensign.............................................    77
Response to written questions submitted to Dr. Gerald L. 
  Dillingham by:
    Hon. John D. Rockefeller IV..................................    78
    Hon. Mark Begich.............................................    78
    Hon. John Ensign.............................................    79
Response to written questions submitted to Joe Kolshak by:
    Hon. Mark Begich.............................................    80
    Hon. John Ensign.............................................    81
Response to written questions submitted by Hon. Mark Begich to 
  Dale Wright....................................................    81
Response to written question submitted by Hon. Mark Begich to T. 
  K. Kallenbach..................................................    82

 
                     FAA REAUTHORIZATION: NEXTGEN 
                   AND THE BENEFITS OF MODERNIZATION

                              ----------                              


                       WEDNESDAY, MARCH 25, 2009

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:45 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Byron L. 
Dorgan, Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. I'm going to call the hearing to order.
    I'm Senator Dorgan, the Chairman of the Subcommittee on 
Aviation. I'm joined by Senator DeMint and Senator Johanns, and 
others will join us shortly.
    This is a hearing to discuss FAA reauthorization, but 
especially to discuss the issue of modernization. We will have 
other hearings and discuss other aspects of the reauthorization 
bill, which we want to work on and we want to be successful in 
moving through the U.S. Senate and getting a bill to the 
President in this Congress. But for now we will be discussing 
modernization.
    ``Modernization,'', is kind of a big old term, but most of 
us understand the need to modernize our system. We understand 
that there are opportunities to move toward what is called 
NextGen. And the pace and the price are always at odds here 
with respect to implementing next-generation systems, but we 
believe very strongly--I certainly do, and I know my colleagues 
do, as well--that we need to make progress. Some are talking 
about NextGen 2020, 2025. In my judgment, that's a pace that is 
too slow, and we just need to make substantially more progress 
at a much better pace than that. And so, this will be the first 
hearing in which we discuss that.
    Let me just make a point. We invited Dale Wright, from the 
National Air Traffic Controllers Association, and I know that 
he will want to talk about other things, because there are 
other issues with the air traffic controllers. But, I've asked 
Mr. Wright, today, to talk about modernization, and he's 
prepared to do that. We'll have another hearing on the subject 
of the air traffic controller issues.
    We have Mr. Hank Krakowski, the FAA Chief Operating Officer 
of the Air Traffic Organization. Hank, thank you for being with 
us. Gerald Dillingham, who is the Director of the Physical 
Infrastructure Issues at the GAO. Mr. Dillingham, welcome. Dale 
Wright, who I have just mentioned, Director of Safety and 
Technology at the National Air Traffic Controllers Association. 
Joe Kolshak, Senior Vice President of Operations at United 
Airlines. Welcome. And T. K. Kallenbach, Vice President of 
Marketing at Honeywell Aerospace. We appreciate the five of you 
being willing to provide statements today about this issue of 
modernization and NextGen.
    I was at a meeting a while ago and someone was describing 
that the new technology, which I'm well aware of because we 
have a couple of kids in college--everybody has a cell phone 
these days. They advertise technologies where parents can use 
GPS systems and, with the consent of the one telephone, that 
perhaps is in the possession of your child, a parent can know 
exactly where the child is, because you can track it with your 
own cell phone. You can track the location of up to 20 of your 
acquaintances, provided they allow you to do that.
    Well, it is interesting that a teenager with a cell phone 
can track the exact whereabouts of 20 friends, and we can't 
track the exact whereabouts of an airplane, because we're using 
an old system. We generally know where they are--I'm not 
suggesting that the system doesn't understand where an airplane 
is flying, but it is the case that we are not using the more 
sophisticated capability from the GPS system. NextGen would 
allow us to do that. It would allow us to have a greater margin 
of safety, greater efficiencies with respect to the way we fly 
and the more direct routes that we fly, and less air pollution, 
certainly beneficial for the environment. All of these things 
are possible, and they are possible now with today's 
technology.
    We need standards that are developed. We need a 
determination to move in this direction. We need training. We 
need equipment. But, the fact is, this is not some 20-years-
from-now-sci-fi application. We have to decide that here's 
where we're going to move with respect to modernization of the 
FAA, and move there with some dispatch. 2025 or 2020 is too 
long a time frame, in my judgment.
    So, having said all of that, this will be the first hearing 
on modernization. We will, as I said, write legislation in the 
Committee. Senator Rockefeller, the Chairman of our Committee, 
and the Ranking Senator, Kay Bailey Hutchison, are both very 
interested in this subject. I expect a lot of cooperation from 
members of the Committee.
    Let me call on the Ranking Member, Senator DeMint.
    Senator DeMint, thank you. And I'm pleased once again that 
we've joined on a subcommittee. We were the Chair and Ranking 
Member of a subcommittee, previously, on this Committee.

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman.
    And the Chairman has noted that I am sitting to his left 
today, so I have moderated my views.
    [Laughter.]
    Senator DeMint. Thank you. Well, I came to Congress 10 
years ago, and I was on the Transportation Committee in the 
House, and we were talking about the desperate need to 
modernize the FAA at that time. And I'm afraid we haven't made 
near the progress that we had hoped.
    Modernization is much more critical today as we see 
congestion, not only in the air, but on the roads, and stress 
in our whole transportation system across the country. So, this 
time I hope we can actually get something done, and do it the 
right way.
    As the Chairman mentioned, there's a lot at stake, not just 
reducing delays, but also reducing fuel consumption by being 
more efficient in how we manage the airplanes. There's a kind 
of new industry developing in general aviation. We're seeing, 
in our areas, air taxis and other ways that people can use 
smaller airports to move around, which will create new 
challenges for the FAA and air traffic control.
    As the Chairman mentioned, GPS and other new technologies 
offer what appear to be inexpensive and very good ways to begin 
to track things. My concern is that because the government 
moves so slowly, by the time we got something done, the 
equipment we decided to use would be antiquated. It's like when 
I buy a new BlackBerry, the one I decide to get is antiquated, 
and everyone else is using a newer one.
    But, we need to figure out how we can be flexible enough as 
a country to constantly improve and upgrade technology in a way 
that doesn't leave us with an antiquated system 10 years from 
now, if we do modernize.
    So, there are a lot of challenges in front of us, but I do 
appreciate the five witnesses who are here who will get us 
started with, hopefully, the right ideas on how to move ahead.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator DeMint, thank you very much.
    We're joined by the Chairman of the full Committee, Senator 
Rockefeller. Senator Rockefeller, I just described, in 
brilliant words----
    The Chairman. I heard. I listened.
    Senator Dorgan.--how terrific you are----
    The Chairman. Yes, I----
    Senator Dorgan.--and how much you've worked on this subject 
already, and what we're going to do on this Committee.
    The Chairman. I know. Do you want to go over it? Do you 
want to do it again?
    [Laughter.]
    Senator Lautenberg. If it wouldn't be too much of an 
imposition, I've got a meeting--another Committee starting in 5 
minutes, if I----
    The Chairman. Be my guest.
    Senator Dorgan. I'd just call on Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks very much, Senator Rockefeller 
and our Chairman today, Senator Dorgan.
    And I start off, Senator Dorgan, by offering our best 
wishes and thoughts about your State and the difficulty that we 
see you going through, and we hope that you and the citizens of 
your State of North Dakota will be able to muster the energy 
and the resources to get things moving.
    It's noted that 2007 was one of the worst years on record 
for flight delays. And I appreciate the fact that Senator 
Rockefeller, Chairman of the committee, is permitting me to 
jump in ahead of time, but I have another committee hearing. 
One in four flights was late. And I have the opportunity to 
test the system on a regular basis, because, though New Jersey 
is not too far away, we're lulled into thinking that if we go 
by air, it's going to be a shorter trip. I've found out it 
isn't. I got on a plane Thursday night to LaGuardia. I live 
midway between LaGuardia Airport and Newark Airport. They 
closed the door on the airplane, and the pilot almost 
instantaneously announced the fact that there was a 2-hour 
delay. And I could hear the people scratching at the windows, 
wanting to get out of there. But, we were imprisoned for the 
next 2 hours. But, we had little snacks, one a person.
    [Laughter.]
    Senator Lautenberg. Newark Liberty International is one of 
the most delayed airports in the country. These delays come 
with a terrible cost that translates into losses of nearly $10 
billion each year to our economy.
    And there are many reasons that our air travelers are 
burdened with delays. The central reason is our outdated air 
traffic control system. When I arrived here, in 1983, I came 
out of the computer business, and the first thing that I noted 
was that the FAA had an antiquated computer system, really 
rudimentary. And the fact of the matter is that our company, 
which is a large computer user, had discarded the idea of 
trying to keep these things, because the maintenance was a 
higher cost than going out and tossing them out the window. So, 
it's been an old situation here, and we want to improve it.
    And, as the Chairman knows, our air traffic system is 
basically the same system that we used in the 1960s. It's 
simply not equipped for the massive amounts of air traffic that 
we have today.
    So, the need for the update is clear. The way that we 
modernize it requires careful spending, planning, and smart 
spending. And I come, as I said, from the private sector, and I 
know that upgrading technology requires resources, time, and 
constant oversight. One of the things that I've also learned in 
my business experience, and we've seen it here, is that if you 
try to take a massive problem and solve it all in one fell 
swoop, it's very difficult. Very often we have to turn to 
modular systems. And we've tried to repair the system, upgrade 
the system twice with some of America's best companies, spent 
billions of dollars, and had no results for our efforts, except 
less money. The FAA needs to get new technology on our towers 
and on our runways, and it needs a plan with clear benefits for 
the flying public.
    Now, while we modernize, we cannot neglect air travel's 
immediate needs. Our air traffic controllers are retiring in 
droves. The FAA is not replacing them fast enough, and has 
always resisted getting people into the training loop. There 
are nearly 2,000 fewer controllers than we had in 2002. It 
takes several years to fully train new controllers, so the FAA 
needs to get moving with a plan to hire and train a new 
generation of controllers.
    And I'm also hopeful that the Obama Administration and the 
FAA will reach a long overdue collective bargaining agreement 
with our controllers so that we can return to the era of 
cooperation and collaboration that will best serve the flying 
public.
    Mr. Chairman, the FAA and our Nation's airports will also 
need to get moving to upgrade our runways to prevent overruns. 
Runway incursions are listed by the NTSB as a major safety 
concern, and so it should be, because the forecast for 
incursions is mind-boggling. This year, I'm going to continue 
to push for comprehensive runway safety legislation to address 
these and other problems.
    And I close with an observation. Mr. Chairman and fellow 
Committee members, one way to improve air traffic flow is 
highspeed rail. And if we could get that going, as well, it 
would eliminate so much travel by air between short distances.
    I look forward to hearing from our panel. I'm sorry that I 
have to go to another committee, and I appreciate the 
indulgence of my colleagues.
    Senator Dorgan. Senator Lautenberg, thank you very much.
    Senator Rockefeller?

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Thank you, Mr. Chairman.
    First of all, let me say how proud I am that you're 
Chairman of this Subcommittee. Any Subcommittee that you chair 
is bound to be effective, is destined to be effective. And you 
will do the same with this.
    And you have a big chore, in terms of air traffic control. 
I don't think of NextGen, really, in terms of technology, I 
think about it in terms of people. Obviously it's expensive. 
Obviously we need cooperation between the different elements 
that are in the air. It's obviously slowing down and costing 
Americans hundreds of millions of dollars because it's so 
ancient. We--if we're going to have a national aviation system, 
we might as well be able to route the aviation system 
intelligently, efficiently, and quickly. And, as I like to say, 
I'd very much like to catch up with Mongolia on our air traffic 
control system, but we haven't been able to do that yet.
    The challenge I want to pose to the witnesses today, and to 
the aviation industry, is to find a way to work together to 
make this happen. It's no secret that the aviation industry is 
in two categories, and there has got to be a way for them to 
work together so that we can afford to pay the cost of both 
keeping an analog system in place while we build a GPS ground-
based system.
    So, simply put, we cannot afford to fail.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Rockefeller, thank you very much.
    Are there others who wish to make an opening statement?
    Senator Lautenberg had asked for special consideration; he 
had to leave. But, I'd be happy to----
    Senator Hutchison. Yes.
    Senator Dorgan. If we could limit them to 2 minutes, I'd 
appreciate that.
    Senator Hutchison?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Senator Rockefeller and I worked so hard 
last year to get an FAA reauthorization bill through, I am very 
hopeful that you all will be more successful than we were. 
NextGen is, of course, the key component for us to go forward 
with an FAA reauthorization bill.
    Senator Rockefeller and I had an amendment ready for the 
stimulus that would have accelerated the use of the precision 
approaches across the country and given us a real head-start. 
Unfortunately, we weren't able to get that in the final 
package, but it is something that would be a legitimate use of 
our stimulus money, because, of course, it will create jobs and 
it will begin the process.
    But, I will just say that, as we move forward, we are going 
to need the buy-in of all of the components of the air traffic 
control system in order to find the right solutions for the 
funding and the implementation of NextGen. So, I certainly look 
forward to working with everyone in this room and on our 
Committee to get a good bill put forward. The one that we had 
last year was bipartisan and agreed to by all concerned, and I 
hope that will be the basis for the bill that we would use, 
going forward, for FAA reauthorization.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Thank you Senator Dorgan, I would like to welcome both you and 
Senator DeMint to your new positions as Chairman and Ranking Member of 
the Aviation Subcommittee. I look forward to working with both of you 
as we move forward with the FAA Reauthorization process. I am 
especially hopeful we can continue to move forward in a bipartisan 
manner and develop a consensus bill we can all strongly support.
    I am also pleased we are starting out the FAA Reauthorization 
process and discussing the importance and benefits of the Next 
Generation Air Transportation System or NextGen. I believe that NextGen 
should be the centerpiece of our FAA proposal. We need to give the 
agency the tools and resources it needs to make NextGen a reality.
    I am very concerned that when the economy rebounds, the air traffic 
control system will not be able to handle the accompanying rebound in 
air travel.
    The investments needed for NextGen are exactly the type of 
infrastructure projects our country needs to create jobs and 
opportunities that will last not just for a few years, but for a few 
decades.
    We have a very complex aviation system that calls for a 
sophisticated and well organized solution. The benefits of increased 
efficiency and expanded capacity, along with critical safety 
enhancements and a reduction of the overall industry environmental 
footprint should be enough of a ``carrot'' to entice interest and 
support for the effort.
    The FAA is moving away from planning phases and toward 
implementation of NextGen technologies. We know what we can, and need 
to do, in the short-term; so let's put the infrastructure in place.
    The industry can then follow suit and complete the transition. 
Chairman Rockefeller and I had an amendment to the stimulus bill that 
accelerated the deployment of ADS-B ground stations by 2 years and 
accelerated the use of precision approaches across the country.
    That amendment ultimately was not accepted into the final package, 
but it was a move in the right direction and a signal that we are 
serious about improving this system. This hearing is also important 
because the FAA is starting a new era of modernization with NextGen.
    The FAA, unfortunately, has a long history of mishandling long-term 
capital projects, but as we move into the implementation phase of 
NextGen, the FAA has a tremendous opportunity to change that 
reputation.
    The FAA will need help though.If industry is serious about NextGen 
then they need to coalesce behind the idea and they need to help find 
solutions.
    I look forward to starting that process today.I welcome our panel 
and look forward to the testimony.
    Thank you.

    Senator Dorgan. Senator Hutchison, thank you very much. I 
did describe, at the start of this, the work you have done with 
Senator Rockefeller, and I think that accomplished a great deal 
in setting the foundation for all of this, and we appreciate 
that.
    Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Mr. Chairman, thank you very much, and 
thank you for the opportunity to be part of this Subcommittee. 
I'll be very brief, because I'm looking forward to the 
testimony of the folks that are here today.
    There's no place like Alaska when it comes to aviation, to 
say the least. With the recent volcanic eruptions of Mt. 
Redoubt, our cities and communities have experienced exactly 
what happens when aviation is interrupted.
    Some interesting aviation statistics I always like to throw 
out there: in Alaska, we have 6 times more pilots and 16 times 
more planes per capita than any other place in the country.
    The NextGen technology that we'll be talking about today is 
of strong interest to my constituents. To help combat a high 
aviation accident rate, in 2001, the Capstone Program made 
Alaska one of the first states to deploy and implement some of 
the advanced navigation technology used in NextGen at a trial 
level. The Capstone Program demonstrated a 47 percent reduction 
in the aviation accident rate of Capstone-avionics equipped 
aircraft compared to non-equipped aircraft in southwest Alaska. 
The NextGen technology that we are discussing this morning will 
not only increase efficiency, but it will save lives. It is 
important to upgrade our air traffic systems, because as we 
know firsthand in Alaska how valuable it is.
    I'm looking forward to the testimony, I'm looking forward 
to doing whatever I can on this Subcommittee, as well as the 
full Committee, in helping to make sure the NextGen system gets 
into place as soon as possible. As we know from the Capstone 
Program in Alaska, we have seen the impacts in a very positive 
way.
    So, thank you, Mr. Chairman, and I look forward to this 
Subcommittee.
    Senator Dorgan. Thank you.
    Senator Johanns?

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Just very briefly. Mr. Chairman, thanks 
for putting this together. I look forward to the testimony. 
And, gentlemen, thank you for being here.
    Just to kind of cue you up, if I could, in terms of what 
I'm interested in, as a new member, is of course cost--it has 
already been mentioned. What is this going to cost? Second, 
timing. And that's been mentioned also, but I'll just 
underscore it. What do you think the realistic timeline is? And 
then, the third thing is a very realistic assessment of what 
the system will do. I don't want to overpromise this. I don't 
want to tell people that all of a sudden the world is going to 
be dramatically better and different, if it's not. So, I would 
like to hear, once it's up and running, once this investment 
has been made, once we have worked our way through the timing 
issues, how will we know that this system is up and running? 
How will it improve the lives of the people that are in the 
system, the passengers, the pilots, the air traffic 
controllers? So, that's what I want to hear about, I hope, in 
your testimonies, is some testimony on those three items--cost, 
timing, and capability of the system.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Johanns, thank you very much.
    This morning we will hear from the first witness, Hank 
Krakowski, who is the FAA Chief Operating Officer.
    And, Hank, you and I have had some experience working 
together, and I appreciate your work very much. Why don't you 
proceed.
    We will ask that the entire statements of all of the 
witnesses be made a part of the permanent record, and we would 
ask all of the witnesses to summarize.
    Mr. Krakowski?

         STATEMENT OF HANK KRAKOWSKI, CHIEF OPERATING 
      OFFICER, AIR TRAFFIC ORGANIZATION, FEDERAL AVIATION 
                         ADMINISTRATION

    Mr. Krakowski. Thank you, Mr. Chairman.
    To your first statement, I just spent 2 days in Colorado 
Springs talking with DOD and the other Federal agencies on 
unmanned aircraft, and I think the work that we did over the 
past 2 days assures our ability to deliver on the promise up in 
North Dakota on time next year.
    Senator Dorgan. If we might--just so the audience 
understands what you're talking about--we're talking about 
commercial aviation, general aviation, and then, particularly 
with respect to the military and homeland security, there are 
Unmanned Aerial Vehicles, UAV. In order to integrate them into 
our airspace and provide margins of safety for everyone else 
that's flying, there needs to be new rules, new regulations, 
and that's where NextGen will play a significant role. So, 
thank you for that.
    Mr. Krakowski. It's true that NextGen and the Custom and 
Border Protection are flying a Predator today over the 
territory in preparation for possible recovery operations 
later, if needed.
    Chairman Dorgan, Senator DeMint, and members of the 
Subcommittee, thank you very much for asking the FAA to update 
you on the current state of our modernization efforts.
    We have solid progress to report, as is reflected in the 
GAO's removal of our air traffic control modernization efforts 
from the high-risk list. As positive as this news is, we strive 
for continuous improvement. The cornerstone of the 
modernization effort is NextGen, and it is designed to increase 
safety, reduce delays, and expand capacity while reducing the 
environmental impact of aviation.
    Making improvements to our current hardwired system will 
not achieve these aspirations. NextGen will provide 
flexibility, scalability, and, more importantly, 
predictability, to better serve the changing needs of the 
aviation community who uses our system.
    Since 2000, the peak year of air traffic, operations today 
are down about 17 percent, yet in places like New York, New 
Jersey, and Philadelphia, congestion and delays continue in our 
busiest airspace and airports. These landlocked, closely spaced 
airports are limited in their physical ability to expand.
    In contrast, last year we initiated three new runways, in 
Seattle, Chicago, and Washington Dulles. We are already 
experiencing significant delay reduction and capacity relief at 
O'Hare. More runways are planned, with a new one in Charlotte 
next year and at O'Hare a few years later.
    Where new runways are not viable, NextGen fundamentals, 
using existing technology, do offer some immediate relief. As a 
result of NextGen research, last year we published a national 
order that allows us to safely reduce separation between 
aircraft on parallel runways that are spaced closely to each 
other: Boston, Cleveland, Philadelphia, St. Louis, and Seattle, 
notably. In Seattle, we're watching low-visibility operations 
increase by more than 70 percent, in terms of delay reduction 
and capacity.
    Another building block for NextGen are procedures we can 
use today, such as RNAV, Area Navigation, and RNP, Required 
Navigation Performance, providing increased throughput and 
delay reduction. Properly equipped aircraft can use these 
procedures now, with more procedures and techniques being 
developed. This issue of proper equipage is critical; and, 
specifically, we're talking about GPS.
    A faster realization of NextGen benefits is directly linked 
to how quickly the operators can equip their aircraft, and we 
can do this in a targeted way. As such, the FAA has asked the 
RTCA Committee to establish a Next-Generation Implementation 
Task Force. They are working to provide recommendations by 
August of this year, on what areas of technology and procedures 
to concentrate on and where to deploy them in the next 5 to 8 
years. Nearly every manufacturer, airline, airplane operator, 
and labor organization are working members of this rapid-fire 
task force.
    While we transition to NextGen, it is imperative that we 
ensure safety in the system, so we have other interim issues to 
do, such as runway status lights, which alert pilots or 
vehicles if the runway is occupied before they actually occupy 
the runway. We have 22 airports slated for runway status lights 
by 2011.
    Last, the FAA needs the entire community of aviation to 
make NextGen a reality, sooner rather than later. This includes 
airports, airlines, pilots, manufacturers, academia, and, of 
course, the air traffic control work force, especially the 
controllers.
    Secretary LaHood made it very clear that resolving the 
labor disputes so we can have a better operating environment 
with our controllers as we build NextGen is important, and I 
look very much forward to working with the new Administrator on 
clearing that path forward.
    Thank you.
    [The prepared statement of Mr. Krakowski follows:]

    Prepared Statement of Hank Krakowski, Chief Operating Officer, 
       Air Traffic Organization, Federal Aviation Administration
    Chairman Dorgan, Senator DeMint, Members of the Subcommittee:
    Thank you for inviting me here today to discuss the current state 
of the Federal Aviation Administration's (FAA) efforts on air traffic 
control modernization. We have recently made some great strides in this 
area, and I am happy to report that in recognition of that, the 
Government Accountability Office (GAO) recently removed the FAA's air 
traffic control modernization program from its High Risk List, its 
biennial update of Federal programs, policies, and operations that are 
at ``high risk'' for waste, fraud, abuse, and mismanagement or in need 
of broad-based transformation.
    The GAO added FAA air traffic control modernization to the High 
Risk List in 1995 due to cost overruns, schedule delays, and 
performance shortfalls in the FAA attempts to modernize its air traffic 
control system. However, the GAO has found that the FAA is making 
progress in ``addressing most of the root cause of its past problems.'' 
The GAO concluded that the FAA's efforts ``have yielded results, 
including deploying new systems across the country and incurring fewer 
cost overruns.''
    As positive as this news is, we are not resting on our laurels. As 
you know, at the heart of the FAA's modernization is the Next 
Generation Air Transportation System (NextGen). NextGen is a wide-
ranging transformation of the entire national air transportation system 
to meet future demand and support the economic viability of the system 
while reducing delays, improving safety, and protecting the 
environment. NextGen will change the way the system operates--reducing 
congestion, noise, and emissions, expanding capacity and improving the 
passenger experience. NextGen is a complex, multilayered, evolutionary 
process of developing and implementing new technologies and procedures. 
NextGen is not a single piece of equipment or a program or a system 
that will instantaneously transform the air transportation system. 
NextGen is an evolutionary process, and existing systems must be 
sustained as we transition. NextGen builds on legacy systems to 
increase capability in today's National Airspace System (NAS), adds new 
performance-based procedures and routes, and ultimately delivers 
programs that transform the NAS. NextGen takes advantage of new 
technology that is similarly being used to transform our personal lives 
and the way we do business, such as GPS, analog-to-digital, and network 
to network data sharing.
    NextGen goals will be realized through the development of aviation-
specific applications for existing, widely-used technologies. They will 
also be realized through the fostering of technological innovation in 
areas such as weather forecasting, data networking, and digital 
communications. Hand in hand with state-of-the-art technology will be 
new airport infrastructure and new procedures, including the shift of 
certain decision-making tools and accompanying responsibility from the 
ground to the cockpit.
    As it is implemented, NextGen will gradually allow aircraft to 
safely fly more closely together on more direct routes, reducing 
delays, and providing benefits for the environment and the economy 
through reductions in carbon emissions, fuel consumption, and noise.
Defining NextGen: The Need
    Although it is extremely safe, and staffed by a capable, dedicated 
work force, our current air traffic control system is not scalable or 
flexible enough to keep up with future demand. Our future preeminence 
as a nation in air transportation is not assured. In addition to 
improving efficiency and creating additional capacity, NextGen is 
needed to provide corresponding enhancements to safety and 
environmental performance. It will bring to air transportation the same 
twenty-first century processes that give operations in other industries 
greater reliability, flexibility, and predictability.
    Even in the face of falling demand and reduced capacity, we've seen 
congestion continue in our busiest airspace and airports. In February 
2008, there were 1,171,721 operations, while in February 2009, there 
were 1,040,150 operations. That's a reduction of over 11 percent. 
Still, while traffic is down overall, our congested airspace in New 
York/New Jersey/Philadelphia has seen only about a 5.5 percent 
reduction in traffic from last year to this year.
    We know that we must be poised to handle future demand that will 
surely return as the Nation's economy improves. In fact, the aviation 
sector will be an important factor in the Nation's economic recovery. 
The FAA estimates that in 2006, civil aviation accounted for 11 million 
jobs and represented 5.6 percent of the Gross Domestic Product; and, 
according to the FAA's calculations using U.S. International Trade 
Commission's reported trade data statistics, at $61 billion, aerospace 
products and parts contributed more to the positive balance of trade 
than any other sector--$32 billion more than the next highest 
contributor.
    NextGen must also help manage the constraints on the air 
transportation system from the environmental impacts of aircraft noise 
and emissions and concerns about energy usage. Increased efficiency 
with NextGen operations will lead to reduced fuel consumption resulting 
in lower carbon emissions. NextGen investments in engine and airframe 
design and alternative fuels will produce the changes needed to reduce 
the environmental impact of aviation.
    NextGen will also increase the safety of an already exceedingly 
safe system. NextGen further enables FAA's transition from traditional 
forensic investigations of accidents and incidents to a prognostic 
approach to improving safety. NextGen promotes the open exchange of 
pertinent safety information to continuously improve aviation safety.
Benefits of NextGen
    NextGen is reaping the benefits originated under the Operational 
Evolution Plan (OEP). Communities, airports, and the FAA continue to 
work together to build new runways, which provide significant capacity 
and operational improvements. In Fiscal Year 2009, four runway projects 
have been commissioned. On November 20, three major new runways opened: 
at Seattle-Tacoma, Washington Dulles, and Chicago O'Hare International 
Airports. The Seattle runway is expected to cut local delays in half by 
increasing capacity in bad weather by 60 percent, while the new runway 
at Dulles will provide capacity for an additional 100,000 annual 
operations. The new Chicago runway, which added capacity for an 
additional 52,300 annual operations, is a part of the greater O'Hare 
Modernization Program (OMP) that will reconfigure the airport's 
intersecting runways into a more modern, parallel layout. The OMP will 
substantially reduce delays in all weather conditions and increase 
capacity at the airfield, allowing O'Hare to meet the region's aviation 
needs well into the future. On February 12, a runway extension at 
Philadelphia was completed, helping reduce delays at the airport. 
Looking forward for the next 3 years, new runways will open at 
Charlotte and Chicago O'Hare. Eleven other runway projects are in the 
planning or environmental stage at OEP airports through 2018.
    While airfield improvements offer significant capacity increases, 
they alone are not enough to address current problems at certain 
airports, or the growth in demand we expect in the future. New 
technology and procedures can help us gain extra use from existing 
runways.
    Today, capacity for closely spaced parallel runway operations 
(CSPO) is dramatically reduced in poor visibility conditions. We are 
working on capabilities that allow for continued use of those runways 
in low visibility conditions by providing precise path assignments that 
provide safe separation between aircraft assigned on parallel paths, 
restoring capacity and reducing delays throughout the system. In 
November 2008, we published a national order that allows us to safely 
reduce separation between aircraft approaching parallel runways at 
Boston, Cleveland, Philadelphia, St. Louis and Seattle. In good 
visibility Seattle's pair of parallel runways, together, could handle 
roughly 60 operations per hour; poor visibility conditions cut that 
rate in half. Even in poor visibility, the new order now safely allows 
a rate of about 52 operations per hour, a significant improvement for 
the airport and its users. We are beginning to see similar benefits in 
Boston.
    This order is a first step in a phased approach for safely 
increasing the use of CSPOs through a combination of procedural changes 
and new ground and aircraft equipment. Down the road, new rules for 
CSPOs could give airports more design flexibility so that they can 
safely build runways more closely together, increasing their capacity 
within their existing boundaries, providing better service to their 
communities without requiring additional land.
    Performance-based navigation is another building block for NextGen 
which we are accelerating with cooperation from industry. Performance-
based routes and procedures result in shorter distances flown, which 
add up to both fuel and time savings. Fuel savings equate to reduced 
emissions, enhancing environmental performance. Safety is increased as 
air traffic operations become more predictable. Performance-based 
navigation includes Area Navigation (RNAV) and Required Navigation 
Procedures (RNP), which allow equipped aircraft to fly more direct and 
precise paths, reducing flight time and fuel use, as well as localizer 
performance with vertical guidance (LPV) procedures, which can increase 
access to airports, especially in low visibility conditions.
    Advances in performance-based procedures and routes allow for 
optimal use of airspace. The FAA maximizes the use of airspace, 
especially in congested areas, through targeted airspace and procedures 
enhancements. Continuing work in the New York area includes integration 
of RNAV procedures, relocation and expansion of airways, airspace 
reconfiguration, and creation of optimal descent procedures. In the 
Chicago area, the FAA is adding departure routes and changing 
procedures to allow for triple arrivals. In southern Nevada, the FAA is 
optimizing existing airports and airspace. Houston will also see 
additional departure routes and arrival procedures, along with improved 
procedures to avoid severe weather.
    Operators like Southwest Airlines recognize the value of 
performance-based navigation. The airline made the business decision 
early last year to equip its entire fleet for RNAV and RNP procedures. 
The company envisions building a network of RNP routes for their 
system. Southwest believes its $175 million investment can be recouped 
within the next three to 5 years because of the operational 
efficiencies RNP offers. We are currently working with Southwest on a 
pilot project to build RNAV/RNP routes between Texas' Dallas Love Field 
and Houston Hobby airports.
    Today, more than three-quarters of commercial aircraft are equipped 
for RNAV, and almost half of these are equipped for RNP precision 
procedures. Likewise, more than 20,000 aircraft are equipped for LPVs. 
This level of equipage provides an excellent opportunity for the 
aviation community to use what it already has to produce ever-greater 
benefits. FAA has responded: last year the agency published more than 
600 performance-based navigation procedures and routes, versus our goal 
of almost 400. The FAA plans to keep up this pace each year for the 
next 4 years.
    Because the realization of NextGen benefits is integrally linked to 
how quickly the operators equip their aircraft, it is imperative that 
the FAA work closely with industry on NextGen deployment. As such, the 
FAA has established a NextGen Implementation Task Force with RTCA, an 
industry association that serves as a Federal advisory committee. The 
task force will provide recommendations on how to move forward together 
on implementation. FAA's governing principles for accelerating 
equipage, published in the January 2009 FAA's NextGen Implementation 
Plan, provide a starting point for this work. These principles focus on 
mitigating the risk for early adopters of NextGen avionics, while 
providing the maximum operational benefits in the airspace where 
they're most needed. They also focus on international interoperability, 
and incentivizing the equipage of aircraft that meet evolving 
environmental standards. The Task Force will deliver recommendations to 
the FAA in August 2009.
    Our current national airspace system is safer than it has ever 
been. However, new means are required to ensure this remains the case 
as we transform the NAS. NextGen will continue that trend in the face 
of increasing traffic and the introduction of very light jets, unmanned 
aerial vehicles, and commercial space flights. To continue to minimize 
risk as we introduce a wave of new systems and procedures over the next 
decade, the aviation community will continue its move to safety 
management systems and other aspects of proactive management, where 
trends are analyzed to uncover problems early on. This allows 
preventive measures to be put in place before any accidents can occur.
    An important part of NAS modernization, the FAA's Aviation Safety 
and Information Analysis and Sharing program (ASIAS), provides a suite 
of tools that extract relevant knowledge from large amounts of 
disparate safety information. The FAA is partnering with NASA and major 
airlines for ASIAS, which helps FAA and our industry partners to 
monitor the effectiveness of safety enhancements. In use today, ASIAS 
will ensure that the operational capabilities that produce capacity, 
efficiency and environmental benefits are first and foremost inherently 
safe. ASIAS has already demonstrated the ability to measure the 
performance of safety solutions to known problems, such as Loss of 
Control, Controlled Flight Into Terrain, Runway Incursion, Approach, 
and Landing Accident Reduction. Additionally, ASIAS has demonstrated 
the ability to detect new safety issues, such as terrain avoidance 
warning system alerts (TAWS) at mountainous terrain airports, and to 
identify solutions that have the potential to virtually eliminate these 
threats. Between now and Fiscal Year 2013, the FAA intends to increase 
the number of data bases ASIAS can access; expand ASIAS to include 
maintenance/air traffic information; increase membership by adding 
regional air carriers; increase community stakeholders to include 
general aviation, helicopter and military; and increase the automated 
search capabilities.
    The primary environmental and energy issues that will significantly 
influence the future capacity and flexibility of the NAS are aircraft 
noise, air quality, global climate effects, energy availability, and 
water quality. Aviation accounts for approximately 3 percent of direct 
greenhouse gas emissions, and national and international concerns about 
climate impacts could constrain the industry in the future, if not 
properly addressed. An environmental management system approach will be 
used to integrate all environmental and energy considerations into core 
NextGen business and operational strategies.
    In 2009, we are moving forward on a research consortium called 
Continuous Low Emissions, Energy and Noise (CLEEN), which will allow us 
to work with industry to accelerate the maturation of technology that 
will lower energy, emissions and noise. CLEEN also seeks to advance 
renewable alternative fuels for aviation. These fuels not only improve 
air quality and reduce life cycle greenhouse emissions, but also 
enhance energy security and supplies. FAA helped form--and is an active 
participant in--the Commercial Aviation Alternative Fuels Initiative, 
or CAAFI. Alternative fuels will be the ``game changer'' technology 
that gets us closer to carbon neutrality. Significant deliverables in 
the FY09-13 period include demonstrations of clean and quiet aircraft 
technologies that can be transitioned into new products and used to 
retrofit existing products, approval of generic renewable fuels for 
aviation, and models and guidance to improve our ability to quantify 
environmental costs and benefits and to optimize solutions, including 
those to address CO<INF>2</INF> and non-CO<INF>2</INF> aviation climate 
impacts.
Current Status
    FAA is working closely with all aspects of the aviation community 
to make NextGen a reality sooner rather than later. We are also 
leveraging the capabilities of our legacy systems to improve 
operations. We're partnering with several of the Nation's air carriers 
for trials and demonstrations; we're engaging with universities like 
Embry Riddle. We're working with pilots, dispatchers, and controllers 
on NextGen integration and development to achieve balance in the safety 
and efficiency design of NextGen. The FAA has established an integrated 
demonstration capability in Florida where, working with a wide range of 
government, university and industry partners, we are evaluating NextGen 
technologies. We're working with airport authorities, manufacturers and 
with government bodies and industry from around the world. We are 
collaborating with Joint Planning and Development Office (JPDO) Working 
Groups, RTCA, and other industry groups to integrate stakeholder 
requirements into government commitments.
    Moreover, this past year, through the efforts of the JPDO, we have 
seen the contributions to NextGen resulting from cross-department and 
cross-agency cooperation increase significantly. Through the cross-
agency support provided by the JPDO and its Senior Policy Committee, we 
are collaborating with the Department of Transportation (DOT), the 
Department of Defense (DOD), the Department of Commerce (Commerce), the 
Department of Homeland Security (DHS), and the National Aeronautics and 
Space Administration (NASA). Some of our collaborations have resulted 
in:

  <bullet> DOD established a division at JPDO to work on efficient and 
        secure information sharing;

  <bullet> The Departments of Commerce, Defense and the FAA have 
        collaborated to deliver the first NextGen weather capability in 
        2013; and

  <bullet> JPDO conceived and facilitated the formation of Research 
        Transition Teams to further the effective transition of 
        research from NASA to implementation in the FAA.

    The FAA officially began its development of NextGen in Fiscal Year 
2007 by identifying and funding two transformational programs--
Automatic Dependent Surveillance--Broadcast (ADS-B) and System Wide 
Information Management (SWIM). ADS-B is a key component of NextGen that 
will move air traffic control from a system based on radar to one that 
uses satellite-derived aircraft location data. In addition to improved 
safety with traffic, weather, and flight information, the system also 
promises greater efficiency and flexibility for the national airspace 
system. Aircraft transponders receive GPS signals and use them to 
determine the aircraft's precise position in the sky, which is combined 
with other data and broadcast out to other aircraft and air traffic 
controllers.
    ADS-B is surveillance, like radar, but offers more precision and 
additional services, such as weather and traffic information. ADS-B 
provides air traffic controllers and pilots with much more accurate 
information to help keep aircraft safely separated in the sky and on 
runways. When properly equipped with ADS-B, both pilots and controllers 
will, for the very first time, see the same real-time displays of air 
traffic, thereby substantially improving safety.
    NextGen transformational programs made significant advances over 
the past year. ADS-B essential services have been deployed in southern 
Florida and are being deployed in the Gulf of Mexico, where we have 
never had radar coverage. In December, FAA achieved its In-Service 
Decision for ADS-B essential services in southern Florida. Achievement 
of this major milestone clears the way for national deployment of 
broadcast services. The National Aeronautics Association recognized 
ADS-B last year by presenting the ADS-B team with its Collier Trophy. 
This award is given yearly for ``the greatest achievement in 
aeronautics or astronautics in America with respect to improving the 
performance, efficiency and safety of air or space vehicles.'' The 
Collier award is generally recognized as the epitome of aviation 
innovation and excellence.
    The SWIM program, Data Communications, and NAS Voice Switch 
achieved major acquisition milestones, and NextGen Network Enabled 
Weather (NNEW) conducted demonstrations of the integration of weather 
data into automated decision support tools. This is a necessary step in 
the realization of improved management of weather in the NAS.
    An updated FAA NextGen Implementation Plan was published in January 
2009. This edition of the plan focuses on answering five fundamental 
questions: What does NextGen look like in 2018; what aircraft avionics 
are needed to support operations in 2018; what benefits will be 
delivered by 2018; what is the FAA specifically committed to deploy in 
the near-term that makes the most of existing resources; and what 
activities are underway to support future capabilities?
    While the focus of the FAA's NextGen Implementation Plan is on the 
mid-term (through 2018), the plan, coupled with the NAS Enterprise 
Architecture, provides a picture of near-term (2009-2013) deliverables. 
FAA's near-term NextGen implementation efforts are targeted across 
three broad areas: airfield development, air traffic operations, and 
aircraft capabilities. Together, these efforts will increase capacity 
and operational efficiency, enhance safety, and improve our 
environmental performance. We are moving forward with a dual-pronged 
approach: maximizing the use of untapped capabilities in today's 
aircraft and ground infrastructure, while working aggressively to 
develop and deploy new systems and procedures that will form a 
foundation for more transformative capabilities that will be delivered 
in the mid-term. We believe this approach allows both government and 
industry to extract the greatest value from existing investments, while 
positioning the industry to gain exponential benefits in the mid-term 
and beyond.
    From that first investment of $109 million in 2007, and supported 
by sound evaluation and planning, FAA funding for NextGen grew to $202 
million in Fiscal Year 2008 and $688 million is anticipated this Fiscal 
Year. The Administration's Fiscal Year 2010 budget includes 
approximately $800 million for NextGen. The January 2009 NAS Enterprise 
Architecture and NextGen Implementation Plan support these funding 
numbers.
    Along those lines, I would like to thank this Committee and the 
Congress for the additional $200 million in economic recovery funding 
that will be used for repairing and upgrading our air traffic 
facilities and equipment. This will go a long way to improving our 
buildings and providing our workforce with the tools they need to do 
their jobs well.
    We do have other interim efforts to enhance safety and operations, 
such as Runway Status Lights (RWSL). The RWSL system integrates airport 
lighting equipment with approach and surface surveillance systems to 
provide a visual signal to pilots and vehicle operators indicating that 
it is unsafe to enter/cross or begin takeoff on a runway. The system is 
fully automated based on inputs from surface and terminal surveillance 
systems. Airport surveillance sensor inputs are processed through 
safety logic that commands in-pavement lights to illuminate red when 
there is traffic on or approaching the runway.
    The RWSLs will activate either when it is unsafe to enter a runway 
from a taxiway (referred to as runway entrance lighting or RELs) or 
when it is unsafe to take off from a runway (called takeoff hold 
lighting or THLs). For example, if an aircraft is landing or departing, 
the RELs will illuminate indicating it is unsafe for an aircraft or 
vehicle to go onto that runway from a taxiway. Another example is if an 
aircraft starts to cross a runway when there is an aircraft ready for 
departure on that runway, the THLs will illuminate indicating to the 
pilot that it is unsafe to continue the departure. Both RELs and THLs 
will automatically turn off when the system determines it to be safe. 
RWSLs are red lights only; there are no green lights in RWSLs.
    We currently have RWSL systems installed, one at San Diego 
International Airport, and the other at Dallas/Ft. Worth International 
Airport. Installation of RWSL systems is underway at Los Angeles 
International Airport and at Boston Logan International Airport. The 
FAA is scheduled to install RWSL systems at 18 other airports by 2011. 
In addition, we are continuing to test additional runway lights: in 
Boston we are testing Runway Intersection Lighting (RIL) to guard 
runway intersections; and at Dallas/Ft. Worth, we are testing the 
enhanced Final Approach Runway Occupancy Signal (eFAROS) to alert 
landing traffic that a runway is occupied.
Labor Issues
    I know that this Committee has always been interested in how FAA 
has interacted with our labor unions, and I would like to address that 
briefly. In his confirmation hearing before this Committee, Secretary 
LaHood made it very clear that resolving labor disputes was one of his 
top priorities for the FAA, and that he was seeking to fill the FAA 
Administrator position with someone who had the people skills to 
resolve our outstanding issues with the National Air Traffic 
Controllers Association (NATCA). As someone who has sat on both sides 
of the labor debate, I fully support the Secretary's priority on this.
    Our controllers, indeed, our entire work force, are our most 
valuable assets in ensuring the safety of the traveling public. As 
such, we have included controllers in all phases of NextGen so far. 
Controller input has come from individual controllers who have been 
invited to participate in NextGen development, though they were not 
participating as official NATCA representatives. NATCA does have a seat 
on the NextGen Management Board, the governance structure that we 
originally put in place as our framework for achieving NextGen. I look 
forward to moving ahead toward a resolution of our differences. These 
have been challenging times for us, and I want to commend all the hard 
work that has occurred on both sides.
    Chairman Dorgan, Senator DeMint, Members of the Subcommittee, this 
concludes my prepared remarks. Thank you again for inviting me here 
today to discuss FAA's air traffic modernization program. I would be 
happy to answer any questions that you might have.

    Senator Dorgan. Mr. Krakowski, thank you very much.
    Next, we'll hear from Dr. Gerald Dillingham, who's the 
Director of Physical Infrastructure Issues at the GAO.
    Dr. Dillingham?

 STATEMENT OF GERALD L. DILLINGHAM, Ph.D., DIRECTOR, PHYSICAL 
            INFRASTRUCTURE ISSUES, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Dr. Dillingham. Thank you, Mr. Chairman, Ranking Member 
DeMint, Chairman Rockefeller, members of the Subcommittee.
    Since the FAA first announced the air traffic control 
modernization program in 1981, the Nation has spent over $50 
billion on ATC improvements. However, today's ATC system cannot 
meet tomorrow's forecasted demands, and is straining to meet 
today's demands.
    Seven years ago, the Commission on the Future of the U.S. 
Aerospace Industry recommended the establishment of a joint 
program office to plan for meeting the Nation's air 
transportation needs in the 21st century. The FAA has developed 
a vision for NextGen, which it plans to fully implement by 
2025, and has completed much of the planning for it.
    Support for this vision is widespread, but some of the 
aviation community maintains that the plans are not 
sufficiently detailed, especially for airlines, manufacturers, 
and other system users. Stakeholders have also expressed 
concerns about the governance and management plan for 
implementing NextGen. Some major stakeholders are still saying 
they are not sure what is and what is not included in NextGen.
    During the last 2 years, we identified a shift in 
stakeholder emphasis. Instead of focusing on 2025 and a full 
and complete system transformation, stakeholders are asking for 
specifics about what can be done immediately to address current 
system delays and congestion.
    In 2008, almost one in four flights arrived late or was 
canceled, and the average flight delay increased, despite a 6 
percent decline in the total number of operations. We have 
previously reported to this committee on the stakeholders' 
interest in what some refer to as NowGen. NowGen focuses on 
obtaining the maximum benefits available from existing and 
proven capabilities and existing NAS infrastructure as a bridge 
to NextGen.
    The FAA is to be commended for its recent actions to 
address today's problems, including its issuance, in January 
2009, of a NextGen implementation plan that focuses on 
improving the efficiency and capacity of the NAS between now 
and 2018.
    Another recent action is the FAA's establishment of the 
RTCA Task Force, which is charged with identifying capabilities 
that can be implemented in the next few years, and prioritizing 
them according to their relative merits and net benefits. To 
obtain the full benefits of the new capabilities, the private 
sector will have to invest in them as well as the government, 
but before the private sector stakeholders, especially 
airlines, will invest, they will need to be convinced that 
their investments will produce a relatively quick return in the 
form of enhanced operational capabilities, fuel savings, or 
environmental benefits.
    Given the financial health of the industry and of the 
economy, the FAA may have to create some incentives for 
airlines to make early investments in new technologies and 
capabilities.
    The FAA also faces key challenges in the mid-term and 
longer term. These challenges include, first, developing 
standards and procedures and regulations that will further 
enable the use of existing capabilities; second, maintaining 
and repairing existing facilities so that they can continue to 
be used safely and reliably as part of the current system and, 
in some cases, integrated into NextGen; third, addressing the 
FAA's human resource needs so that adequate numbers of staff 
with the right skill mix are available to implement the 
transition; and finally, supporting research and development, 
especially with regard to weather, human factors, and 
environmental issues.
    Work on longer-term challenges, such as infrastructure 
development, will also need to begin as soon as possible to 
ensure that solutions are available when needed. For example, 
the FAA has already identified 14 major airports that will need 
additional runways by 2025 to meet the forecasted demands.
    According to a JPDO analysis, when the proposed NextGen 
technology solutions are added to the planned increase in 
runways, the best-case scenario shows an average increased 
system capacity of only about 60 percent.
    Mr. Chairman, without the necessary follow-through on 
transforming the national airspace system and meeting the near- 
and longer-term challenges, the predictions of system gridlock 
could come true, resulting in severe effects for the traveling 
public, the national economy, and the U.S.'s global 
competitiveness.
    Mr. Chairman, that concludes my oral statement.
    [The prepared statement of Dr. Dillingham follows:]

      Prepared Statement of Gerald L. Dillingham, Ph.D. Director, 
 Physical Infrastructure Issues, U.S. Government Accountability Office
    Mr. Chairman and Members of the Subcommittee:
    I appreciate the opportunity to testify before you this morning on 
efforts to transform the Nation's current air traffic control (ATC) 
system to the Next Generation Air Transportation System (NextGen). 
Currently, the U.S. air transportation system handles about 50,000 
flights over a 24-hour period. By 2025, air traffic is projected to 
increase to about 80,000 flights every 24 hours. Today's U.S. air 
transportation system will not be able to meet these air traffic 
demands. In fact, as we all know, today's system is straining to meet 
current demands. For example, in 2008, almost one in four flights 
either arrived late or was canceled, and the average flight delay 
increased despite a 6 percent decline in the total number of 
operations. The transformation to NextGen, together with other ongoing 
ATC modernization efforts, promises to enhance the capacity and 
efficiency of our air transportation system while maintaining safety 
and minimizing the environmental impact of air transportation.
    In Vision 100,\1\ enacted in 2003, Congress directed the Secretary 
of Transportation to establish the Joint Planning and Development 
Office (JPDO) to plan and coordinate the transition to NextGen in 
collaboration with other Federal agencies \2\ and the aviation 
industry. NextGen will transform the current radar-based ATC system 
into a more automated, aircraft-centered, satellite-based system, and 
will shift the operating paradigm from air traffic control to air 
traffic management. NextGen encompasses five major transformational 
programs--Automatic Dependent Surveillance Broadcast (ADS-B), System-
Wide Information Management (SWIM), NextGen Data Communications 
(DataComm), NextGen Network Enabled Weather (NNEW), and National 
Airspace Voice Switch (NVS).\3\ JPDO--located organizationally within 
the Federal Aviation Administration (FAA)--is responsible for NextGen 
planning and coordination. FAA's Air Traffic Organization (ATO), headed 
by its Chief Operating Officer (COO), is responsible for implementing 
the transition to NextGen. At the same time, FAA is planning and 
implementing other capabilities that have not been designated 
specifically as NextGen efforts but are also expected to enhance the 
capacity and efficiency of the air transportation system. FAA plans to 
implement these capabilities in the midterm, defined as 2012 through 
2018, and eventually to integrate them with NextGen transformational 
programs.
---------------------------------------------------------------------------
    \1\ Vision 100--Century of Aviation Reauthorization Act, Pub. L. 
No. 108-176, 117 Stat. 2490 (2003).
    \2\ NextGen was designed as an interagency effort in order to 
leverage various agencies' expertise and funding to advance NextGen 
while avoiding duplication. The Federal partner agencies are the 
Departments of Commerce (particularly its National Oceanic and 
Atmospheric Administration), Defense, Homeland Security, and 
Transportation; the Federal Aviation Administration; the National 
Aeronautics and Space Administration; and the White House Office of 
Science and Technology Policy.
    \3\ ADS-B is a satellite navigation system that is designed, along 
with other navigation technologies, to enable more precise control of 
aircraft during en route flight, approach, and descent. SWIM is an 
information management architecture for the national airspace system, 
acting as its ``World Wide Web.'' SWIM will manage surveillance, 
weather, and flight data, as well as aeronautical and system status 
information, and will provide the information securely to users. 
DataComm provides a digital communications link for two-way exchanges 
between controllers and flight crews for ATC clearances, instructions, 
advisories, flight crew requests, and reports. NNEW will serve as the 
core of the NextGen weather support services and provide a common 
weather picture across the national airspace system. NVS will replace 
existing switches and provide the foundation for all air/ground and 
ground/ground voice communications in the future ATC environment.
---------------------------------------------------------------------------
    My testimony this morning addresses: (1) JPDO's and ATO's progress 
in planning NextGen and changes in the NextGen management structure; 
(2) ongoing efforts to implement midterm capabilities to address 
capacity constraints and delays, and issues related to these efforts; 
and (3) key human capital issues, research and development needs, and 
facilities maintenance and reconfiguration challenges going forward. My 
statement is based on recent related GAO reports and testimonies, 
updated with more recent FAA data, and our discussions with selected 
senior FAA officials; officials of the National Air Traffic Controller 
Association (NATCA) and the Professional Aviation Safety Specialists 
(PASS) unions; and aviation industry stakeholders, including the Air 
Transport Association, which represents U.S. airlines, and aircraft and 
avionics industry representatives. This work was conducted in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the work to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
JPDO and ATO Have Issued Key NextGen Plans, but ATO Restructuring and 
        Recent Executive Order Have Not Fully Resolved NextGen 
        Management Issues
    JPDO and ATO have issued key NextGen plans and have reorganized the 
management structure for NextGen. We have previously reported on 
stakeholders' concerns about the fragmented management structure for 
NextGen and resulting lack of clear accountability for NextGen's 
implementation. While recent FAA efforts have made progress on this 
front, they have yet to fully resolve stakeholders' concerns. Resolving 
this issue will be critical to advancing both the implementation of 
capabilities in the midterm and the full transformation to NextGen in 
the long term.
Planning Effort Has Shifted to Focus on Implementation, but Continues 
        to Lack Specific Timelines and Commitments
    Since 2003, JPDO and ATO have made progress in planning for and 
implementing NextGen. In accordance with Vision 100, JPDO created a 
multi-agency research and development plan for the transition to 
NextGen. This plan consists of three basic documents--a Concept of 
Operations, an Enterprise Architecture, and an Integrated Work Plan.\4\ 
Collectively, these three documents form a basis for interagency and 
industry planning and coordination. JPDO views these plans as iterative 
and intends to issue further versions as NextGen technologies are 
developed and implemented. As NextGen progressed from the planning to 
the implementation phase, ATO produced its NextGen Implementation Plan, 
which addresses the more detailed level of planning and activities 
necessary to achieve NextGen capabilities. According to ATO, it and 
JPDO have worked to align and ensure linkages between these planning 
documents. The current version of the NextGen Implementation Plan, 
released in January 2009, focuses on the midterm (2012 though 2018) 
implementation of NextGen capabilities.
---------------------------------------------------------------------------
    \4\ The Concept of Operations describes how the NextGen system is 
envisioned to operate in 2025 and beyond and identifies key research 
and policy issues. The Enterprise Architecture is a technical 
description of the NextGen system, akin to blueprints for a building; 
it is meant to provide a common tool for planning and understanding the 
complex, interrelated systems that will make up NextGen. JPDO's 
Integrated Work Plan is akin to a project plan and is meant to describe 
the capabilities needed to transition to NextGen from the current 
system and provide the research, policy, regulation, and acquisition 
timelines necessary to achieve NextGen by 2025.
---------------------------------------------------------------------------
    In a previous testimony,\5\ we raised some concerns about the 
usefulness of the NextGen planning documents, and we still have some 
concerns. For example, we reported that the planning documents lacked 
the type of specific information that industry stakeholders need for 
their own planning purposes, such as a catalog of critical needs, 
clearly defined and prioritized intermediate objectives, and a 
structured plan for achieving tangible results. Recent versions of 
NextGen planning documents have partially addressed some of these 
concerns, but industry stakeholders continue to express frustration 
that the planning documents lack any specific timelines or commitments. 
A senior FAA official has acknowledged that FAA will face ongoing 
challenges in attempting to communicate effectively with industry and 
other stakeholders to ensure that they fully understand the content and 
objectives of the initiative and remain engaged and committed to its 
planning and implementation.
---------------------------------------------------------------------------
    \5\ GAO, Next Generation Air Transportation System: Status of Key 
Issues Associated with the Transition to NextGen, GAO-08-1154T 
(Washington, D.C. Sept. 11, 2008).
---------------------------------------------------------------------------
NextGen Organizational Structure Has Undergone Changes, but Roles and 
        Responsibilities Continue to Be Unclear
    Initially, JPDO was established as a separate and independent 
office within FAA reporting directly to both the COO of ATO and the FAA 
Administrator (see fig. 1).
Figure 1: FAA Organization, November 2007
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: FAA.

    In May 2008, FAA announced a reorganization of its NextGen 
management structure and named a Senior Vice President for NextGen and 
Operations Planning who reports to ATO's COO (see fig. 2.). The 
reorganization eliminated JPDO's dual reporting status, and the JPDO 
Director now reports directly to the newly created Senior Vice 
President for NextGen and Operations Planning. The reorganization also 
led to JPDO's placement lower in FAA's organizational structure--it is 
now a fourth-level organization.
Figure 2: Current FAA and ATO Organization
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: FAA.

    According to ATO's COO, a purpose of the reorganization was to 
respond to industry stakeholders' concerns about the fragmentation of 
authority and lack of accountability for NextGen, which might delay its 
implementation. In particular, stakeholders have expressed frustration 
that a program as large and important as NextGen does not follow the 
industry practice of having one person with the authority to make key 
decisions. In the COO's view, the reorganization creates one ``team'' 
with one person in charge to plan, implement, and oversee NextGen. 
According to FAA, the Senior Vice President for NextGen and Operations 
Planning is responsible for integrating and implementing all elements 
of NextGen. However, this individual does not have budget authority 
over several key NextGen projects, according to a recent testimony from 
the Department of Transportation's (DOT) Inspector General.\6\
---------------------------------------------------------------------------
    \6\ Federal Aviation Administration: Actions Needed to Achieve Mid-
Term NextGen Goals. Statement by Calvin L. Scovel III, Inspector 
General, U.S. Department of Transportation before the Subcommittee on 
Aviation, Committee on Transportation and Infrastructure, U.S. House of 
Representatives, U.S. Congress (Washington D.C., March 18, 2009).
---------------------------------------------------------------------------
    In November 2008, the President issued Executive Order 13479,\7\ 
which took the positive step of treating NextGen as an important 
national initiative, but potentially added another level of complexity 
and uncertainty to the management structure for NextGen. The order 
directed the Secretary to create a staff to support the Senior Policy 
Committee, an advisory body chaired by the Secretary of Transportation 
whose members are the heads of the Federal partner agencies and whose 
purpose is to provide policy guidance for NextGen planning. Previously, 
JPDO coordinated the agenda of the Senior Policy Committee, but now, 
according to FAA, the new support staff will coordinate the committee's 
agenda, although JPDO will continue to be involved in the development 
of issues and topics for the committee. Furthermore, notwithstanding 
JPDO's statutory responsibility for coordinating with the Federal 
partner agencies, the director of the support staff will serve as the 
senior DOT liaison between the Secretary and the Federal partner 
agencies. It remains unclear how these changes will affect JPDO's role 
relative to the Senior Policy Committee or to other Federal partner 
agencies. The executive order also directed the Secretary to establish 
a committee to advise the Secretary on the implementation of NextGen. 
According to FAA's interpretation of the executive order, the new 
advisory committee will be an external (nongovernmental) committee 
whose role will be to provide an external stakeholder perspective. The 
role of this committee could potentially duplicate the roles of other 
advisory bodies associated with the NextGen initiative. FAA has said 
that it and JPDO are working with DOT to clarify roles and 
responsibilities in executing the executive order.
---------------------------------------------------------------------------
    \7\ Transformation of the National Air Transportation System, Exec. 
Order No. 13479 (2008).
---------------------------------------------------------------------------
    It is difficult to tell how well the reorganization and the 
implementation of the executive order will address stakeholders' 
concerns about the fragmentation of authority for NextGen. For example, 
although the reorganization places JPDO and the office responsible for 
NextGen integration and implementation under the leadership of the same 
Senior Vice President, other activities critical to NextGen's 
implementation lie outside this official's jurisdiction. Several types 
of aviation operations are under the leadership of the Senior Vice 
President for Operations, and responsibilities for airport and aviation 
safety activities fall outside ATO altogether and are headed by FAA 
Associate Administrators. According to FAA, the NextGen Management 
Board, which is composed of Associate Administrators, the COO, Senior 
Vice Presidents, and the Director of the JPDO, ensures agency-wide 
support for NextGen. However with no direct line of authority between 
the Senior Vice President for NextGen and Operations Planning and these 
other operations and activities, accountability for NextGen outcomes is 
unclear, creating the potential for delays in implementation. It is 
also unclear how the reorganization and the implementation of the 
executive order will affect the overall role created for JPDO by Vision 
100. For example, according to one industry stakeholder, their ability 
to understand and be involved in the NextGenrelated efforts of Federal 
partner agencies has been hampered by JPDO's placement under ATO's 
management.
    Several stakeholders have suggested that an office above the Senior 
Vice President for NextGen and Operations Planning and these other 
units--an office that would report directly to the FAA Administrator or 
the Secretary of Transportation--is needed to ensure accountability for 
NextGen results. In contrast, another stakeholder suggested that 
further reorganization may not be needed, but FAA's existing leadership 
could play a greater role in clarifying the responsibilities of the 
various offices involved in planning and implementing NextGen and in 
clearly assigning accountability for NextGen outcomes.
Industry Stakeholders Seek More Rapid Midterm Implementation of 
        Existing Capabilities, but Progress Depends Both on Airlines' 
        Investments and on FAA's Validation, Certification, and 
        Rulemaking
    To help address current congestion and delays, many stakeholders 
have suggested that FAA focus on maximizing what can be done with 
existing, proven capabilities and existing infrastructure. We have 
previously characterized this approach as ``NowGen.'' For example, 
industry stakeholders highlighted ``off-the-shelf'' technologies, 
including Traffic Management Advisor (TMA), Traffic Flow Management 
(TFM), and User Request Evaluation Tool (URET), as well as performance-
based navigation \8\ and tailored arrival procedures. Such technologies 
and procedures are being implemented in airports now and, according to 
these stakeholders, could be implemented more widely and used more 
effectively to address capacity constraints. For example, TMA--a 
decision- support tool that helps controllers manage air traffic flows 
more efficiently--has been used at some airports to increase capacity. 
However, according to one stakeholder, some airports equipped with TMA 
are not using it to its fullest extent to increase capacity. Industry 
stakeholders also maintain that using existing performance-based 
navigation procedures during low-visibility conditions--when the 
required distances separating aircraft are normally increased for 
safety reasons--would enable greater use of closely spaced parallel 
runways, thereby increasing capacity.
---------------------------------------------------------------------------
    \8\ Performance-based navigation, which includes Area Navigation 
(RNAV) and Required Navigation Performance (RNP), is a framework for 
defining navigation performance requirements (``navigation 
specifications'') that can be applied to an air traffic route, an 
instrument procedure, or a defined airspace. Performance-based 
navigation provides a basis for the design and implementation of 
automated flight paths.
---------------------------------------------------------------------------
    In part to help accelerate the implementation of existing 
capabilities in the midterm--including technologies that are part of 
NextGen's five transformational programs, such as ADS-B--FAA has 
created a NextGen Midterm Implementation Task Force through RTCA.\9\ 
According to the NextGen Implementation Plan, the task force will focus 
on maximizing the benefits of midterm NextGen operational capabilities 
and addressing business and investment-related issues associated with 
implementing these capabilities. A member of the task force indicated 
that it will be identifying a handful of capabilities that can be 
implemented in the midterm and prioritizing them according to their 
relative net benefits. Furthermore, the task force will be examining 
the potential for deploying capabilities regionally to address key 
bottlenecks in the national air transportation system before deploying 
them nationally. Current plans call for the task force to provide final 
conclusions and recommendations to FAA in August 2009.
---------------------------------------------------------------------------
    \9\ RTCA, Inc. is a private, not-for-profit corporation that 
develops consensus-based recommendations on communications, navigation, 
surveillance, and air traffic management (CNS/ATM) system issues. RTCA 
functions as a Federal Advisory Committee. FAA uses its recommendations 
as a basis for policy, program, and regulatory decisions.
---------------------------------------------------------------------------
Midterm Implementation Depends on Airlines' Acquisition of Required 
        Avionics
    Implementing these capabilities in the midterm, as well as over the 
long term, depends not only on FAA, but also on aircraft operators, who 
must acquire the necessary equipment. For example, aircraft must be 
equipped with appropriate technology to use ADS-B. Some airlines have 
purchased some of the necessary technology, but over all, airlines are 
waiting for FAA to specify requirements and address funding concerns. 
In addition, industry stakeholders have expressed concerns about the 
progress made by FAA in adequately explaining and demonstrating the 
benefits of equipping aircraft with advanced avionics equipment, which 
comes at a significant cost to the aviation industry. For example, one 
industry stakeholder told us that, without an explicit FAA commitment 
to reduce separation standards--a key benefit of deploying aircraft 
with ADS-B equipment--the industry has little incentive to voluntarily 
purchase the equipment. One objective of the new NextGen Midterm 
Implementation Task Force is to help operators identify the benefits of 
acquiring NextGencompatible equipment sooner rather than later.
    A range of potential requirements and incentives could encourage 
aircraft operators to purchase equipment. These could include mandated 
deadlines or operational preferences--such as preferred airspace, 
routings, or runway access. Industry stakeholders have expressed 
concerns that the array of operational benefits available to early 
equippers has yet to be identified and defined, and have also 
questioned the extent to which such preferences would result in 
tangible benefits. Another proposed option would combine mandated 
deadlines and operational preferences with equipment investment tax 
credits that would financially support equipment implementation for a 
limited initial set of aircraft operators. The credits would provide a 
competitive advantage for early equippers. Airlines that continue to 
delay equipage will become more and more disadvantaged, thus providing 
an incentive for these airlines to equip.
Midterm Implementation Also Depends on FAA's Validation, Certification, 
        and 
        Rulemaking Efforts
    Before midterm NextGen implementation can occur, FAA must validate 
and certify \10\ technologies and issue rules for the use of 
procedures. FAA has made some progress in this area, including 
developing specifications for performance-based navigation procedures 
at selected airports, but much remains to be done. We and others have 
previously expressed concerns about the time and human resources 
required for these efforts and have identified them as a significant 
risk to the timely and cost effective implementation of NextGen.\11\ In 
recent interviews, stakeholders have expressed similar concerns about 
the midterm implementation of existing or off-the-shelf technologies 
and capabilities. For example, an avionics manufacturer, an aircraft 
manufacturer, and an airline association we interviewed all cited the 
time it takes to develop rules for new procedures and the problems that 
result from deploying equipment before rules are finalized. Any 
activities needed to implement new policies and procedures, such as the 
expanded use of performance-based navigation procedures; to demonstrate 
new capabilities, such as the use of closely spaced parallel runways; 
to set parameters for the certification of new systems, such as ADS-B; 
and to develop new technologies will take time and be a priority in the 
mid- and long-term planning for NextGen. Just as important, the time 
required to complete such activities will have to be balanced against 
the need to ensure the reliability and safety of procedures and systems 
before they are used in the national airspace system.
---------------------------------------------------------------------------
    \10\ Validation is the process through which a technology is shown 
to operate in a real-life environment with a desired level of 
confidence. Certification is a form of FAA approval for the use of a 
technology, such as aircraft equipment, in the national airspace 
system.
    \11\ After studying the lead time required to prototype, validate, 
and certify new technologies, we concluded that neither JPDO nor FAA 
had sufficient resources to complete these types of tasks, and could 
not develop them internally without causing significant delays to 
NextGen-related capabilities. See GAO, Response to Questions for the 
Record; Hearing on the Future of Air Traffic Control Modernization, 
GAO-07-928R (Washington, D.C.: May 30, 2007). We discuss the human 
capital element of this challenge in greater detail later in this 
testimony.
---------------------------------------------------------------------------
Addressing Ongoing Human Capital, Research and Development, and 
        Facility and Capacity Challenges Will Be Critical for NextGen's 

        Implementation Going Forward
    A number of other challenges affect FAA's ability to move forward 
with NextGen's implementation. These challenges include resolving 
ongoing human capital challenges, addressing research and development 
needs, reconfiguring and maintaining existing facilities, and enhancing 
the physical capacity of airports.
Resolving Key Human Capital Challenges, Including Involving Internal 
        Stakeholders and Acquiring Expertise, Will Be Critical to 
        NextGen's Success
    Involving internal stakeholders, such as current air traffic 
controllers and technicians, in planning for and deploying new 
technologies will be important to NextGen's success. In our view, input 
from current air traffic controllers with recent experience controlling 
aircraft, who will be responsible for managing traffic in the NextGen 
environment, and from current technicians, who will maintain NextGen 
equipment, is important when considering human factors and safety 
issues. Furthermore, our work on past ATC modernization projects has 
shown that a lack of stakeholder or expert involvement early and 
throughout a project can lead to cost increases and delays.\12\
---------------------------------------------------------------------------
    \12\ See GAO, Air Traffic Control: FAA Needs to Ensure Better 
Coordination When Approving Air Traffic Control Systems, GAO-05-11 
(Washington, D.C.: Nov. 17, 2004) and GAO-08-1154T.
---------------------------------------------------------------------------
    We have previously reported that active air traffic controllers 
were not involved in the NextGen planning effort.\13\ In following up 
on this issue, we found that some progress has been made. According to 
FAA, it has used active controllers as subject matter experts in 
NextGen development; representatives of both the controllers' and the 
technicians' unions have seats on the NextGen Management Board; and the 
controllers' union is participating in the NextGen Midterm 
Implementation Task Force. Controller union officials have likewise 
reported participating in several NextGen planning and decision-making 
groups, including the Institute Management Council,\14\ and acknowledge 
that active controllers serve as subject matter experts for NextGen 
working groups. However, these union officials have expressed concern 
that the union is not involved in selecting the subject matter experts. 
According to the technicians' union, it does not generally participate 
in NextGen efforts, although it has a liaison working on ADS-B and is 
seeking to participate in the NextGen Midterm Implementation Task 
Force.
---------------------------------------------------------------------------
    \13\ See GAO-08-1154T.
    \14\ The Institute Management Council, consisting of 16 senior 
leaders from the aviation community, oversees the policy, 
recommendations, and products of the NextGen Institute--which was 
established by FAA and the National Center for Advanced Technologies to 
provide JPDO with access to private-sector expertise, tools, and 
facilities for application to NextGen activities and tasks.
---------------------------------------------------------------------------
    Acquiring expertise in areas such as systems engineering and 
contract management is another human capital challenge FAA faces going 
forward. Because of the scope and complexity of the NextGen effort, the 
agency may not currently have the in-house expertise to manage the 
transition to NextGen without assistance. In November 2006, we 
recommended that FAA examine the strengths and weaknesses of its 
technical expertise and contract management expertise in light of the 
skills required to define, implement, and integrate the numerous 
complex programs inherent in the transition to NextGen.\15\ In response 
to our prior recommendation, ATO contracted with the National Academy 
of Public Administration (NAPA) to: (1) determine the mix of skills 
needed by the nonoperational (acquisition) workforce to implement 
NextGen and (2) identify the strategies for acquiring the necessary 
workforce competencies.
---------------------------------------------------------------------------
    \15\ NextGeneration Air Transportation System: Progress and 
Challenges Associated with the Transformation of the Next Generation 
Air Transportation System, GAO-07-25 (Washington, D.C.: Nov. 13, 2006).
---------------------------------------------------------------------------
    In September 2008, NAPA completed its study and reported to FAA. 
The study found that ATO will need to develop or strengthen skills in 
the areas of software development, systems engineering, research and 
development, strategic planning, financial budget analysis, and 
contract administration, among others. However, the study identified 
leadership as the single most important element of success for large-
scale systems integration efforts like NextGen and highlighted 
leadership as a NextGen implementation challenge. The study, therefore, 
recommended that FAA tailor its leadership development program to focus 
on the specific leadership skills needed for managing this large, 
complex, evolving program, to include communication, collaboration, 
change management, and accountability and measurement. Strategies 
presented to ATO for consideration in acquiring the skills needed for 
the NextGen transition include aggressively marketing the NextGen 
vision, enhancing internal research and development skills, and working 
collaboratively with FAA headquarters to develop a more integrated 
approach to NextGen workforce planning.
    According to an FAA official, FAA plans to fill a total of 378 
NextGen positions in Fiscal Years 2009 and 2010. NextGen staffing needs 
can be difficult to address, a senior FAA official said, because 
historically NextGen skills have been in short supply and competitively 
priced in the marketplace. However, the current economic conditions 
could make hiring for these positions less difficult than it otherwise 
might be. If not adequately addressed, this situation could contribute 
to delays in integrating new technologies and transforming the national 
airspace system.
Addressing Ongoing Research and Development Needs Is Key to Keeping the 
        Vision of NextGen on Track
    As NextGen moves forward, applied research will be needed to 
integrate its five transformational technologies, as well as the legacy 
facilities and systems that will also be part of NextGen, to ensure 
that all the components work safely and reliably together. According to 
FAA, the funding requested in its Capital Improvement Program for 2009 
through 2013 reflects the research and development and capital 
investments deemed necessary to deliver NextGen capabilities in the 
midterm. The funding requested for FAA NextGen research and development 
has significantly increased, from a total of $83 million in Fiscal Year 
2009 to about twice that amount in each of the next 4 Fiscal Years.\16\ 
FAA believes that this level of FAA funding for NextGen research and 
development will complement investments made by Federal partner 
agencies--particularly the National Aeronautics and Space 
Administration (NASA)--and will adequately support NextGen's 
implementation. In addition, the American Recovery and Reinvestment Act 
has increased NASA's budget for aeronautics research by $150 million, 
although it does not indicate whether this additional funding will be 
focused on NextGen-specific research.\17\
---------------------------------------------------------------------------
    \16\ FAA has requested $161 million in Fiscal Year 2010, $164 
million in Fiscal Year 2011, $165 million in Fiscal Year 2012, and $167 
million in Fiscal Year 2013 for NextGen research. FAA has also 
requested additional funding for other research
    \17\ Pub. L. No. 111-5, title II, 123 Stat. 115 (2009).
---------------------------------------------------------------------------
    NASA's aeronautics research has long supported FAA's air traffic 
modernization efforts. To help ensure that NASA's aeronautics research 
is effectively transferred to FAA, the two agencies have developed a 
strategy that initially establishes four research transition teams, 
which are aligned with JPDO's planning framework. This strategy also 
outlines the two agencies' responsibilities for the research--FAA will 
develop user requirements, and NASA will conduct the fundamental 
research in each of the four areas and then transfer projects back to 
FAA for further development. According to FAA, its collaboration with 
NASA on the research transition teams has better focused NASA's 
investments on FAA's requirements. Research transition teams have not, 
however, been established between FAA and the other partner agencies.
    Prioritizing the research and development needed for NextGen is 
also important to avoid gaps and delays. The most recent version of 
JPDO's Integrated Work Plan identifies the sequence of research that 
must be completed before specific NextGen capabilities can completed. 
This research, however, cannot be fully prioritized without identifying 
the benefits that can be expected from the different capabilities and 
technologies. According to JPDO officials, they are developing a matrix 
that will identify benefits and costs and build a business case for all 
the components of NextGen over the next year that will help in 
prioritizing research and development.
    Going forward, further research and development is needed in a 
number of areas to implement NextGen, according to FAA, stakeholders, 
and our analysis. For example:

  <bullet> Environmental Impact Research: According to a JPDO analysis, 
        the environmental impact of aviation will be the primary 
        constraint on the capacity and flexibility of the national 
        airspace system unless this impact is managed and mitigated. In 
        proposed legislation reauthorizing FAA, $111 million for Fiscal 
        Years 2009 through 2011 may be used for a new FAA research and 
        development program to help reduce aviation noise and 
        emissions. This program--the Continuous Lower Energy, 
        Emissions, and Noise (CLEEN) initiative--would facilitate over 
        the next 10 years the development, maturation, and 
        certification of improved airframe technologies. Aeronautics 
        industry representatives and experts we consulted said that the 
        program's funding levels may not be sufficient to attain the 
        goals specified in the proposal. According to these experts, 
        the proposed funding levels would allow for the further 
        development of one or possibly two projects. FAA recognizes the 
        implications of the proposed funding structure for CLEEN and 
        characterizes the program as a ``pilot.''

  <bullet> Human Factors Research: Human factors research explores what 
        is known about people and their abilities, characteristics, and 
        limitations in the design of the equipment they use, the 
        environments in which they function, and the jobs they perform. 
        Compared with the current ATC system, NextGen will rely to a 
        greater extent on automation, and the roles and 
        responsibilities of pilots and air traffic controllers will 
        change. For example, both pilots and controllers will depend 
        more on automated communications and less on voice 
        communications. Such changes in roles and responsibilities 
        raise significant human factors issues for the safety and 
        efficiency of the national airspace system. Until Fiscal Year 
        2005, NASA was a primary source of Federal aviation-related 
        human factors research, but NASA then began reducing its human 
        factors research staff, reassigning some staff to other 
        programs and reducing the contractor and academic technical 
        support for human factors research. According to NASA, human 
        factors research continues to be a critical component of its 
        aeronautics research program, although its work is now focused 
        at the foundational (earlier-stage) level. FAA plans to invest 
        $180.4 million in human factors research from Fiscal Year 2009 
        through Fiscal Year 2013. It remains to be seen whether or to 
        what extent FAA's research and development, which is typically 
        more applied than NASA's, will offset NASA's reductions in 
        human factors research.

  <bullet> Weather Related Research: Improved weather information is 
        essential to realize key NextGen capabilities that depend on 
        accurate weather information for decision-making. According to 
        FAA, 70 percent of delays are attributable to weather every 
        year. NextGen Network Enabled Weather (NNEW) is one of the five 
        NextGen transformational programs for which current research 
        and development efforts are needed, even though their full 
        benefits may not be realized until after the midterm. NNEW is 
        intended to provide weather support services for decision-
        making in the NextGen environment. More specifically, NNEW is 
        FAA's contribution to the 4-dimensional weather cube \18\--a 
        technology that will provide weather observations and analyses, 
        including forecasts of expected weather conditions, for all 
        users of the national airspace system. FAA is developing the 
        requirements for this program, and the Department of Commerce, 
        through its National Oceanic and Atmospheric Administration, 
        will lead the development of the 4-dimensional weather cube, 
        using the Department of Commerce's resources and those of the 
        partner agencies. FAA expects to finish defining the 
        requirements for NNEW in March 2009. After validating the 
        requirements, FAA will solicit reviews from the relevant 
        stakeholders on the extent to which their requirements are 
        aligned with those of the other agencies. This is a 
        collaborative effort whose success will depend on contributions 
        from all parties. Delays in aligning agency requirements, as 
        well as the lack of meteorological knowledge, could lead to 
        delays in implementing NextGen systems.
---------------------------------------------------------------------------
    \18\ The 4-dimensional weather cube describes the atmosphere in 
three dimensions (latitude, longitude, and altitude) and adds the 
dimension of time.

    Beyond these research efforts, FAA has continued to move forward in 
planning and conducting demonstrations of some key NextGen 
technologies. For example, a recently announced demonstration with U.S. 
Airways and Aviation Communications and Surveillance Systems at the 
Philadelphia International Airport will test ADS-B technology that 
allows an aircraft with the necessary avionics to transmit its own 
position as well as to receive information from other similarly 
equipped aircraft. FAA is providing $6 million to purchase the 
necessary avionics equipment for the aircraft involved in the 
demonstration. FAA has also initiated projects to demonstrate the 
benefits of integrating NextGen capabilities. For example, in December 
2008, FAA signed a memorandum of agreement with NetJets--an Ohio-based 
air service provider with a fleet of 600 aircraft. In this 
demonstration, FAA will test a number of NextGen technologies and 
procedures including ADS-B. The company will provide real-time data, 
allowing FAA to validate performance requirements. This demonstration 
will help FAA identify the costs and benefits associated with NextGen 
implementation.
Reconfiguring and Maintaining the Existing ATC System and Increasing 
        Physical Capacity Are Also Key Challenges
    To fully realize NextGen's capabilities, a new configuration of ATC 
facilities will be required. FAA has not developed a comprehensive 
reconfiguration plan, but says that preliminary efforts are underway to 
plan concepts for future FAA facilities. Going forward, it will also be 
critical for FAA to ensure the safety and efficiency of its existing 
ATC system, since it will be the core of the national airspace system 
for a number of years and some of its components will become part of 
NextGen. FAA faces an immediate task to maintain and repair existing 
facilities so that the current ATC system continues to operate safely 
and reliably. FAA has estimated a one-time cost of $268 million to 
repair 400 existing terminal facilities. Once FAA develops and 
implements a facility reconfiguration plan, the costs of facility 
repairs and maintenance may be reduced. The American Recovery and 
Reinvestment Act of 2009 provides $200 million to be made available 
within the next 2 years for improvements in power systems, air route 
traffic control centers, air traffic control towers, terminal radar 
approach control facilities, and navigation and landing equipment and 
indicates that projects that can be completed in 2 years should be 
given priority.\19\ The availability of these funds increases the 
importance of FAA's developing facility consolidation and 
reconfiguration plans to ensure that the funds are spent efficiently 
and effectively. FAA has acknowledged the need to keep long-term plans 
in mind so that it does not invest unnecessarily in facilities that 
will not be used for NextGen.
---------------------------------------------------------------------------
    \19\ Pub. L. No. 111-5, title XII, 123 Stat. 115, 205 (2009).
---------------------------------------------------------------------------
    Finally, FAA has determined that, even after planned improvements 
have been completed at 35 of the busiest airports, 14 airports--
including some of the 35 busiest--will still need enhanced physical 
capacity by 2025. Planning infrastructure projects to increase 
capacity, such as building additional runways, can be a lengthy 
process, and will require substantial advance planning and safety and 
cost analyses. Furthermore, without substantial reductions in emissions 
and noise around the Nation's airports and continuing efforts at all 
levels of government, including increased research and development 
activities, achieving the goal of safely expanding the capacity and 
efficiency of the national airspace system to meet 21st century needs 
may not be attainable.
    Thank you, Mr. Chairman. I would be pleased to answer any questions 
that you or Members of the Subcommittee may have at this time.
                    Appendix I: Related GAO Products
    Next Generation Air Transportation System: Status of Transformation 
and Issues Associated with Midterm Implementation of Capabilities. GAO-
09-479T. Washington, D.C. March 18, 2009.
    Next Generation Air Transportation System: Status of Systems 
Acquisition and the Transition to the Next Generation Air 
Transportation System. GAO-08-1078. Washington, D.C.: September 11, 
2008.
    Responses to Questions for the Record; Hearing on the Future of Air 
Traffic Control Modernization. GAO-07-928R. Washington, D.C.: May 30, 
2007.
    Next Generation Air Transportation System: Status of the Transition 
to the Future Air Traffic Control System. GAO-07-784T. Washington, 
D.C.: May 9, 2007.
    Joint Planning and Development Office: Progress and Key Issues in 
Planning the Transition to the Next Generation Air Transportation 
System. GAO-07-693T. Washington, D.C.: March 29, 2007.
    Federal Aviation Administration: Key Issues in Ensuring the 
Efficient Development and Safe Operation of the Next Generation Air 
Transportation System. GAO-07-636T. Washington, D.C.: March 22, 2007.
    Next Generation Air Transportation System: Progress and Challenges 
Associated with the Transformation of the National Airspace System. 
GAO-07-25. Washington, D.C.: November 13, 2006.

    Senator Dorgan. Dr. Dillingham, thank you very much for 
your statement.
    Next, we will hear from Joe Kolshak, who is a Senior Vice 
President of Operations at United Airlines.
    Mr. Kolshak?

       STATEMENT OF JOE KOLSHAK, SENIOR VICE PRESIDENT--
  OPERATIONS, UNITED AIRLINES ON BEHALF OF THE AIR TRANSPORT 
                     ASSOCIATION OF AMERICA

    Mr. Kolshak. Thank you, Senator Rockefeller, Chairman 
Dorgan, and Members of the Subcommittee, for the opportunity to 
talk about the urgent need to modernize our Nation's air 
traffic control system.
    I'll stress three key points about NextGen and air traffic 
modernization. First, the time to act is now. NextGen is 
NowGen. Next, with leadership and investment, key elements and 
benefits of NextGen can be delivered in the next 3 to 5 years. 
And finally, acceleration of NextGen will deliver real benefits 
for our economy, our customers, and the environment.
    In my career, running operations in the Marine Corps, at 
United, and at other major airlines, and also as a pilot on the 
Boeing 777 and other aircraft, I've witnessed developments that 
have made commercial aircraft wonders of modern technology. 
Unfortunately, I also see the steady decline in the performance 
of the system that controls these modern aircraft. Our air 
traffic control system is the safest in the world; however, in 
terms of technology, it's outdated, it's limited, slow, and 
often cumbersome.
    These limitations impose significant cost on our society in 
general, and the airline industry in particular. Air traffic 
delays are costing the U.S. economy over $41 billion every 
year. This includes lost passenger time, missed business 
meetings, disrupted vacations, and so on. It also includes harm 
to the broader economy, those who depend on predictable air 
travel, such as the travel and tourism industry. And finally, 
it also includes cost to the airlines.
    At United alone, annual delay costs approach $600 million 
annually. Without a modern, efficient, ATC system, U.S. 
commerce is impaired and U.S. businesses will struggle to 
compete effectively in the global economy.
    Imagine, if you can, surface transportation without the 
interstate highway system. It's where aviation finds itself 
today.
    In our challenging economic times, it's even more important 
that we modernize the air traffic control system now. That's 
why we call it NowGen instead of NextGen.
    In my written testimony, I detail key technologies and 
procedure changes that are available today and ready for 
accelerated deployment. They all have complicated names, but 
the services they deliver are actually quite simple.
    They boil down to providing improved access to realtime 
information, both for controllers and pilots, and this 
information enables safer and more efficient spacing and 
routing of planes in the air and while taxiing on the ground. 
Unlike today's system that has its origin in the use of 
bonfires to guide airplanes, the plans we advocate use modern 
satellite technology to let pilots and controllers see the 
whole picture in realtime. This allows them to communicate 
better and to fly smarter.
    It's not vastly different than the GPS systems available in 
cars today, which give realtime traffic reports and allow you 
to choose the best route to avoid congestion. And just like you 
can get weather reports for any city in the world on your 
iPhone or BlackBerry, these technologies better equip us to 
deal with weather conditions, which contribute to over 70 
percent of all air traffic delays.
    We can achieve success in the near term, but the government 
must accelerate its investment in NextGen elements that are 
proven and ready to deploy today. This investment will 
stimulate installation of facilities, avionics, and the 
development of new procedures.
    The benefits of accelerating modernization of our ATC 
system are clear and compelling. That's why airlines, general 
aviation, business aviation, and the military all agree on the 
need to jumpstart NextGen.
    By accelerating investment in our ATC infrastructure, it 
will create and retain thousands of jobs in all sector of the 
economy, and will improve the travel experience for customers 
and communities across the system.
    For example, when United experiences air traffic delays at 
our hubs in Washington and Chicago, the impact is felt 
disproportionately by Bismarck, Charleston, and all of the 
other communities that connect to the system through our 
network. That's why targeted deployment of NextGen to those 
metropolitan areas and regions of the country where it's most 
needed to address congestion and delays is to vitally 
important.
    Acceleration of NextGen is also a green initiative that 
will yield benefits for the environment, because we'll be using 
less fuel and reducing carbon emissions. United participated 
with the FAA in a demonstration flight using some of the 
procedures involved in NextGen. That one flight resulted in a 
savings of over 1,500 gallons of fuel and almost 33,000 pounds 
of CO<INF>2</INF> emissions. Imagine the benefits of 
implementing those procedures across the entire system each and 
every day.
    In conclusion, Mr. Chairman, it's time to act. All industry 
stakeholders support moving NextGen forward now. With the 
leadership of this committee, the Congress, and the 
Administration, we can deliver key benefits of NextGen in the 
next 3 to 5 years. This action will create jobs, enhance air 
travel for our customers, and contribute to a cleaner 
environment. In the 1950s, Congress and the Eisenhower 
Administration built a new Federal highway infrastructure. It 
was a national priority that took leadership and funding. Now's 
the time to do the same thing for the Nation's aviation 
infrastructure by delivering NowGen.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Kolshak follows:]

 Prepared Statement of Joe Kolshak, Senior Vice President--Operations, 
 United Airlines on Behalf of the Air Transport Association of America
Introduction
    The time to jump-start air traffic control (ATC) system 
modernization is now. A meaningful down payment over the next few years 
will pay dividends in the form of greatly improved system performance 
and corresponding public benefits.
    The shortcomings of the existing ATC system are well known. 
Technologically, it is outdated and limited in its capabilities. It 
relies on ground-based radar for surveillance and navigation, and voice 
communications to relay instructions between controllers and pilots. 
Compared to modern and emerging technologies, our ATC system is slow 
and cumbersome. These limitations force operational procedures such as 
separation standards and indirect point-to-point routings that are 
inefficient because they appropriately put safety first. Consequently, 
as U.S. civil aviation has grown and become more complex--including 
scheduled commercial, nonscheduled business, public and private 
charter, air taxi and private recreational flying--the ATC system has 
become strained and, in some geographic areas, overwhelmed. This is 
especially true when severe winter or summer weather disrupts normal 
operations. The result is congestion and delay for all system users, 
unhappy passengers and shippers, and airlines who struggle to recover 
normal operations and rebook passengers when forced to cancel flights.
    The current ATC system limitations impose significant costs on our 
society in general, and the airline industry in particular. The Joint 
Economic Committee estimates air travel delays impose $41 billion 
annually in costs on the U.S. economy.\1\ In the 12-month period ending 
September 2008, 138 million system delay minutes drove an estimated $10 
billion in direct operating costs for scheduled U.S. passenger airlines 
and cost airline passengers an estimated $4.5 billion in lost wages and 
productivity. These figures do not capture the costs of extra gates and 
ground personnel to passenger airlines or the direct costs incurred by 
cargo airlines and their customers. The airline industry cannot 
survive, and the public will not invest in it, if these conditions 
remain status quo.
---------------------------------------------------------------------------
    \1\ http://jec.senate.gov/
index.cfm?FuseAction=Reports.Reports&ContentRecord_id=11116dd7-973c-
61e2-4874-a6a18790a81b&Region_id=&Issue_id=
---------------------------------------------------------------------------
    Looking forward, these problems will only worsen unless and until 
change occurs. By 2025, the Federal Aviation Administration (FAA) 
forecasts there will be approximately 30,000 more operations per day 
than the 2007 estimate of 44,000 daily operations. The current ATC 
system cannot handle this projected future demand, even if the forecast 
is reduced to account for current economic conditions. Even if the 
forecasted growth is significantly reduced, today's ATC system is so 
inefficient that it will not be able to handle a modest increase in 
activity.
Why Is This Important?
    The ATC system is a critical national infrastructure that serves 
the American people and the commerce of the United States, and all 
system users rely on it, especially the scheduled airline industry. The 
airline industry is the foundation of the commercial aviation sector, 
which comprises airlines, airports, manufacturers and associated 
vendors. U.S. commercial aviation ultimately drives $1.1 trillion per 
year in U.S. economic activity and 10.2 million U.S. jobs. By any 
measure, the U.S. airline industry is a valuable national asset and its 
continued economic health should be a matter of national concern. 
Without a modern, efficient ATC system, the airline industry will 
slowly strangle, U.S. commerce and productivity will be impaired and 
U.S. businesses will not be able to compete effectively in the global 
economy. For these reasons, modernizing the ATC system now is 
critically important to the growth and competitiveness of our economy.
ATC Modernization--NextGen--Will Provide Critically Needed Benefits
    The FAA ATC modernization project--the Next Generation Air 
Transportation System (NextGen)--will usher in a new era of air traffic 
management and control that promises enormous benefits for all 
stakeholders and the American people. Public benefits include improved 
operational efficiency, reduced fuel consumption and emissions and 
lower operating costs for airlines. ATA strongly supports NextGen 
because it addresses numerous critical needs:

  <bullet> Capacity. The current ATC system is saturated and, in some 
        locations, cannot provide the capacity to meet public demand 
        for convenient, safe air transportation. This situation 
        inhibits competition and industry growth. It also is the source 
        of unnecessary congestion and delays, and compounds the effect 
        of weather-related delays. NextGen will enable more precise 
        spacing of aircraft and flight paths, which will allow FAA to 
        handle safely and efficiently the traffic growth that it 
        forecasts.

  <bullet> Efficiency and Productivity. NextGen will enable more 
        efficient flying. Today's ground-based radar system requires 
        planes to fly over specific points on the ground to maintain 
        radar and communications contact. Navigational aids, radar and 
        controllers are all terrestrial. They are linked to form a 
        complex network system that supports airways, through which 
        aircraft fly. Today's system also requires spacing to 
        accommodate the time it takes for radar to detect objects. 
        Consequently, aircraft fly indirect routings and aircraft 
        spacing--required for safety--wastes capacity. Today's ATC 
        system cannot, and never will be able to, take full advantage 
        of available technology or integrate and fully exploit emerging 
        technology.

    The environmental and economic impact of today's inefficient ATC 
        system is illustrated below. The flight in this example burned 
        an additional 1,493 pounds of fuel (218 gallons). This added an 
        extra 4,560 pounds of carbon dioxide (CO<INF>2</INF>) that was 
        released into the air and cost the carrier an extra $688 in 
        fuel (given razor-thin margins, this is significant).
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    In contrast to today's ATC system, NextGen will enable: optimized, 
        direct routings between airports; reduced aircraft spacing; 
        continuous descent arrivals, precise arrival and departure 
        routings (known as RNAV and RNP procedures), and closely spaced 
        approaches on parallel runways in instrument flight rule 
        conditions. These are just a few of the operational benefits of 
        NextGen.

    These efficiency enhancements will drive significant improvements 
        in productivity--both in terms of asset utilization and 
        personnel. That, in turn, will reduce operating costs, which 
        will help keep fares down and enable those savings to be plowed 
        back into wages and benefits and operating capital.

    Improved ATC efficiency also will benefit private aircraft owners. 
        Corporations use private aircraft with the expectation that 
        such use is efficient. While we disagree with that proposition, 
        ATC modernization will provide corporate aircraft owners the 
        same kind of efficiency benefits that commercial airlines will 
        enjoy if their aircraft are properly equipped. Even if they are 
        not properly equipped, they still will enjoy a spin-off benefit 
        simply from operating in the same airspace as more efficient 
        commercial aircraft.

  <bullet> Environmental Benefits. More efficient operations also will 
        use less fuel, increasing aircraft fuel efficiency and reducing 
        greenhouse gas and other emissions. It was estimated initially 
        that full implementation of NextGen would reduce emissions 
        significantly. The environmental benefits of ATC modernization 
        are real and important. Improved fuel efficiency also will 
        reduce operating costs and contribute to improved financial 
        conditions that, like the productivity improvements discussed 
        above, will benefit the public and employees.

  <bullet> Operational Integrity and Customer Satisfaction. Closely 
        linked to capacity, efficiency and productivity is operational 
        integrity. By expanding capacity and enabling more efficient 
        operations, NextGen will enable better on-time performance and 
        improved customer satisfaction. Today's outdated ATC system 
        contributes to delays and disruptions, such as unnecessary 
        weather-related delays, that could be avoided and will be 
        avoided when NextGen is implemented. With improved operational 
        integrity comes fewer delays, fewer missed connections, fewer 
        misplaced checked bags and more satisfied customers.

  <bullet> Safety. The NextGen satellite-based system will look and act 
        much like a network to which aircraft and ATC are 
        interconnected. It will provide more precise information to 
        both controllers and pilots about aircraft locations, both in 
        the air and on the ground, and will enable aircraft to 
        constantly know one another's locations. This locational 
        awareness and corresponding digital communications capability 
        will provide critical real-time flight status information not 
        available today. Some of the technology and operating 
        procedures already have been tested and produced dramatic 
        results. A sharp drop in aircraft accidents in Alaska occurred 
        under the Capstone Program, introduced earlier this decade, 
        which utilizes ADS-B technology, a foundational technology for 
        NextGen.

  <bullet> Scalability. NextGen will be considerably more nimble than 
        today's facility- and labor-intensive system. Accordingly, it 
        will be much easier for the FAA to scale the system to meet 
        demand from all aviation sectors, whether that demand is a 
        steady growth curve or fluctuates from time to time. Automation 
        and digital data communications will make it easier for the FAA 
        to adjust the system as needed.

  <bullet> Improved Financial Performance. Modernization will respond 
        to legitimate shareholder expectations that the airlines they 
        invest in will earn a positive return on investment. The 
        current ATC system hobbles the industry's ability to achieve 
        financial stability because of the costs it drives by being 
        inefficient. As noted above, these failures lead to costly 
        delays and congestion.
The Current NextGen Plan--Delayed Benefits
    While we strongly support NextGen, the current FAA plan does not 
produce significant benefits--the capacity, efficiency and economic 
benefits described above--for the traveling and shipping public or for 
system users until 2025. For system users--airlines, business aviation 
and general aviation--this delay presents a special problem. The plan 
contemplates significant stakeholder investment, in addition to FAA 
investment, but no real benefit for many years. Without a timely return 
on investment, there is little incentive for airlines and other users 
to invest in new equipment and training. In short, the current FAA plan 
does not make a strong business case. Airlines, air taxis, charter 
operators and corporate aircraft owners have a fiduciary responsibility 
to their shareholders and owners to achieve a reasonable return on 
their investment in this context, just as they do with respect to any 
other major capital expense.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This is particularly troublesome given the fragile state of the 
U.S. airline industry. 2008 saw U.S. airlines lose an estimated $8 
billion (final, audited results are not yet available) on top of the 
$31 billion lost since 2000. Airlines reduced operations sharply and 
were forced to slash 28,000 jobs in 2008; additional reductions are 
already in place for 2009 and softening demand will require even 
further reductions as carriers continue to cut back operations. Should 
jet fuel prices move sharply upward, the industry could easily see 2009 
losses approaching the magnitude of losses in 2008.
The NextGen Solution: Accelerate Ready Capabilities to Drive Early 
        Benefits
    There is a real and achievable solution, and that is to advance the 
point in time when the investment in NextGen begins to pay off for both 
the public and vested stakeholders. If the public and aviation 
stakeholders begin to realize the benefits in a few years instead of 10 
or more, then the NextGen business case improves dramatically.
    To accomplish this critical shift, the government must accelerate 
its near-term investment in NextGen, with a corresponding reduction in 
later years, in order to leverage existing technology in the near term. 
This investment will stimulate accelerated manufacture and installation 
of ground infrastructure facilities, required avionics, and development 
and certification of new operations procedures. This proposal includes 
only those elements that are proven and ready to deploy:

  <bullet> Automatic Dependent Surveillance-Broadcast (ADS-B)--ADS-B is 
        a critical component of NextGen. By relying upon satellite and 
        additional technology, ADS-B enables an aircraft to constantly 
        broadcast its current position simultaneously to air traffic 
        controllers and other aircraft. Tremendous safety, security, 
        capacity and environmental improvements are realized. Unlike 
        ground radars, ADS-B offers much more precise data on an 
        aircraft's position in the sky or on the runway, including 
        altitude, category of aircraft, airspeed and identification. 
        ADS-B has two components. ADS-B ``Out'' and ``In''. ADS-B 
        ``Out'' continuously transmits an aircraft's position, altitude 
        and intent to controllers. ADS-B ``In'' is the reception of the 
        transmitted data by other aircraft, which allows pilots to have 
        a complete picture of their aircraft in relation to other 
        traffic, both in the air and on the ground. ADS-B has the 
        potential to reduce delays, reduce fuel burn through more 
        efficient routings, and increase capacity--all while improving 
        safety. The current FAA plan does not mandate deployment until 
        2020.

  <bullet> Area Navigation (RNAV)--enables aircraft to fly on any path 
        within coverage of ground or space-based navigation aids, 
        permitting more access and flexibility for efficient point-to-
        point operations. Aircraft are already equipped but 
        accompanying arrival and departure procedures have not been 
        adequately developed.

  <bullet> Required Navigation Performance (RNP)--like RNAV, RNP 
        enables aircraft to fly on any path within coverage of ground- 
        or space-based navigation aids, but also includes an onboard 
        performance monitoring capability; RNP enables closer en route 
        spacing without intervention by air traffic control, and 
        permits more precise and consistent departures/arrivals.

  <bullet> Electronic Display Upgrades--will allow the display of 
        traffic information that becomes available with ADS-B 
        deployment and reduce the risk of runway incursions. Whether 
        upgrades to existing forward displays or the addition of a 
        supplemental display (such as an Electronic Flight Bag), users 
        will be able to see other traffic while taxiing and have access 
        to surface navigation tools, electronic versions of airport 
        maps and pilot handbook materials.

  <bullet> Ground-Based Augmentation System (GBAS)--GBAS is the next-
        generation technology to support precision landings. It 
        provides additional information to aircraft to allow GPS to be 
        used for landings in low-visibility conditions. This minimizes 
        schedule disruptions due to weather, and also enables more 
        environmentally friendly procedures and increased safety during 
        ground operations.

    In addition to accelerating the government's investment in NextGen, 
we also propose targeted deployment to those metropolitan areas and 
regions of the country where it is most needed to address congestion 
and delays, such as Chicago, San Francisco, Los Angeles, New York/
Philadelphia and Atlanta. Deploying these capabilities in high-value 
locations before expanding to other areas will maximize NextGen 
benefits for the greatest number of people.
    To support the earliest possible delivery of benefits and further 
investment by carriers, we also endorse the FAA ``best equipped/best 
served'' principle included in the governing principles of the NextGen 
2009 Implementation Plan. Under this principle, consistent with safe 
and efficient operations, FAA will provide priority in the National 
Airspace System to Next-Gen equipped aircraft.
    Accelerated and targeted deployment will produce significant 
benefits for the flying public in terms of airspace capacity and 
efficiency. It will lead to improved reliability and on-time 
performance, thereby greatly diminishing (if not eliminating) the 
single biggest source of the public's dissatisfaction with flying. It 
should also drive improvements in other customer service areas such as 
checked baggage delivery and long taxi-out times.
Other Challenges Also must Be Overcome to Realize NextGen Benefits
    Investment, equipment and technology development/deployment are 
critical to delivering the benefits that NextGen promises. But they are 
not the only critical factors. The operational, environmental and 
economic benefits of NextGen can still be lost, and the investment in 
equipment and technology wasted, if other important challenges are not 
met head-on by the FAA. It is essential that each FAA organization 
executes its NextGen responsibilities in a timely fashion and that they 
all work together pursuant to a coordinated and unified strategy that 
prioritizes NextGen implementation. These challenges include:

  <bullet> Promptly complete airspace redesign. FAA has underway a 
        major overhaul of the NY/NJ/PHL airspace that is essential to 
        improving the flow of traffic into, out of and through these 
        metropolitan areas. It will significantly improve operational 
        efficiency in this region and the entire NAS. Because it 
        changes noise patterns, however, it has met stiff local 
        political and public opposition and is the subject of multiple 
        legal challenges. It is imperative that FAA push through these 
        political and legal challenges and stay the course. And it must 
        stay the course as it implements airspace redesign initiatives 
        elsewhere in the NAS, such as Chicago, Denver and the West 
        Coast corridor.

  <bullet> Develop new separation standards and approve new operations 
        procedures. For NextGen to deliver new capacity and efficiency, 
        the FAA must develop new, reduced separation standards that 
        take advantage of NextGen technological capabilities. In 
        addition to separation standards, FAA also must establish 
        criteria for the development and approval of new operations 
        procedures such as simultaneous operations on closely spaced 
        parallel runways, curved approaches, multiple precise departure 
        paths, continuous descent approaches and optimized profile 
        descents. Bureaucratic roadblocks and turf battles must be 
        avoided. Inconsistent application of separation standards at 
        the air traffic control facility level needs to be addressed. 
        New standards and procedures must be viewed as going hand in 
        glove with new technology.

  <bullet> Controller acceptance and implementation of new procedures. 
        FAA must partner with its controller workforce and make them 
        part of the NextGen process. If controllers do not accept new 
        separation standards and utilize new precision operations 
        procedures, then the equipment investment for NextGen will be 
        wasted. FAA must find a way to resolve the contract dispute 
        with the controllers, which to date has served as a roadblock 
        to controller input into NextGen development.

  <bullet> Maintain a sufficient constellation of satellites to meet 
        FAA safety standards. There is an assumption that the GPS 
        satellite constellation servicing NextGen surveillance, 
        navigation and communications functions will be adequate to 
        meet stringent FAA safety standards. However, in some models, 
        the minimum number of satellites FAA assumes for its 
        performance-level safety analysis is not sufficient. FAA and 
        the Department of Defense must come to agreement on the minimum 
        satellites needed for NextGen to provide the performance level 
        required by FAA safety criteria, and Congress must provide the 
        necessary funds.
Conclusion
    We have arrived at a pivotal moment for U.S. aviation. Industry 
stakeholders support the FAA NextGen program--an event not to be 
overlooked--and the FAA has developed a comprehensive implementation 
plan with clear benefits. The plan needs to be accelerated by an 
immediate boost in funding to jump-start equipment deployment on the 
ground and in the air. We urge the Subcommittee to make the rapid, 
successful implementation of NextGen happen now.

    Senator Dorgan. Mr. Kolshak, thank you very much.
    Next, we will hear from Dale Wright, who is the Director of 
Safety and Technology at the National Air Traffic Controllers 
Association.
    Mr. Wright?

         STATEMENT OF DALE WRIGHT, DIRECTOR OF SAFETY 
  AND TECHNOLOGY, NATIONAL AIR TRAFFIC CONTROLLERS ASSOCIATION

    Mr. Wright. Thank you, Chairman Rockefeller, Chairman 
Dorgan, and Ranking Member DeMint, for the opportunity to 
testify.
    I retired as an air traffic controller, in September 2007, 
with 32 years experience. I'd first like to state unequivocally 
that NATCA supports NextGen, and we believe that NATCA must be 
an active participant in its development.
    According to the GAO, NextGen is a high-risk effort. It is 
highly complex, has many interdependent projects, requires a 
large investment of money, time, and other resources, but it is 
imperative, for both the safety of the NAS and the investment 
of the taxpayer dollars, that this project be undertaken in the 
right way.
    First and foremost, the FAA must collaborate with users and 
stakeholders. Collaboration with NATCA is especially important, 
as our members will be the primary users of NextGen technology. 
Because of their front-line air traffic control experience, 
NATCA members are best qualified to provide insight into the 
needs of the system. Doing so on the front end rather than the 
back end will save the agency time and taxpayer money, and 
result in a better product.
    In Europe, EuroControl has undertaken a modernization 
projected called SESAR, which is similar in size and scope to 
NextGen. Leaders of EuroControl recognize the importance of 
including front-line air traffic control workforce into this 
project's development. Unfortunately for NextGen, the FAA's 
taking the opposite approach. Although NATCA has reached out 
many times to offer our expertise, the FAA has rejected our 
offers. They made it abundantly clear they do not value the 
professional knowledge and expertise that NATCA brings to the 
table.
    So strong is our commitment to the success of NextGen that 
when it became clear to us that NATCA would have no direct 
involvement with the FAA, we sought inclusion indirectly 
through private-sector industry workgroups. The private-sector 
aviation community, recognizing the benefits of our inclusion, 
welcomed us with open arms. At last week's House Aviation 
Subcommittee hearing on NextGen, representatives of both ATA 
and GAMA testified about the importance of controller 
involvement throughout the development and implementation of 
NextGen.
    Thus far, the FAA's go-it-alone strategy has yielded 
results that are incomplete, unsafe, and ineffective. For 
example, the FAA has refused to work with NATCA on the subject 
of airspace redesign for the New York, New Jersey, and 
Philadelphia metropolitan areas. As a result, phase one of the 
program, dispersal headings out of Philadelphia, was 
implemented with serious flaws. Rather than learn a lesson from 
phase one, the FAA is set to implement phase two, which 
involves more significant changes to airspace and procedure, 
still without NATCA involvement.
    Our experience with the End Route Automation 
Modernization--that's ERAM project--seems to be heading the 
same direction. NATCA believes ERAM is necessary for the future 
of air traffic control. Once perfected, ERAM will handle 
significantly a larger volume of data and provide a more 
seamless backup than the current system. However, less than 2 
months ago, officials on the ERAM team disclosed that ERAM had 
yet to remain stable and functional for a full 24 hours of 
continuous operational testing.
    Earlier this month, the FAA asked NATCA for assistance in 
addressing the 109 critical errors facing ERAM. We had hoped 
this gesture of outreach signified a change in agency policy, 
but thus far we've run into the familiar obstructionism. At 
this time, it is unclear whether the agency intends to work 
with NATCA, but we remain eager to participate.
    We would also like to work with the FAA to ensure that 
NextGen incorporates the redundancies necessary for the system 
in security of the NAS. The FAA's plans require transition to a 
single-source satellite to provide navigation and surveillance 
to the NAS. This leaves the system unacceptably vulnerable to 
natural disaster, attack, or technological failure. The current 
radar system has necessary redundancies. Should one radar site 
fail, overlapping sites can provide surveillance without 
compromising safety or interrupting service. Similar redundancy 
must be incorporated into NextGen plans.
    We'd also like to help ensure that the FAA effectively 
addresses the human-factor issues brought about by NextGen. 
Their proposed best-equipped, best-served incentive policy, for 
example, significantly increases the complexity of ATC 
operations, a particular concern with an understaffed and 
inexperienced workforce operating the system. Such problems 
should be mitigated and avoided entirely if the FAA would 
collaborate with NATCA.
    Last, we are eager to work with the FAA to address problems 
facing the current air traffic control system. We must reach a 
mutually acceptable collective bargaining agreement with the 
FAA so that we can begin to address the staffing crisis that 
continues to deepen. We've lost 46,000 years of experience in 
the last 2\1/2\ years. Training has stalled and fatigue in the 
workforce is undermining the safety throughout the system.
    We at NATCA recognize the severity of the issues facing 
today's air traffic control system, and we're eager to help the 
FAA address the issues of system capacity, delays, safety, and 
sustainability, but we also caution them not to abandon what we 
call NowGen. The FAA must begin to look at the members of the 
controller work force, not as an obstacle, but the valuable 
resource they are.
    This concludes my comments, and I stand by to answer any 
questions you may have.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Wright follows:]

 Prepared Statement of Dale Wright, Director of Safety and Technology, 
              National Air Traffic Controllers Association
Introduction
    The National Air Traffic Controllers Association (NATCA) is the 
exclusive representative of more than 15,000 air traffic controllers 
serving the Federal Aviation Administration (FAA), the Department of 
Defense and the private sector. In addition, NATCA represents 
approximately 1,200 FAA engineers, 600 traffic management coordinators, 
500 aircraft certification professionals, agency operational support 
staff. regional personnel from FAA's logistics, budget, finance and 
computer specialist divisions, and agency occupational health 
specialists, nurses and medical program specialists. NATCA's mission is 
to preserve, promote and improve the safety of air travel within the 
United States, and to serve as an advocate for air traffic controllers 
and other aviation safety professionals. NATCA has a long history of 
supporting new aviation technology, modernizing and enhancing our 
Nation's air traffic control system, and working to ensure that we are 
prepared to meet the growing demand for aviation services.
NATCA's Recommendations
    It is our understanding that this hearing is the first of several 
on the topics covered by FAA Reauthorization. As this hearing is 
focused on modernization, NATCA's remarks are intended to specifically 
address the FAA's efforts in implementing the Next Generation Air 
Transportation System (NextGen). We look forward to the opportunity to 
testify before you in the future and are prepared to address the many 
other important issues facing the FAA including the need for fair 
dispute resolution between labor and management, realignment of FAA 
facilities and services, staffing and the need for scientifically based 
standards, the designee program and the FAA certification process, and 
other topics.
    NATCA remains, as ever, completely committed to the safety and 
efficiency of the National Airspace System (NAS). New technology has 
the potential to improve safety, expand capacity, and increase 
efficiency of the NAS. Therefore, we support the FAA's willingness to 
undertake the large-scale and long-term research, development and 
modernization project that it has labeled NextGen. Yet the complexity 
and the risk of this program should not be underestimated. The GAO has 
stated that NextGen is a high risk effort because of its dollar cost 
and complexity.\1\ Therefore it is imperative that the FAA proceed in a 
way which maximizes the chances of success. At present, there are 
several outstanding shortcomings with the FAA's methodology and plans 
that must be addressed at this early stage of the process.
---------------------------------------------------------------------------
    \1\ House Transportation and Infrastructure Subcommittee on 
Aviation Summary of Subject Matter for hearing on Air Traffic Control 
Modernization and the Next Generation Air Transportation System: Near-
Term Achievable Goals. March 16. 2009.

        1. The FAA must collaborate meaningfully with stakeholders--The 
        inclusion of NATCA is critical to the success of NextGen and 
        all projects relating to modernization, technology and 
        procedures. The Government Accountability Office and the 
        Inspector General of the Transportation Department have both 
        testified before Congress that controller involvement prevents 
        cost overruns and implementation delays. NATCA must be included 
---------------------------------------------------------------------------
        in all stages, from inception to implementation.

        2. NowGen must not be neglected as we prepare for NextGen--The 
        current air traffic control system has fallen into disrepair. 
        Both the human infrastructure, including staffing levels of air 
        traffic controllers, inspectors, engineers, and other aviation 
        safety professionals, and physical infrastructure, such as 
        poorly-maintained and deteriorating air traffic control 
        facilities, need attention in the near term.

        3. Human factors must be addressed--Several of NextGen's 
        proposals raise serious concerns regarding human factors, 
        including the increased complexity and safety risk inherent in 
        a best equipped, best-served policy. These issues must be 
        addressed during the development stages in order to avoid 
        delays, cost overruns, and safety failures.

        4. Safety requires redundancy--NATCA is concerned that the 
        system being proposed by the FAA, which is centralized and 
        lacking a viable backup, is unacceptably vulnerable to attack 
        or natural disaster. Human intervention must not be the first 
        and only layer of redundancy. The FAA must build redundancy 
        into the system in order to ensure that in the event of an 
        attack, natural disaster, or technological failure, safety is 
        not compromised.
Collaboration is Critical
    The participation of NATCA throughout all stages of NextGen's 
development and implementation is critical to the success of this 
project. NATCA's members are frontline workers who are able to provide 
vital insight to help the team identify and address human-interface 
issues and other concerns. Doing so on the front end rather than during 
implementation will save the Agency time, taxpayer money and resources 
while avoiding potential damage to the integrity of the air traffic 
control system. Because NATCA's members have an intimate understanding 
of frontline air traffic control, they are uniquely qualified to 
provide insight into the needs of the system, the utility of the FAA's 
proposed technology, and the usability of the products included under 
the NextGen umbrella. As Peter Bunce, President and CEO of General 
Aviation Manufacturers Association (GAMA) said, ``If we are going to 
have full implementation [of NextGen] somewhere in the range of 2025, 
it is absolutely imperative that we still get the controllers and 
pilots together and decide what type of architecture is actually going 
to exist in the end state.'' \2\
---------------------------------------------------------------------------
    \2\ Peter Bunce, President and CEO of GAMA, testimony before House 
Transportation and Infrastructure Committee, Subcommittee on Aviation. 
March 18, 2008 hearing on ``ATC Modernization and NextGen: Near Term 
Achievable Goals.''
---------------------------------------------------------------------------
    The FAA's go-it-alone strategy has come under criticism throughout 
the aviation industry. Last month, the FAA announced that it has 
committed to launching a NextGen Implementation Panel, through the RTCA 
Inc. (formerly the Radio Technical Commission for Aeronautics). Despite 
this gesture, to date we have received no indication from the FAA that 
the Agency has any intention of meaningfully collaborating with NATCA.
    During the late 1990s and into the early part of this decade, the 
FAA completed more than 7,100 projects to install and integrate new 
facilities, systems and equipment into the NAS, as well as more than 
10,000 hardware and software upgrades. During this time. NATCA had 
representatives on more than 70 modernization and procedure development 
projects \3\ through the Controller Liaison Program. This program 
allowed controllers to provide crucial insight and guidance for the 
development and implementation of some of the most effective 
technological and procedural advancements including: Advanced 
Technologies and Oceanic Procedures (ATOP), Display System Replacement 
(DSR), User Request Evaluation Tool (URET), Voice Switching Control 
System (VSCS), Domestic Reduced Vertical Separation Minimum (DRVSM), 
and Standard Terminal Automation Replacement System (STARS). Despite 
its success, the Liaison Program was terminated in 2005. Throughout the 
rest of the Bush Administration, the FAA resisted any meaningful input 
from NATCA--to the detriment of the NAS.
---------------------------------------------------------------------------
    \3\ National Air Traffic Controllers Association, 2002 Air Traffic 
Modernization Tools.
---------------------------------------------------------------------------
    The labor-management environment that developed during the Bush 
administration continues to make meaningful collaboration nearly 
impossible. The contempt with which all levels of agency management has 
treated and continues to treat the air traffic controller workforce 
makes it clear that the Agency does not value the professionalism of 
NATCA's members. It is our hope that after the imposed work rules are 
addressed by the Obama Administration and NATCA and the FAA reach a 
mutually-accepted collective bargaining agreement, we can again return 
to an era of cooperation and collaboration that will best serve the 
needs of the FAA, air traffic controllers, stakeholders, and the flying 
public.
Status of Near-Term NextGen Collaboration Efforts: ERAM
    One of the earliest NextGen projects to be deployed will be the 
switch from the Host computer system, which currently serves as the 
technological backbone of en route air traffic control, to En Route 
Automation Modernization (ERAM). Host, which was originally deployed in 
the 1980s, is the mainframe computer processor which provides data to 
display terminals at en route air traffic control positions. It is 
expected to become unsustainable within the next 2 years, as the 
availability of new technology has made replacement parts for older 
computers harder to find. It is also incapable of handling the 
satellite-based ADS-B system around which NextGen has been developed. 
In contrast, ERAM is designed to process data from both radar and 
satellite sources. Rather than rely on a single processor, ERAM will be 
a network of computers in which the old Host display terminals will be 
replaced by individual PC processors. Once it is properly implemented, 
this distributive processing will allow the system to handle a 
significantly larger volume of data and provide a more seamless backup 
system then the one currently in place.
    While NATCA supports ERAM as a good concept and necessary for the 
future of air traffic control, confidence is low in the product in its 
current state. ERAM testing has yielded more than 40,000 problem 
reports (PRs), over 100 of which are considered to be Initial Operating 
Capability (IOC) critical, meaning they must be resolved prior to 
deploying the system for use with live traffic. As of less than 2 
months ago, officials on the ERAM team disclosed that ERAM had yet to 
remain stable and functional for a full twenty-four hours of continuous 
operational testing. Additionally, air traffic controllers have come 
across significant problems with the human interface of ERAM, as they 
found the new formats cumbersome, confusing, and difficult to navigate. 
NATCA is very concerned about the risk to the NAS if ERAM is 
implemented before these problems are comprehensively addressed. Short-
term, piecemeal fixes or work-arounds are unacceptable. ERAM must be 
deployed only when the technology is stable and fully functional 
because failure of ERAM, particularly during peak traffic hours, would 
create extreme confusion and put the safety of the flying public at 
risk.
    This February, the FAA has approached NATCA with what we hoped 
would be a genuine invitation seeking our collaboration in the 
implementation phase of ERAM. We embraced the opportunity to 
substantively contribute to finding solutions cooperatively with the 
FAA. Unfortunately, despite the Agency's repeated promises to work with 
NATCA in a more collaborative manner on the ERAM issue, we are running 
into the same obstructionist attitude that we have become so familiar 
with over the last 8 years. NATCA has acted swiftly and eagerly, 
submitting comprehensive proposals about the terms of our collaboration 
within 9 days of receiving the full ERAM briefing from the Agency, and 
we are prepared to work with the Agency to come to an agreement. For 
their part the FAA has required weeks of delay to respond to our 
proposals, while engaging in unfair labor practices in soliciting 
bargaining unit members to work on the transition team. At this time, 
it is unclear as to whether or not the Agency is prepared to reach 
agreement or work with NATCA.
    NATCA is disappointed with the Agency's stance on collaborating 
with our organization. As with all NextGen and modernization efforts, 
we believe that our expertise would serve the Agency and the flying 
public well. We remain committed to continuing the effort to reach an 
agreement with the Agency over the deployment of ERAM.
Status of Near-Term NextGen Collaboration Efforts: Airspace Redesign
    In the 1990s, the FAA collaborated with the National Air Traffic 
Controllers Association (NATCA) to address the issue of airspace 
congestion. Working together the group identified chokepoints, analyzed 
weaknesses in the system, and developed a multilateral and 
comprehensive approach to improving the system. However, during the 
Bush Administration the FAA abandoned this collaborative approach and 
instead chose to unilaterally implement piecemeal changes to air 
traffic control functions and procedures. Recent events pertaining to 
airspace redesign for the New York, New Jersey and Philadelphia areas 
have also shown that the FAA still does not intend to include NATCA in 
this project.
    Last year, the FAA implemented Phase 1 of the NY-NJ-PHL airspace 
redesign effort, which included new dispersal headings for Philadelphia 
International Airport (PHL) departures. These new procedures were 
implemented without input from system users including air traffic 
controllers. As a result, the new procedures were plagued by several 
serious inadequacies, including a lack of published procedures, 
incomplete testing, insufficient training for both controllers and 
pilots, and frequent miscommunication between controllers and pilots.
    Now the FAA is ready to begin implementation of Phase II, which 
will involve the terminalization of airspace currently controlled by 
Boston Air Route Traffic Control Center (ARTCC) and New York ARTCC. 
This shift is highly complex and will require changes not only to 
procedures but also to technology, personnel, facilities and training. 
Yet it appears that the FAA has not learned its lesson from Phase I. 
Despite outreach attempts from NATCA, the FAA has refused to 
collaborate with the frontline controller work force.
    History has shown us that successful modernization efforts require 
the input and involvement of all stakeholders, and airspace redesign is 
no exception. NATCA believes that without the collaboration of the air 
traffic controller workforce in developing and implementing the 
airspace redesign, the FAA's plans will be expensive, unsafe, 
inefficient, and unlikely to significantly improve the capacity of the 
New York area airspace. This is a belief not limited to air traffic 
controllers or unions. Jim May, President and CEO of the Air Transport 
Association (ATA) spoke about the importance of ``controller acceptance 
of implementation and new procedures'' at a hearing before the House 
Transportation and Infrastructure Subcommittee on Aviation. Of airspace 
redesign he said, ``you've got to bring Pat [Forrey, President of 
NATCA] and his guys into the process . . . We can't do New York without 
his folks.'' \4\ With NATCA's help, the FAA may be able to avoid the 
shortcomings that were present during Phase I of airspace redesign and, 
by so doing, may be able to transition more smoothly to the new 
procedures and reduce the risk to the flying public during the 
transition.
---------------------------------------------------------------------------
    \4\ Jim May, President and CEO, Air Transport Association. 
Testimony before House Transportation and Infrastructure Committee, 
Subcommittee on Aviation. March 18, 2008 hearing on ``ATC Modernization 
and NextGen: Near-Term Achievable Goals.''
---------------------------------------------------------------------------
NowGen: Human Infrastructure
    While NATCA believes that NextGen may hold some promising plans and 
technology for the future of air traffic control, we are concerned that 
the Agency's focus on NextGen comes at the expense of the current air 
traffic control system, or NowGen. There are some very pressing 
problems facing the air traffic control system of today that can be 
addressed using available technology and infrastructure.
    Air traffic control facilities across the Nation are severely 
understaffed as a result of the wave of retirements and resignations 
following the Agency's unilateral imposition of work and pay rules on 
the air traffic controller work force. Rampant fatigue in the workforce 
is undermining safety across the system as those controllers that 
remain are required to work excessive amounts of overtime, have fewer 
opportunities for rest on and off the shift, and are often required to 
do a job designed for two to four controllers when Radar Associate 
positions are eliminated and positions are combined. The FAA's recent 
hiring efforts intended to combat the staffing problem have resulted in 
an unsafe ratio of trainees, a training backlog, and an overreliance on 
developmentals, or trainees, to work live traffic.
    Over 46,000 years of experience has been lost since the imposed 
work rules.\5\ Along with that experience, vital institutional 
knowledge and qualified instructors have been sacrificed over the past 
two and a half years. The FAA must make addressing the workforce issue 
its top priority; returning to the bargaining table to reach a 
legitimate and mutually-acceptable collective bargaining agreement 
would go a long way toward stabilizing today's air traffic controller 
workforce and setting a solid foundation for the training and 
development of the air traffic controller workforce of tomorrow.
---------------------------------------------------------------------------
    \5\ Calculation assumes 25 years experience for every retiree. 
Twenty-five years of services is the minimum for retirement eligibility 
for most air traffic controllers.
---------------------------------------------------------------------------
NowGen: Physical Infrastructure
    In addition to the deterioration of the human infrastructure, the 
FAA must contend with the deterioration of the physical infrastructure. 
According to a recent report by the Department of Transportation 
Inspector General, 59 percent of FAA facilities are beyond their 30-
year design life, while all 23 En Route centers are over 40 years old. 
Several air traffic control facilities including Detroit Metropolitan 
Airport Tower and TRACON (DTW), O'Hare International Airport Tower 
(ORD), Kansas City Tower/TRACON (MCI), Miami ARTCC (ZMA), and Memphis 
ARTCC (ZME) have reported problems with mold contamination. At DTW 
inspectors have confirmed the presence of stachybotrys, a toxic form of 
mold believed to be a contributory factor in health problems 
experienced by controllers at the facility, including cases of 
occupational asthma as well as seven cancer diagnoses during the past 6 
years.
    The FAA has also fallen behind in the installation of vital runway 
incursion prevention technology. Airport Surface Detection Equipment-
Model X (ASDE-X) is a developed and proven surface radar system that 
has been used to great effect where it has been installed. 
Unfortunately, the FAA has allowed this demonstrated technology to take 
a back seat to NextGen and is on track to miss its delivery benchmarks. 
While the FAA estimated that ASDE-X would be deployed at the 35 busiest 
airports by the end of 2010, to date they have installed only 13 of the 
35 (having taken 4 years to install the first 11),\6\ and several of 
those that have been installed are still experiencing serious 
implementation glitches.
---------------------------------------------------------------------------
    \6\ Dillingham, Gerald, Aviation Safety: FAA Has Increased Efforts 
to Address Runway Incursions. Government Accountability Office 
Testimony before the Subcommittee on Aviation, Committee on 
Transportation and Infrastructure, House of Representatives September 
25, 2008.
---------------------------------------------------------------------------
    The FAA must make the maintenance and appropriate equipage of 
existing air traffic control facilities a priority. Air traffic 
controllers must be provided with safe and secure facilities and up-to-
date equipment so that they can continue to maintain the safest and 
most efficient air traffic control system in the world.
Potential Advantages of NextGen Technology and Systems
    NATCA believes that there is great potential in Automatic Dependent 
Surveillance--Broadcast (ADS-B). As the FAA has stated, satellite-based 
technology is capable of providing a more accurate depiction of 
aircraft location and eliminating the lag time of traditional radar 
scans. This degree of precision can help ensure greater safety and 
efficiency by allowing air traffic controllers the ability to make 
better-informed decisions regarding aircraft movements. If aircraft 
were equipped with ADS-B displays, pilots would have additional tools 
with which to process and understand their location and flying 
conditions, allowing pilots to maintain greater situational awareness, 
particularly during periods of poor visibility.
    This capability will give controllers greater flexibility and 
provide predictability to the users. For example, controllers will be 
able to more frequently instruct pilots to proceed to the airport 
visually, utilizing the ADS-B in weather currently requiring instrument 
flight rules (IFR). A visual approach, which is granted at the 
discretion of air traffic controllers, requires pilots to utilize a 
simple ``see and avoid'' method of separation, allowing then to follow 
more closely than instrument guided approach standards permit. With 
current technology, controllers may only grant visual approaches during 
good weather and when visibility is unobstructed, as pilots must safely 
see the runway, ground, surrounding terrain, and other aircraft in the 
vicinity. With ADS-B displays, pilots would be able to artificially 
``see'' other aircraft even during inclement weather, giving 
controllers greater flexibility to use these less complex and more 
efficient approach rules, increasing the arrival rates regardless of 
the weather. There would no longer be a need to reduce arrival rates 
during IFR weather. The users could more accurately predict scheduling, 
reduce delays, and increase capacity.
Concerns over NextGen
    Based on the public documents that the FAA has made available on 
NextGen, NATCA has several outstanding concerns for both the long and 
short term that we believe the FAA must address comprehensively before 
it can begin the roll-out of any major NextGen technology or policy 
changes. As previously stated, we believe that these and other issues 
can be most effectively addressed in a collaborative environment, and 
we sincerely hope that NATCA can be a part of developing the solutions 
to the problems facing the current air traffic control system and plan 
for the future system. Below are the concerns NATCA believes must be 
addressed immediately, which will be discussed in greater depth in the 
sections that follow.

        1. The FAA must retain a backup system: Redundancy is the 
        essential element of any safety operation. The FAA's published 
        plans contain no viable backup should the satellite fail due to 
        natural or criminal activity. Limited frequency availability 
        further complicates this situation.

        2. Safe and viable plan for equipage: The success of NextGen is 
        dependent on the equipage of thousands of aircraft with new 
        technology, an expensive undertaking that would be a major 
        financial strain on airlines, general aviation and business 
        aviation, particularly in the current economic climate. The FAA 
        has tried to address this by instituting a new ``best equipped, 
        best served'' policy for air traffic control. This policy has 
        serious implications for safety, as it adds an untenable level 
        of complexity to air traffic control operations. If the FAA 
        wishes to incentivize equipage, it must do so in a way that 
        does not compromise safety.

        3. Full consideration of human factors: Many of the proposed 
        changes to the air traffic control system place significant 
        demands on the people who make the system work. The usability 
        of the technology and the accompanying procedures must be a 
        priority.

        4. Research before rulemaking: Many of the plans and promises 
        made in the FAA's NextGen documents are based on assumptions 
        about technology that has yet to be developed. While the ideas 
        are a good basis for research and development projects, it is 
        misleading for the FAA to describe its plans for operations as 
        if the required technology were already available.
Redundancy: The Need for a Viable Backup System
    While we believe ADS-B has tremendous potential and is capable of 
providing precise, accurate, and instantaneous information on aircraft 
positions to air traffic controllers, it is particularly vulnerable due 
to its single-site source. ADS-B is satellite-based technology, with 
information broadcasting from a single source satellite orbiting the 
earth. While this allows it to be more precise than the current ground-
based radar, the singularity of its source makes it vulnerable to 
natural disasters and criminal or terrorist acts. If the satellite were 
to cease functioning for any reason, the entire U.S. air traffic 
control system would be crippled.
    The current ground-based radar system gathers its information from 
numerous radar sights located throughout the country. If one radar 
sight were to fail, another site could act as a back up. For example, 
if a terminal radar site were to fail, Center Radar, or CENRAP, from 
the nearest en route radar site would be able to provide the relevant 
data. In most cases when this occurs, FAA separation requirements are 
increased from three miles to five miles, but safety is maintained and 
service is uninterrupted.
    Until redundancy can be incorporated into the new technology, the 
easiest option for creating the system redundancy necessary to maintain 
the safety of the NAS is to maintain the existing ground radar coverage 
as a backup for the ADS-B system. However, due to financial 
considerations, the Agency wants to decommission many of the current 
radar sites, which would result in an incomplete backup system with 
gaps in coverage.
    Further complicating this is the issue of frequency congestion. 
ADS-B transmits its information in the same frequency spectrum as the 
current radar systems, TCAS, ASDE-X, and other critical aviation safety 
technology. There are simply not enough frequencies available to 
transmit all of the necessary information. According to a briefing 
before the Aviation Rulemaking Committee (ARC) on February 24, 2009, 
the FAA would have to decommission all existing radar sites and reduce 
TCAS surveillance to 60 percent in order to safely utilize ADS-B \7\ in 
future NextGen applications. This further limitation of the available 
redundancy makes the NAS more vulnerable to failure and puts the safety 
of the flying public at risk.
---------------------------------------------------------------------------
    \7\ Capezzuto, Vincent, Surveillance and Broadcast Services: 
Aviation Rulemaking Committee Briefing, Federal Aviation 
Administration, February 24, 2009.
---------------------------------------------------------------------------
    Before ADS-B is implemented, the FAA must develop a safe and viable 
means of providing a backup system. Redundancy and workable backup 
systems are vital to the safety of the NAS, and must not be discounted 
in the fervor to introduce new technology.
Near-term Redundancy Concerns: FAA Realignment Initiatives
    In the near term, we have similar concerns regarding the loss of 
redundancy due to facility and service realignment initiatives. By 
proceeding recklessly with de-consolidation initiatives, the FAA has 
delivered a serious blow to redundancy in knowledge and training. In 
combined tower/Terminal Radar Approach Control (TRACON) facilities each 
air traffic controller is trained on all aspects of arrivals and 
departures. With this overlapping knowledge, controllers are able to 
more safely and efficiently coordinate with one another and control 
aircraft. The redundancy in training also gives managers more 
flexibility in staffing. This redundancy is being removed through the 
FAA's realignment initiatives, diminishing the safety and efficiency of 
air traffic control operations and making facilities more vulnerable to 
the effects of the staffing crisis.
    The FAA is also moving forward on a number of consolidation 
initiatives, in which the FAA would first split tower/TRACON functions 
in current combined facilities and then consolidate the radar functions 
into a larger facility. In these instances, not only is training and 
knowledge redundancy sacrificed, but security also becomes a serious 
concern. As with the single ADS-B site, consolidating air traffic 
control facilities and eliminating radar capabilities at many airports 
leaves regions vulnerable to attack, natural disaster or technological 
malfunction. If a consolidated facility were to fail, not only would a 
single airport be out of service, but the entire region would be shut 
down to air travel as well.
    The House Transportation and Infrastructure Committee recently 
introduced the H.R. 915, the FAA Reauthorization Act of 2009, which 
created a process for evaluating realignment decisions and involving 
all stakeholders in the planning process. NATCA believes that this is 
the correct approach and urges this Committee to include similar 
language in their companion legislation. Working together, stakeholders 
can help mitigate the redundancy loss and ensure that realignment 
initiatives are undertaken only when they present an operational 
benefit to users, improve safety, efficiency and capacity, while also 
saving taxpayer money.
Equipage: A Major Hurdle in Tough Economic Times
    In order to utilize the technology and procedures that create the 
foundation of NextGen, aircraft must be equipped with new technology. 
For general and business aviation, the process of equipage may be cost-
prohibitive. Encouraging voluntary compliance for these fliers may 
prove to be a fruitless effort, and mandatory equipage may cripple the 
general aviation industry beyond repair. One NATCA member and private 
pilot echoed the sentiments of many when he said, ``I'll stop flying 
before I spend $35,000 on new equipment for my $50,000 plane.'' 
Particularly during these difficult economic times, when private pilots 
are struggling to pay for regular maintenance and fuel costs, the added 
expense will be cost prohibitive to most.
    For the commercial airline industry, moving forward with NextGen 
means undergoing the expensive process of retrofitting a fleet of 
aircraft, a major challenge for airlines struggling to continue 
operations despite the economic downturn. Early equipage difficulties 
may be exacerbated by the FAA's history of changing technological 
requirements and delaying or abandoning modernization efforts. American 
Airlines, for example, retrofitted its fleet to install the Controller 
Pilot Data Link Communication system (CPDLC) only to see the FAA 
abandoned its efforts in 2004, leaving the airline to foot the bill for 
technology it would never use.
    Airlines may be reluctant to equip their fleets until they can see 
a clear operational or economic benefit and until the FAA has 
demonstrated a firm commitment to a particular set of equipage 
standards. NextGen will be delayed until the FAA is able to effectively 
address the legitimate concern of airlines and aircraft owners and 
convince them that the technology is a good investment.
``Best Equipped, Best Served'': Implications on Human Factors
    In an attempt to create artificial economic incentives for early 
equipage, the FAA has announced that it will implement a policy that 
would ``provide `best-equipped, best-served' priority in the NAS to 
early adopters.'' This has serious implications for safe and efficient 
operations and for the workload and complexity for air traffic 
controllers.
    Currently, air traffic controllers provide service on a first-come, 
first-serve basis. Air traffic controllers instruct aircraft to merge 
onto airways or disburse to their destinations in the order which comes 
most naturally, the order in which they arrive. Giving priority to 
particular aircraft would require complex maneuvering on the part of 
air traffic controllers, who would have to vector aircraft around one 
another in order to give preferential treatment. This is an unnecessary 
level of complexity introduced into the already complex air traffic 
control environment. As with any additional complexity, it brings with 
it an increased risk in terms of both safety and delays.
    Air traffic controllers are also taught to maximize the efficiency 
of the NAS to the maximum extent practicable without sacrificing 
safety. This often means granting requests from pilots to proceed 
directly to particular navigation points of reference, VORs, rather 
than continuing along the prescribed route. Currently, this is done 
whenever air traffic and weather conditions permit. As there is no way 
to increase the use of these on-the-fly improvements to efficiency, the 
only way to provide incentives is to instruct controllers to avoid 
giving direct routes to aircraft without the new equipment. This means 
decreasing the overall efficiency of the NAS, and increasing flight 
delays for unequipped aircraft.
    Lastly, differential treatment from air traffic control based on 
level of equipage requires the controller to know the level of 
equipage. This would mean an additional piece of information in an 
already-cluttered data-block. According to a Civil Aerospace Medical 
Institute (CAMI) study, the quantity of information in the display has 
a direct relationship to the time it takes for a controller to scan 
that display. Similarly, when a display is cluttered with information, 
it takes additional time to scan and parse out the relevant data.\8\ 
Therefore. adding this additional information to the data blocks will 
increase the complexity of air traffic control even before one accounts 
for the preferential maneuvering.
---------------------------------------------------------------------------
    \8\ Xing, Jing, Information Complexity in Air Traffic Control 
Displays, Civil Aerospace Medical Institute, Federal Aviation 
Administration. September 2007.
---------------------------------------------------------------------------
Human Factors Considerations for ``Trajectory Management''
    The FAA's NextGen plans include increased automation and eventual 
self-separation of aircraft, resulting in a shift in the ``traditional 
responsibilities and practices of pilots/controllers.'' Under the 
proposed system, air traffic control would shift to what the FAA is 
euphemistically referring to as ``Trajectory Management.'' Essentially, 
air traffic controllers would discontinue active air traffic control 
and shift instead to air traffic monitoring and route management. This 
could have serious implications for the safety of the NAS.
    Studies have shown that ``when acting as a monitor of an automated 
system, people are frequently slow in detecting that a problem has 
occurred that necessitates their intervention. Once detected, 
additional time is also needed to determine the state of the system and 
sufficiently understand what is happening in order to be able to act in 
an appropriate manner. The extra time associated with performing these 
steps can be critical, prohibiting performance of the very activity the 
human is present to handle.'' \9\ Safe air traffic control depends on 
the ability to quickly assess situations and make split second 
decisions.
---------------------------------------------------------------------------
    \9\ Parasuraman, R. and Mustapha Mouloua, Automation and Human 
Performance: Theory and Applications. Lawrence Erlbaum Associates, 
1996.
---------------------------------------------------------------------------
    Training and experience would also be a serious issue in this 
scenario. After this changeover of duties is completed, it won't be 
long before the system is staffed entirely by individuals with no 
active air traffic control experience or on the job training. Even 
those who might remain in the profession and remember active air 
traffic control would quickly fall out of practice. Currently, 
controllers and managers who are working off the floor are required to 
work positions for 16 hours to maintain currency. Maintaining this 
level of currency would be impossible should automated separation 
become the standard. This too, would make it difficult for air traffic 
monitors to safely perform air traffic control functions should 
automated separation fail.
Research Before Rulemaking
    At this stage of NextGen's progress, it is difficult to talk about 
near-term benefits of the system. Although this Committee is justified 
in looking for short-term improvements to help alleviate delays and 
improve capacity of the NAS, NextGen may not be the best place to look. 
Right now, NextGen is little more than a very ambitious research and 
development project. While the technology being developed may 
eventually produce great benefit to the system, it is misleading for 
the FAA to speak of plans as if the technology already existed.
    For example, on January 29 of this year, the FAA published a 
PowerPoint presentation entitled ``Delivering NextGen: Trajectory Based 
Operations.'' This document included statements such as ``ANSP uses 
scheduling tools and trajectory based operations to assure a smooth 
flow of traffic and increase the efficient use of airspace,'' \10\ 
implying the availability of 4-D scheduling tools (three traditional 
directions plus time) that are, in fact, still in the early stages of 
developments. It is still unknown when these scheduling tools will be 
fully developed or even how they will function, yet the FAA continues 
to publish descriptions of how flight paths will be changed and how the 
new procedures will look.
---------------------------------------------------------------------------
    \10\ Federal Aviation Administration, Delivering NextGen: 
Trajectory Based Operations, January 29, 2009, pg 4.
---------------------------------------------------------------------------
    To create and outline the procedures at this early stage of the 
development process is both disingenuous and irresponsible. The FAA is 
misleading its stakeholders into thinking the process is already 
further along than it actually is. It is also spending time, money and 
manpower developing procedures and plans when it is unknown precisely 
how the necessary tools will function. This means that FAA is either 
developing broad and non-specific procedures, which are largely useless 
except as a public relations tool, or they are developing specific 
procedures which will likely need to be rebuilt once the technology is 
available.
Conclusion
    In NextGen, the FAA has undertaken a large-scale and long-term 
research and development project to overhaul the technological 
infrastructure of the air traffic control system. This ambitious 
undertaking has serious implications for the future of the National 
Airspace System and should therefore include the meaningful 
participation of all NAS stakeholders.
    NATCA supports the FAA's modernization efforts and is eager to be a 
part of the team developing and planning the technology that will bring 
us into the next generation of air traffic control. We look forward to 
working with the FAA to help them address the serious outstanding 
issues including human factors, equipage and redundancy concerns. It is 
essential for us to be included as partners in this ongoing 
modernization effort.

    Senator Dorgan. Mr. Wright, thank you very much.
    Finally, we will hear from Mr. Kallenbach, the Vice 
President of Marketing at Honeywell Aerospace. And he had been 
recommended to us, as well, from the generation aviation 
community for his testimony. So, we welcome you here.

         STATEMENT OF T. K. KALLENBACH, VICE PRESIDENT

                MARKETING AND PRODUCT MANAGEMENT

                      HONEYWELL AEROSPACE

    Mr. Kallenbach. Chairman Dorgan, Ranking Member DeMint, 
Chairman Rockefeller, Members of the Subcommittee, good 
morning. Thank you for the opportunity to comment on and 
discuss the future of air traffic management.
    I think we can all agree, our Nation's air traffic control 
system is incapable of meeting the growing demands for air 
transportation, and it is in need of true transformation. In 
fact, as the fifth member of this panel, I think we all agree, 
we do need to transform it.
    Further, we should be able to agree, government and 
industry, working together, have demonstrated advanced 
operational capabilities that could reduce today's congestion, 
improve safety, and expand capacity ahead of growing demand. 
Working together with this committee, we know we can transform 
our air traffic system, yet as a nation we have been unable to 
broadly implement these capabilities and systematically reduce 
congestion. And in our minds, waiting until 2025 is simply 
unacceptable.
    The next-generation air transportation system, or NextGen, 
must be a national priority with the necessary leadership, 
commitment, and resources to act and make it a reality.
    We know civil aviation is a key economic driver in our 
country. This strong economic impact is a result of America's 
historical leadership in aviation, leadership since the advent 
of flight. NextGen provides us with another opportunity to 
continue our leadership by implementing technologies, 
standards, and procedures that can transform the world's air 
traffic system.
    We are positioned to be a global leader in air traffic 
modernization, but if we do not act, we will relinquish that 
position. Leadership requires action, implementation requires 
action, global harmonization requires action.
    In the 2003 FAA Reauthorization Bill, Congress created the 
Joint Planning and Development Office to establish a vision and 
the initial plan for NextGen. It is now time to implement that 
vision. And for this, we need to transform the organizational 
approach.
    Because of NextGen's complexity and scope, it is critical 
to centralize the overall planning and execution 
responsibility. We need a single NextGen implementation office, 
with strong leadership, direct accountability for the 
successful deployment of NextGen. And this central office must 
be measured with metrics that reflect our system performance, 
not measure the implementation activity.
    For example, rather than measuring the number of new 
runways, we should measure the operations per day on the 
existing runways. Rather than measuring on-time arrivals, which 
are typically enhanced by block-time expansion, we should 
measure gate-to-gate times. Rather than measuring RNP 
procedures published by the FAA, we should measure the number 
of operations and the savings created by flying those 
procedures.
    Equally important, this central office must have visibility 
to accomplish its mission, including coordination with NextGen 
contributions from partner agencies, industry, and global 
harmonization.
    At the same time this office is being mobilized, we need to 
accelerate the deployment of capabilities that are fully 
available today and that we know will be an important part of 
the evolving NextGen system. These capabilities include 
Automatic Dependent Surveillance Broadcast, or ADS-B, Required 
Navigation Performance, or RNP, Continuous Descent Arrivals, or 
CDA, and Ground-Based GPS Augmentation Systems, or GBAS.
    And just to touch on a couple of examples of how these are 
being applied today, over a 12-month period Qantas flew more 
than 8,000 RNP procedures into Brisbane, Australia, saving a 
total of 42,000 flight minutes--excuse me--4,200 flight 
minutes, 65,000 gallons of fuel, and 685 tons of CO<INF>2</INF> 
emissions. SAS airlines has flown more than 1,300 continuous 
descent arrivals to Arlanda, Sweden, with a total savings of 
78,000 gallons of fuel and 830 tons of CO<INF>2</INF> 
emissions. In our written submission, we've included a number 
of other examples of real savings.
    NextGen can fuel America's economic growth, lower energy 
use, and protect our environment. It also affords us an 
opportunity to be a leader in the development of the global 
aviation infrastructure.
    We cannot wait until 2025 for results. Improvements are 
needed today, and solutions are on the shelf, waiting to be 
deployed.
    Mr. Chairman, I'd like to conclude by offering four 
specific recommendations for consideration:
    First, in 2009 establish and fund a centralized NextGen 
implementation office, fully accountable for implementation.
    Two, accelerate ADS-B OUT forward to 2015 from its current 
2020, and provide funding that satisfies the cost-benefit 
analysis.
    Three, install GBAS technology in the top 20 most congested 
airports by 2011, and the top 50 most congested airports by 
2013.
    And fourth, and final, set and measure RNP adoption rates, 
beginning in 2009, with a 20-percent year-over-year increase 
until 90 percent of commercial flights are using RNP 
procedures.
    Our shared vision for NextGen is clear. There is broad 
industry and government agreement on the technologies and the 
path forward. The aviation industry looks to the Congress and 
the FAA for the focused leadership and action to implement 
NextGen.
    Thank you, and I'll be happy to answer any questions.
    [The prepared statement of Mr. Kallenbach follows:]

 Prepared Statement of T. K. Kallenbach, Vice President, Marketing and 
                Product Management, Honeywell Aerospace
NextGen Must Be a National Priority
    We know that our Nation's air traffic control system is incapable 
of meeting the growing demand for air transportation and is in need of 
a true transformation. Incremental change in today's world of 
satellites and computer power is simply unacceptable. Government and 
industry stakeholders have developed and demonstrated new operational 
capabilities, enabled by new technologies, that could keep airport and 
airspace capacity ahead of demand. Yet, as a nation, we have been 
unable to implement these changes fast enough to eliminate system 
inefficiencies and the resulting congestion and delays. None of us can 
sit on our hands and wait for someone to provide ``the answers,'' as it 
is incumbent on all of us to work together to transform our aviation 
system. Whatever the obstacle--process, laws, regulations, funding--
each must be attacked immediately. This Subcommittee will confront this 
issue head on as you craft the next FAA authorization bill--and we urge 
you to develop proposals that will truly drive the kind of ATC system 
that we know can be built and installed today. Waiting until 2025, as 
some plans call for, is simply not acceptable to everyone who flies, 
and every person connected with the aviation industry.
    The benefits of change are clear--in terms of economic and 
environmental benefits and the impact on travelers. It is time that we 
make the implementation of the Next Generation Air Transportation 
System (NextGen) a national priority and provide the necessary 
leadership, commitment, and resources to make it a reality.
    Specifically, we recommend:

  <bullet> Establishing clear and strong leadership, including a fully 
        responsible and accountable NextGen Implementation Office.

  <bullet> Accelerating the wide-scale deployment of available 
        capabilities including Automatic Dependent Surveillance--
        Broadcast (ADS-B), Required Navigation Performance (RNP), 
        Continuous Descent Arrivals (CDA), and the Ground-Based 
        Augmentation System (GBAS).
NextGen is a Key Element of the U.S. Transportation Infrastructure
    There has been a great deal of discussion recently on the urgent 
need to revitalize our Nation's infrastructure. Much of that attention 
has been focused on our roads and bridges, rail networks, and 
telecommunications--critical components, to be sure. Aviation's 
contribution to our infrastructure is just as important, however, and 
air traffic management is a foundational element of that 
infrastructure.
    Airports are the most visible component of the aviation 
infrastructure. Revitalization of airports via new or upgraded terminal 
buildings, taxiways, and runways provides tangible evidence of 
congestion relief. The rest of the infrastructure--the ``highways in 
the sky'', with the ``on-ramps'' and ``off-ramps'' that connect our 
Nation's airports--is less easily visualized and yet key to the 
efficient operation of the air transportation system. Adding ``lanes'' 
to these ``highways'' and more efficient ``on-ramps'' and ``off-ramps'' 
doesn't involve pouring concrete, but rather requires implementing 
advanced, yet existing, technologies, including: space-based 
navigation, digital communications, automation and advanced displays 
supporting air traffic controller and pilot decision-making. This 
virtual infrastructure, implemented via software and electronics 
instead of concrete and steel, demands equal attention as a national 
priority.
NextGen is a Strong Engine for the U.S. Economy
    Aviation's impact on the U.S. economy cannot be understated. The 
FAA estimates that civil aviation contributes 11 million jobs and $1.2 
trillion in economic activity, amounting to 5.6 percent of the U.S. 
Gross Domestic Product (GDP).\1\ On the other hand, the Congressional 
Joint Economic Committee calculates that the cost of air traffic delays 
to the U.S. economy in 2007 was $41 billion.\2\ To put this in 
perspective, rough estimates of the total cost of implementing the 
NextGen system have been on the order of $50 billion--a little more 
than 1 year's cost of the delays NextGen can and should eliminate.
---------------------------------------------------------------------------
    \1\ The Economic Impact of Civil Aviation on the Economy, FAA, 
October 2008.
    \2\ Your Flight Has Been Delayed Again--Flight Delays Cost 
Passengers, Airlines, and the U.S. Economy Billions, Joint Economic 
Committee Majority Staff, Chairman--Senator Charles E. Schumer, Vice 
Chairman--Representative Carolyn B. Maloney, May 2008.
---------------------------------------------------------------------------
    Aviation is also a strong contributor to the U.S. balance of trade. 
In 2007, aerospace contributed $61 billion in net exports,\3\ the top 
industry performer. This strong economic driver is a result of 
America's historical leadership in aviation--leadership that has 
existed since the advent of flight. NextGen provides us with an 
opportunity to maintain that leadership by developing, demonstrating, 
and implementing the technologies, standards, and procedures that will 
transform the world's air traffic systems. Alternatively, if we choose 
to not act aggressively, we stand to be eclipsed as other regions, 
including Europe, Australia, and China, move to deploy new systems to 
meet their growing air transportation needs. We are positioned to be a 
global leader in air traffic management modernization, but if we do not 
act, we will relinquish that position.
---------------------------------------------------------------------------
    \3\ The Economic Impact of Civil Aviation on the Economy, FAA, 
October 2008.
---------------------------------------------------------------------------
NextGen Will Have a Positive Environmental Impact
    Our aging air traffic system also has a significant impact on 
energy use and the environment. The aviation industry continues to make 
great strides in improving the efficiency of aircraft operations. Over 
the past 30 years, airlines have more than doubled their average fuel 
economy.\4\ The industry continues to invest in more efficient 
airframes, engines, and systems, with a laser focus on reducing 
operating costs and achieving carbon-neutral industry growth.
---------------------------------------------------------------------------
    \4\ Measured in Revenue Passenger Miles per Gallon of Fuel--Air 
Transport Association, http://www.airlines.org/economics/energy/
fuel+efficiency.htm.
---------------------------------------------------------------------------
    At the same time, the air traffic system in which we are required 
to operate creates inefficiencies that are estimated to be between 10 
and 15 percent. For the airlines alone, this inefficiency resulted in 
more than 10 million metric tons of carbon dioxide emitted 
unnecessarily in 2008. This is equivalent to the annual emissions from 
the electrical use of more than 1.2 million U.S. households. This does 
not have to be the case; these emissions are preventable.
Technologies and Procedures can be Deployed to Save Fuel and Reduce 
        Emissions
    Required Navigation Performance, Continuous Descent Arrivals, and 
Ground-Based Augmentation Systems are three technologies that have been 
shown to provide significant environmental benefits. Operational use of 
these capabilities should be accelerated.
Required Navigation Performance and Continuous Descent Arrivals are Key 
        Technologies
    Performance-based navigation using Required Navigation Performance 
(RNP) and Area Navigation (RNAV) relies on Global Positioning System 
(GPS) and inertial navigation technology to allow aircraft to fly 
accurate paths independent of classical ground-based navigation 
infrastructure. This enables flight paths between cities that are more 
direct, with fewer miles flown, and approach and departure procedures 
that are shorter and involve little, if any, intervention from air 
traffic controllers. The result is significant decreases in distance 
and time flown.
    Practical, ``real world'' demonstrations of RNP's effectiveness 
abound:

  <bullet> Australia's Qantas Airlines, for example, has its fleet of 
        Boeing 737s flying more than 100 RNP procedures each day. These 
        procedures in Brisbane alone cut approximately 15 miles and 
        more than 1,600 pounds of CO<INF>2</INF> emissions on every 
        approach.

  <bullet> Southwest Airlines recently operated a Boeing 737 
        demonstration roundtrip between Dallas Love Field and Houston 
        Hobby using RNP procedures, yielding 904 lb. of carbon dioxide 
        savings, part of its $175 million program to implement RNP 
        fleet-wide.

  <bullet> Since 2005, Alaska Airlines, an early RNP pioneer, has 
        documented 5,300 flights that avoided diversions by using RNP 
        procedures. In 2008, these ``saves'' resulted in cost savings 
        of $8 million.

    Another procedural improvement that relies on the use of RNP is 
Continuous Descent Arrivals (CDA). These procedures couple the lateral 
accuracy provided by RNP with the vertical accuracy provided by the 
aircraft's Flight Management System (FMS) and flight controls. The 
flight path is coordinated with air traffic control via data link 
communications. The resulting descent is flown from cruise altitude to 
final approach with few, if any, level segments and the engines 
operating continuously at or near idle power.

  <bullet> UPS uses these procedures at Louisville, with reported 
        savings of between 250 and 465 pounds of fuel (37-69 gallons, 
        780-1456 pounds of CO<INF>2</INF>) per arrival.

  <bullet> SAS Airlines have flown more than 1300 Continuous Descent 
        Arrivals to Arlanda, Sweden, with average fuel savings of 410 
        pounds of fuel (60 gallons, 1279 pounds CO<INF>2</INF>) per 
        arrival.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Figure 1--Southwest Airlines operations between Dallas and Houston 
(Yellow--Non-RNP ground tracks; Red--RNP direct route)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 2--CDA versus a classical ATC ``step down'' descent profile

    Combining the benefits of RNP and CDA over the entire flight 
magnifies the benefits. This has been demonstrated in trials on both 
trans-Atlantic and trans-Pacific routes. In the Pacific, the Asia and 
South Pacific Initiative to Reduce Emissions (ASPIRE) has sponsored 
several flights between Australia/New Zealand and the U.S. An Air New 
Zealand Boeing 777 flying from Auckland to San Francisco shaved 5 
minutes off the flight and saved 1200 gallons of fuel, producing 11.5 
metric tons less CO<INF>2</INF>.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 3--ASPIRE Versus a Traditional Flight Profile
Ground-Based Augmentation System Reduces Costly Diversions
    The GPS Ground-Based Augmentation System (GBAS) is the next-
generation precision landing system technology, a 21st century 
alternative to the 1950s-era Instrument Landing System (ILS) currently 
in operation. GBAS technology utilizes a ground system installed at an 
airport to identify and correct small errors in GPS satellite signals 
and transmits this information to arriving and departing aircraft. This 
high-integrity, extremely precise positioning data is coupled with 
GBAS-provided approach paths and aircraft avionics to guide the 
aircraft to the runway in low visibility conditions.
    Due to limitations with current ILS equipment, airports routinely 
lose capacity as visibility decreases. Fifteen of our top U.S. airports 
experience greater than 25 percent reduced capacity when ceilings are 
below 200 feet.\5\ In these situations, aircraft are often forced to 
wait in holding patterns--burning extra fuel or even worse, diverted to 
alternate airports. GBAS technology provides precision approach 
capability to all runway ends, maximizing airport capacity in all 
visibility conditions and minimizing delays and diversions--ultimately 
saving fuel and reducing emissions--while also contributing to a safer 
operating environment.
---------------------------------------------------------------------------
    \5\ Airport Capacity Benchmark Report 2004, FAA.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Figure 4--GBAS provides many benefits in the airport terminal area
The Need to Establish a NextGen Implementation Office
    In the last FAA reauthorization bill, Vision 100--Century of 
Aviation Reauthorization Act of 2003, Congress created the Joint 
Planning and Development Office (JPDO) to coordinate across government 
and industry stakeholders, establish a NextGen vision and operational 
concept, and develop an integrated plan for its deployment. JPDO has 
since successfully achieved these objectives.
    It is now time to implement NextGen. And for this, we need to 
rethink the organizational approach.
    NextGen is a multifaceted system requiring the functional 
integration of many different subprograms and developments, which will 
require significant investment over many years. For a project of this 
complexity and scope, it is critical that overall planning and 
execution responsibility be centralized. The current structure, which 
spreads the decision-making for program requirements, timing and 
investment priorities across numerous organizations, has resulted in 
inefficiencies, confusion, and delays that we simply can no longer 
afford.
    We need a single NextGen Implementation Office with strong 
leadership, directly responsible and accountable for the successful 
deployment of the NextGen Air Transportation System. This Office must:

  <bullet> turn the JPDO's Integrated Plan into a detailed 
        Implementation Plan;

  <bullet> establish the year-over-year investment required;

  <bullet> be provided with the resources necessary to get the job 
        done;

  <bullet> directly manage the FAA's NextGen programs;

  <bullet> identify clear and agreed-to metrics that track performance 
        to NextGen goals, and

  <bullet> be held accountable for achieving results.

    It is especially important to ensure the primary metrics used to 
measure NextGen results reflect air transportation system performance 
and not implementation activity. For example:

  <bullet> Rather than measuring the number of new runways built, we 
        should be measuring the operations per hour on our existing 
        runways.

  <bullet> Rather than measuring the on-time arrival rate associated 
        with continually increasing ``block times'', we should be 
        measuring the average gate-to-gate times and fuel burned 
        between key city pairs.

  <bullet> Rather than measuring the numbers of procedures (e.g., RNP, 
        LPV) published by FAA, we should be measuring the number of 
        operations using these advanced procedures and the average 
        distance flown and fuel burned in key terminal areas.

    As with the JPDO, it is expected that this office will reside 
within FAA. However, it must have sufficient visibility to accomplish 
its critical mission, including coordination of the important NextGen 
contributions from partner agencies and industry and the alignment of 
NextGen development and deployment with the international community.
Accelerate Deployment of Off-the-Shelf Capabilities to Improve Near-
        Term Performance
    At the same time that this office is being set up, we need to 
accelerate the deployment of capabilities that are fully available 
today and that we know will be an important part of the evolving 
NextGen system. These capabilities include Automatic Dependent 
Surveillance--Broadcast (ADS-B), Required Navigation Performance (RNP), 
Continuous Descent Arrivals (CDA), and the Ground-Based Augmentation 
System (GBAS).
    Automatic Dependent Surveillance--Broadcast (ADS-B) is the next-
generation surveillance technology that will augment and decrease 
dependence on our aging and costly radar infrastructure. ADS-B uses 
GPS-based aircraft position information, broadcast from aircraft via 
data link to a ground network and other aircraft for use by controllers 
and other pilots. The first step in ADS-B deployment is getting the 
information from the aircraft to the ground--commonly referred to as 
``ADS-B OUT''. Australia is using ADS-B for routine surveillance across 
much of their airspace today. Over 60 percent of the international 
flights operating to and from Australia are already equipped with the 
ADS-B OUT capability and are benefiting from ADS-B surveillance 
services in airspace covering over 50 percent of the Australian 
continent. Australia's civil aviation regulator has also issued a rule 
requiring ADS-B capability for all aircraft operating above 29,000 feet 
by 2013. Similarly, Europe has published a proposed rule for all 
aircraft to have ADS-B OUT capability by 2015. In addition, Canada is 
actively deploying ADS-B today to control aircraft operating over 
Hudson Bay.
    The FAA is well on its way to deploying the nationwide 
infrastructure needed to receive the ADS-B information and integrate it 
with controller displays. A ground network and associated service is 
expected to be fully deployed by 2013.
    ADS-B avionics are well-defined by industry standards and available 
for most aircraft today. However, there is very little incentive for 
aircraft operators to equip their fleets now since the primary benefit 
of ADS-B OUT is to the FAA in the form of reduced costs from 
decommissioning a large number of the secondary surveillance radars. 
Unfortunately, the FAA's proposed rule for airborne equipage will not 
be fully effective until 2020, deferring FAA's cost savings.
    Rather than wait until 2020 for FAA savings to kick in, the 
requirement for ADS-B OUT capability in the U.S. should be accelerated 
to at least align with Europe's 2015 requirement. Additionally, to 
ensure that overall cost-benefit can be established, the FAA should be 
provided with the funding needed to equip the necessary aircraft with 
ADS-B OUT capability. This would greatly accelerate the benefits to the 
FAA, while jumpstarting a key NextGen enabler. With a fully-deployed 
ADS-B OUT capability, the business case for user investments in the 
second step, ``ADS-B IN'' will be stronger and far easier to make. This 
capability is the key to capacity and safety improvements needed in the 
future.
    Another technology that is ready for implementation now is Required 
Navigation Performance (RNP). As discussed earlier, RNP provides the 
ability to fly precise and repeatable paths, enabling shorter and more 
effective arrival and departure procedures. For example, during a 12-
month period, more than 8,000 RNP approaches at Brisbane saved 34 
Qantas 737-800s a total of 4,200 minutes of flying, 65,000 gallons of 
fuel and 621 metric tons of CO<INF>2</INF> emissions. Average delays at 
the airport were reduced by 30 seconds for all arriving aircraft, which 
benefit from the fact that the RNP 737-800s are shaving between 10 and 
23 nautical miles off their approach path to the runway, compared with 
an existing visual approach.\6\ Effective fuel-saving procedures are 
essential to motivate aircraft operators to invest in these upgrades.
---------------------------------------------------------------------------
    \6\ Aviation Week and Space Technology, April 28, 2008, page 56.
---------------------------------------------------------------------------
    To be clear, RNP technology exists and is being used today. In 
Australia, there have been in excess of 31,000 RNP approaches and 
departures flown to-date.\7\ We simply need to accelerate the 
development of RNP procedures. While the FAA has been developing RNP 
procedures for several years, they remain the exception rather than the 
norm. One mechanism for acceleration is to enlist the support of third-
party procedure developers. There are already several qualified sources 
for this service and they could be effectively employed to augment the 
existing FAA resources.
---------------------------------------------------------------------------
    \7\ Airservices Australia.
---------------------------------------------------------------------------
    Continuous Descent Arrival (CDA) is another capability that can be 
exploited more rapidly. Many aircraft are already equipped with the 
basic systems needed to execute CDA procedures. With the significant 
cost savings resulting from CDAs, other operators will be strongly 
motivated to invest in upgrades if they could routinely use these 
procedures. As described earlier, numerous trials, including SAS 
(Sweden), UPS (Louisville, KY) and ASPIRE (Pacific Rim to Los Angeles/
San Francisco), have demonstrated the procedure's benefits. Routine use 
of CDAs will require some modification to airspace structures, as well 
as providing tools and training to air traffic controllers. The 
solution is well-understood; the issue at hand is dedicating the 
resources needed to put this capability to use in routine operations at 
more airports across the U.S.
    One final technology that should be accelerated is Ground-Based 
Augmentation Systems (GBAS). FAA approval for the initial version of 
the GBAS ground station is anticipated by May of this year. Ground 
stations are already deployed in Sydney, Australia; Bremen, Germany; 
Malaga, Spain; Guam; Seattle and Moses Lake, Washington; and Memphis, 
Tennessee. Newark, New Jersey and Minneapolis, Minnesota are planning 
ground station deployments in 2009. Boeing 737s and Airbus A380s are 
already coming off the production line with the necessary avionics to 
support GBAS. Boeing's 787 and 747-8 will be equipped for GBAS as well, 
and plans are in place for upgrades to most production Boeing and 
Airbus aircraft.
    The FAA has been very supportive of this technology, and it is now 
time to accelerate the installation of GBAS systems at our Nation's 
largest airports. As with other NextGen technologies, a clear business 
case for aircraft upgrades cannot be made without the availability of, 
or at least a strong commitment to, the installation of GBAS ground 
stations and supporting operational procedures.
Airspace Restructuring Around Airports is Essential
    Finally, it is important to keep in mind that none of these NextGen 
capabilities can be successfully deployed, nor the benefits fully 
achieved, without restructuring the routes aircraft fly as they arrive 
and depart from our Nation's airports. Using RNP, CDA, and GBAS, these 
new routes are often more community-friendly, creating less noise and 
emissions. For example, Figure 5 shows the flight paths for RNP (green) 
and Non-RNP (red) aircraft approaching Brisbane runway 01 via the 
``River'' noise abatement procedure.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 5--Example of the RNP ``River'' approach to Brisbane runway 
01--03/08

    The RNP approach allows tracking at lower altitudes over non-
residential areas such as, in this case, the Brisbane River and 
industrial areas. With RNP (green), the precision to stick to the river 
and not ``creep'' over neighboring residential areas is quite clear.
    While it is understandable that local communities have strong 
interests in where these virtual ``off-ramps'' and ``on-ramps'' are 
located, it also needs to be clearly understood that these changes are 
needed to achieve the broader community benefits of overall reduced 
noise and emissions. An example of this dynamic is the on-going effort 
to reduce congestion in the New York terminal airspace. Four of our 
Nation's most delay-prone airports are located within this airspace and 
effects from these delays routinely ripple throughout the U.S. Efforts 
to provide congestion relief via airspace redesign to take advantage of 
new capabilities and procedures has been in work for over a decade, 
delayed in part by opposition from local community groups. The support 
and leadership of Congress is absolutely critical in developing the 
community consensus needed to aggressively deploy NextGen capabilities.
We Must Accelerate NextGen Implementation
    The NextGen Air Transportation System is needed to fuel our 
economic growth, lower energy use, and protect our environment. We must 
make it a national priority and provide the structure, leadership, and 
resources needed to be successful. We need not wait for 2025 to see 
results, and in fact, we must not. Improvements are needed today and 
solutions are on the shelf waiting to be deployed.
    We offer the following recommendations:

        1. Establish and fund a fully responsible and accountable 
        NextGen Implementation Office in 2009.

        2. Accelerate the requirement for ADS-B OUT capability to 2015 
        and provide the funding needed to satisfy the cost-benefit 
        analysis.

        3. Install GBAS technology in the top 20 most congested U.S. 
        airports by 2011 and top 50 most congested airports by 2013.

        4. Set and measure an RNP adoption target beginning in 2009 
        with a 20 percent year-over-year increase until 90 percent of 
        commercial flights are using RNP procedures, including 
        Continuous Descent Arrivals.

    Our shared vision for NextGen is clear. The aviation industry now 
looks to the Congress and FAA for the focused leadership required to 
implement this much-needed advance in our transportation 
infrastructure.

    Senator Dorgan. Mr. Kallenbach, thank you very much for 
your testimony.
    Well, Mr. Krakowski, the standards, the development of 
standards, it seems to me, is essential for those that are 
going to run the system, those that are going to use the 
system. What can we expect, in terms of the development of 
standards, in terms of time?
    Mr. Krakowski. There clearly is a lot of standards work 
going on, there has to be, in order to make sure that, when we 
make this transition, that it's done safely, that it is 
completely understood by everybody who's going to operate in 
the system, as well as have the redundancy necessary to make 
sure that it operates safely.
    The RNP procedures that have been talked about already have 
standards. A lot of the standards actually exist to run 
operations today, as the panel described.
    So, I think we're not really creating anything necessarily 
new, in terms of operating standards; it's going to be more of 
a refinement.
    I'll give you a good example. We space aircraft farther 
apart right now, because radars don't have the fidelity to 
allow them to fly closer. ADS-B will give us that fidelity. 
With ADS-B, we can have closer separation standards, and then 
increase capacity and efficiency, as well.
    So, if you want to have really far-reaching standards 
changes that make a difference, this modernization effort, 
particularly with ADS-B, is critical.
    Senator Dorgan. Mr. Wright, you were a controller for 32 
years, how long will a modern jet--excuse me--how far will a 
modern jet travel before the next sweep on the radar?
    Mr. Wright. It's according to if it's a terminal, which is 
6 seconds, or a en-route radar, which is 12 seconds. So, 
basically you're looking at where it's at in the approach. If 
it's on 240 knots, then it's going to go a lot faster than it 
would if it's on approach, at 130 knots. So, it all depends on 
the speed.
    Senator Dorgan. So, because you don't see that airplane 
constantly----
    Mr. Wright. Right.
    Senator Dorgan.--you see it intermittently, and because of 
the speed, the result is, you need more spacing----
    Mr. Wright. It's the update. Yes, that's why the en-route 
environment uses 5 miles between and we use 3 miles in a 
terminal. There's a PRM scope that uses a--it's a very quick 
update that they use on runways that are not separated by a 
mile or so, so it updates quicker. It's all about the update of 
the radar.
    Senator Dorgan. But, the--NextGen would change all of that, 
because you know where that airplane is at every point.
    Mr. Wright.With ADS-B, we get an update a second.
    Senator Dorgan. Right.
    Mr. Wright. So.
    Senator Dorgan. Mr. Krakowski, Mr. Wright's not very happy 
with the FAA. He says you're not consulting with them, you're 
not accessing information they have that could be helpful to 
you. What's the story?
    Mr. Krakowski. Yes, actually, relative to NextGen, I'd like 
to just set a little bit of clarity around this. We have a 
NextGen Management Board, which is the highest level of 
leadership in the FAA, to oversee the NextGen rollouts, 
particularly in implementation. NATCA has had a seat on that 
board for 2 years now, and they're increasing their 
participation. Last year, they participated at about 61 
percent, this year at about 80 percent. And we welcome that. 
And we particularly find Mr. Wright's input very, very 
valuable.
    The RTCA Task Force that was just commissioned, NATCA has 
membership on those programs, as well.
    Senator Dorgan. Yes, but this is--but, Mr. Wright's 
criticism is more specific than that. He's talking about the 
input that he thinks should have been required with respect to 
that East Coast routing--I forget your description of it--but, 
was not sought, and not welcome, apparently. Is there something 
going on here that we don't understand? Because it doesn't make 
sense to me that you wouldn't want everything everybody has to 
offer to give you the best possible product.
    Mr. Krakowski. Yes. I come from an environment, from the 
airline industry, where we had really great cooperation, on a 
technical level and a safety level, with all of the labor 
unions. Clearly, the labor dispute, which has occurred some 
years ago, has created a drag on the relationship, in our 
ability to work together. We are looking forward to changing 
that, particularly under the new Administration.
    There are union contractual issues that define how that 
relationship works, and we've got some work to do there.
    Senator Dorgan. I understand. But, from my perspective, I 
would hope everyone that you have the potential to work with 
that can contribute in a positive way to this would say, ``I'll 
tell you what, the FAA reaches out so much we're tired of 
hearing from them.'' I mean, I just--I hope that you will make 
an extra effort here so that we don't, in the future--I don't 
know who was at fault here, but we don't, in the future, hear 
anybody complain about their input not being sought. We should 
seek everybody's input, discard that which is not valuable. 
But, boy, we ought to reach out in every direction.
    Mr. Kallenbach made a suggestion, a central office of 
implementation. Dr. Dillingham, he makes the point that you've 
got--you know, you've got a lot of different areas working 
here, there ought to be some central office to coordinate 
implementation. What do you think of that?
    Dr. Dillingham. Mr. Chairman, we have made a similar point, 
that there needs to be one central office with, in fact, the 
way we suggested it was direct reporting to the Administrator. 
This situation is really complicated, at this point in time, 
because recently the ATO reorganized itself and positioned the 
JPDO in a different place than we had suggested. Now, we're not 
saying that that reorganization doesn't have some merit, but 
that situation is further complicated by a recent executive 
order that established yet still another organizational 
framework, in terms of different roles and different 
responsibilities.
    We've said, at this point, that, you know, whatever 
organization is put in place, clearly the place where the buck 
stops is important, but more important than that is the outcome 
of how--whatever the organization is, the focus ought to be 
moving NextGen along.
    Senator Dorgan. Senator DeMint will be back momentarily, 
and let me call on the Chairman of the full Committee, and then 
I'll go back and forth, by order of arrival.
    Senator Rockefeller?
    The Chairman. Thank you, Mr. Chairman.
    I, like Chairman Dorgan, am very intense about this 
subject, and I'm kind of tired of talking about it. Everything 
that the President talks about--and that is, you know, carbon 
release and wasted time and damage to the economy and 
frustrated people and people not having reason to have 
confidence in their government, et cetera--all comes together 
in not having NextGen, NowGen, whatever you want to call it.
    Now, some people are using the excuse that we don't have 
the money for it. And I consider that to be way off the mark. 
We have to do this, and we have to do it right away.
    So, my question to you is, why are we so slow? I mean, I 
can--you know, we've got labor-management disputes--I'm 
actually also, like the Chairman, tired of those, because 
everybody's got disputes and--I had people in my office 
yesterday complaining about something which would probably 
derail the FAA Reauthorization, and therefore any effort to do 
NextGen. I think NextGen is absolutely priority number one.
    So, is the lack of money, lack of focus, lack of 
concentration, lack of anybody appointed, anybody serving in 
the Federal Administration, appointed by this Administration--
are any of those things problems, or is there any possible 
excuse for not doing this right away?
    Any of you.
    Mr. Kolshak. Senator Rockefeller, if I could address your 
question.
    From the airline's perspective, the issue we have is the 
required implementation timetable is too long. So, when I look 
at 2020 and 2025, and looking at capital, it's very hard for me 
to go to the CFO of the company and ask for tens of millions of 
dollars for equipage when it's not going to be required, and, 
more importantly, the benefit--I will not gain the benefit for 
another 10 or 15 years.
    And the example that I would use is the old adage, ``Build 
it and they will come.'' We've come, and they haven't built it. 
We are retiring, by the end of this year, United Airlines, 100 
aircraft that we've spent over $20 million on equipage that we 
will not have fully utilized. And that's a difficulty that we 
have without some type of a benefit that goes hand-in-hand with 
the equipage and the expenditure.
    The Chairman. Does anybody think that the Europeans--
they've got their SESAR system--that they're going to slow down 
their progress because of economic difficulties? Does any one 
of you believe that they're going to do that?
    Voice. I don't.
    Voice. No.
    Mr. Krakowski. Senator, I just came back from Europe and 
meeting with EuroControl in the European Union, and I can tell 
you, in some aspects they're actually a little ahead of us, in 
some aspects they're behind us, but the political will is 
there. It's going to be interesting, because, with all the 
different countries and sovereignties involved there, they have 
a very complicated situation that has to come together. But, we 
are working with them. It's important that we work with them, 
because we don't want Joe's pilots to have different systems.
    The Chairman. I'm not talking about working with them, I'm 
just talking about their--nothing is going to stop them.
    Mr. Krakowski. It doesn't appear.
    The Chairman. And if they're behind us in a couple of 
things, I didn't know about that. If they're ahead of us, I 
certainly didn't know about that. The point is, they're not 
going to stop, so we're going to fall farther and farther 
behind unless we have the intensity and the political will to 
make sure that there's money in the budget to do this. It would 
be nice if we had somebody at the FAA who was actually in 
office, would you not agree, Senator Nelson? Would that be 
helpful?
    And I'm just losing patience. We've got to find a way to 
pay for this. It's not equally done. We have all kinds of 
disputes, which just build upon--they become a part of culture. 
How are we going to develop our culture of disagreement to a 
finer art form this year so that we can not get something done? 
I'm sick of it.
    Dr. Dillingham. Chairman Rockefeller, if I could answer 
your original question about, why is it taking so long? I mean, 
as you well know, there was a history at the FAA of cost 
overruns and schedule delays for the foundational systems or 
legacy systems that we're talking about now. And the Congress, 
you know, mandated the establishment of the ATO, which Mr. 
Krakowski is, in fact, in charge of now. So, you know, that had 
to be overcome.
    And, at the same time, this is a very complex undertaking. 
And so, add that to overcoming the history and the changes that 
have been taking place, both organizationally and 
technologically, it's a contributing factor.
    But, we are now at a point where we are beyond planning. We 
are now at a point where these are the kinds of things that can 
be done now so that 5 years from now you can see a definite 
impact on the system efficiency and capacity. What's going to 
be important is, once this plan comes out from RTCA, that it 
is, in fact, implemented and we don't get into that death 
spiral again.
    The Chairman. Yes. I'd just close, Mr. Chairman, by saying 
we could make the decision, which lots of the Nation carries 
out on, is not to give young children, 3 years and below, 
something called EPSDT, which is early screening for various 
diseases and things, and say, ``Well, we don't have enough 
money to do that now.'' And, in fact, that was--that has been 
the case. We paid, big-time, in the future.
    You're saying, ``Well, I can't go to my board now.'' 
There's always an excuse. There's always a reason. The world 
has changed. Everything has changed. And if we're going to get 
this system built, somebody's going to have to step up and say, 
``I'm going ahead.'' I think, on this Committee, we're prepared 
to do that, but we'd like to be matched by some of the people 
in the industry itself and at the FAA.
    Mr. Wright. Chairman Rockefeller, I also serve on the board 
of the International Federation of Air Traffic Controllers, 
which is worldwide, and it appears to us that SESAR--they have 
their funding more set, and they don't do what we call ``double 
work'' like we do here in the States. We find certain 
committees that I'm on, then we find another committee that's 
doing the same work. And I believe the task force should take 
care of that, but, in the past, there has been a lot of double 
work going on.
    The Chairman. OK. So, that's another excuse. And I'm just 
saying I'm tired of excuses, and so is this Committee.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Brownback?

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you, Mr. Chairman.
    I'd ask consent that my opening statement be included in 
the record.
    Senator Dorgan. Without objection
    [The prepared statement of Senator Brownback follows:]

   Prepared Statement of Hon. Sam Brownback, U.S. Senator from Kansas
    I want to thank all the witnesses today for your willingness to 
come before our Committee to speak on one of most important issues 
facing our Nation's transportation sector.
    As you know, my home State of Kansas has been at the forefront of 
aviation manufacturing for the past century--both in the commercial and 
general aviation sectors. Keeping this in mind, I implore you to 
continue engaging stakeholders from all sectors of the aviation 
industry in your decisionmaking process. Your decisions will, without a 
doubt, have major economic implications for thousands of my fellow 
Kansans.
    I believe, and I'm sure you'll agree, that the largest obstacle to 
a seamless implementation of NextGen technology is current economic 
constraints. The two main questions being: how much will all of this 
cost, and who is going to pay for it? I believe that while it's 
imperative for us to continue moving toward modernization, we do so in 
a way that will not impose unfair costs on specific sectors of the 
aviation industry, or even worse, the taxpayer.
    Again, thank you all for your work on this issue and willingness to 
testify today. I look forward to hearing your statements.

    Senator Brownback. Gentlemen, thank you very much for being 
here. I appreciate, particularly, the Chairman for holding this 
hearing. This is one of these things that have been bouncing 
around for a long period of time, as all of us are very 
familiar with. It was bouncing around when I was first on the 
Commerce Committee, went off, and now I'm back, and now it's 
still bouncing around. So, I have some familiarity with it.
    I am curious on what you're saying here on the FAA's 
projection, that you handle, currently, about 50,000 flights 
every day, and you're projecting, 2025, at somewhere between 
double to triple that number of flights. What percent of that 
do you feel like you can get if you have efficiently 
implemented NextGen operation, versus how much just new 
physical air, landing strips, and places are you going to have 
to handle that? Have you broken that down?
    Mr. Krakowski. A lot of those numbers were made some years 
ago in the early planning phases. The devil in the detail is 
how it's distributed. And that's an important issue. We are 
virtually delay-free when there's good weather in this country, 
with the exception of the New York area. If there's bad 
weather, of course, delays occur because of that. If the system 
evolves, where the traffic comes back or increases at those 
levels in really hot-pocketed areas, and we haven't built the 
runways, and we haven't done all the NextGen work necessary, 
the delays are going to be hard to handle.
    Senator Brownback. Well, what percent of those delays can 
you handle by NextGen? I mean, if a fully implemented system--
I'm just curious, how much more can you increase the capacity 
with NextGen?
    Mr. Krakowski. So, this will determine, on separation 
standards, as I was talking about earlier, where we can 
actually bring airplanes closer together. If we can build new 
runways--and we have, you know, built 14 of them in the last 
few years--that's going to be a really big help to the system, 
as well.
    Senator Brownback. Do you know the breakdown on the number?
    Mr. Krakowski. I can give it to your Committee, sir. We'll 
get it to you.
    Senator Brownback. OK.
    Dr. Dillingham, you've worked on the physical 
infrastructure issues. Have you looked at the runway issues, 
too, along with the radar systems, or not?
    Dr. Dillingham. Yes, Senator. The latest information that 
we have comes from the FAA and indicates that, with full 
implementation of NextGen and the runways that are planned now, 
that somewhere around 60 percent of the capacity will be 
handled. So, you will still have, you know, potentially 
significant delays.
    One of the things that is very important is the need to 
build additional runways, and to start that process now, 
because----
    Senator Brownback. Regardless of NextGen----
    Dr. Dillingham. Regardless of NextGen, regardless of the 
14--the runways that are currently planned, there still needs 
to be more development. And the issue, of course, is--in a 
worst-case scenario, you could have a Boston, where it took 40 
years to build a runway, or, in a best-case scenario, it's like 
10 to 12 years. So, these are the kinds of things that need to 
be dealt with now; otherwise--you know, NextGen is not a silver 
bullet.
    Senator Brownback. It just--the reason I ask that is, the 
general aviation industries headquartered in my State's 
fabulous, global dominating industry, one that has been hurt 
some by Congress lately, in making fun of business jets. You 
know, we look at it as, this is a business efficiency issue, 
and we sell a number of jets, haven't been selling very many of 
those lately; we'd love to sell a few more. But, the point of 
it is, too, if you can't get into a place, it doesn't matter. 
You're still selling a savings of time and efficiency, and if 
you can't' get into someplace, if you don't have the airport, 
if you don't have the system to be able to move people into it, 
if you can't get into high-concentration markets, you've hurt 
yourself. Or if you can't get out and back, because often it's 
going from a high-concentration market into a low-
concentration, then back, same day. And you really need to 
focus on getting both of those. And that's something I would 
hope that we could do in this committee, is focus on what we're 
doing to make sure we keep that system--the total capacity, the 
physical capacity, the spacing and the NextGen moving together, 
because we're looking, I think, at a real crunch, whenever the 
economy picks back up, and these new, lighter-weight aircraft, 
moving forward, if we really don't focus on this, you're going 
to have a huge amount of delays in a lot of places. And I think 
we can just see that coming if we don't get it done.
    Thank you, Chairman.
    Mr. Kallenbach. If I could add one thing. When you talk 
about new runways, part of this is making use of the existing 
runways that we have that become impaired by weather. So, for 
instance, to Senator Lautenberg's early remarks, Newark 
actually has a runway that can become impaired by weather. And 
so, it's like losing a runway. One of the things that NextGen 
and ground-based augmented GPS can do for you is allow you to 
use that runway during poor weather and, in effect, giving you 
an additional runway without having to build infrastructure. 
That's one of the concepts and one of the reasons we want to 
move forward on some of these technologies.
    Senator Brownback. Well--and I'm--I am all supportive of 
that. Absolutely. I just say it's not--it's not going to be 
enough, still, at the end, with the projections of what we're 
looking at. And so, you've still got to move forward.
    Mr. Kallenbach. Yes, sir.
    Senator Brownback. And we need this. We need NextGen. We 
need to do it now.
    Thanks, Chairman.
    Senator Dorgan. Senator DeMint?
    Senator DeMint. Thank you, Mr. Chairman. I apologize for 
having to step out for a minute, so if I missed something, let 
me know.
    I share a concern of the Chairman when I heard what Mr. 
Wright said, and compared to Mr. Krakowski, that the working 
relationship might not be what we want, and I would hope, in 
the future, that the Committee and all of you involved with the 
technology and the management could continue along the way that 
Mr. Krakowski talked about, this continuous improvement model, 
where we're constantly upgrading.
    And that's really the core of my question. I know we are 
moving from one technology to what you referred to as NextGen, 
and I'd like to hear you talk a little bit about what the 
technical components of that are. But, I'm interested in how we 
can move from where we are in a continuous quality-improvement-
type approach, substituting the new technology for the old and 
continuing to have improving efficiency while we do that, and, 
at the same time, make sure we don't tie ourselves into a 
technology that is antiquated, that we're flexible enough and 
that the way we build this system is that it can continuously 
improve, which has not--at least in the past, been how 
government operated. We've heavily invested in one system, and 
that system stayed the same way for years, and we were so built 
into it, we could not come in and add improvements.
    So I'll start with you, Mr. Krakowski. How do you see us 
integrating NextGen and still operate the old system and bring 
both along and, at one point, jump off to new technologies?
    Mr. Krakowski. Yes. Thank you, sir.
    This is why we have to be very, very careful. What we are 
proposing to do with NextGen is going to be tricky. This is the 
first major overhaul of air traffic since the 1950s, 1960s. The 
actual gear on the airplanes, how controllers work airplanes, 
how pilots use the system, is going to change fundamentally, 
and we're going to be living in a period of time where you're 
going to have mixed equipage, mixed capabilities. You can't 
just turn it on with a lightswitch. So, we have to evolve it 
across the system----
    Senator DeMint. Right.
    Mr. Krakowski.--in a organized fashion, which is one of the 
reasons the RTCA Working Group's important, because we went out 
to industry and we asked the question, Where are your pain 
points? Where are you willing to invest in equipage? Where are 
you willing to change policies, standards, work with us, to 
start rolling it out across the country in an organized 
fashion? So, the work ahead over the next few months is going 
to be very directive to where we put those resources. And I 
think that's the right way--in order to keep the system safe, 
we have to do it that way.
    Senator DeMint. Mr. Wright, what would be your comments?
    Mr. Wright. Well, my--I brought this little book with me 
that we did years ago, and it shows the modernization projects 
that the union worked with the FAA on. And my goal would be to 
get back to where I can do another book that's more than 2 
pages long, to where we can sit down at the front end. The 
RTCA, we do participate in that. We are--we paid money to join 
RTCA, to be able to participate. What we'd like to return to is 
a--more of when a project is being designed, that a front-line 
controller is included in that design. We feel that'll cut down 
the troubles during implementation. We'd like to return to 
that.
    Senator DeMint. Yes.
    Mr. Wright. We feel that would be smoother, save more 
money, and it would take less time to get it implemented.
    Senator DeMint. And I'll go back to you, Mr. Krakowski. Is 
the union wedded to the old technology, or are they dragging 
their feet moving to the new technology? What's the conflict, 
here?
    Mr. Krakowski. Yes, I would like to put a little clarity 
around one issue, though. We have had controllers who have 
worked traffic involved in every one of our modernization 
projects. Now, there's a nuance. They may not necessarily be 
representing the NATCA--the controller union's institutional 
point of view. But, we stress test in our labs, with working 
controllers, all these new technologies, like ERAM, that we put 
out.
    So, I think the difference is, for clarity, we do have 
controller involvement of people working traffic in all of 
these efforts. It is unfortunate, and I agree with Mr. Wright, 
we need to get the union formally back into a better process 
than we have now. I think that would be healthy for everybody. 
But, we have had controller involvement.
    Senator DeMint. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Wright. Could I follow up, please?
    Senator DeMint. Sure.
    Mr. Wright. The only problem with the controller 
involvement is when it's a person that's selected, they go into 
these projects, they don't understand the project, they're--you 
know, we had trouble last year with the inspectors being 
``yes'' people, and that's what we kind of feel like--if we 
have a union person there, we'd give them the authority to sign 
off on things and they represent the whole bargaining unit, not 
just themselves.
    Senator DeMint. Good.
    Mr. Wright. Thank you.
    Senator Dorgan. Well, we're going to hold a hearing with 
respect to the air traffic controller issues, but let me just 
say that this stuff has to stop. I mean, you all work for the 
same team, paid by the same taxpayers. And Chairman Rockefeller 
indicated that, you know, he's tired of delay and so on. All of 
us are tired of delay, and we're tired of some of the battles 
that go on. This stuff really has to be put to an end and----
    Mr. Wright. I agree.
    Senator Dorgan.--and we'll have a hearing, and we'll 
explore those issues. But, at the end of that, my hope is that 
Senator DeMint and I see air traffic controllers and the FAA 
working hand-in-glove, working together as a team to produce 
the very best product that can be produced and can move us into 
the future as quickly as is possible.
    So, I appreciate, Senator DeMint, your questions.
    Senator Begich?
    Senator Begich. Mr. Chairman, thank you very much for your 
comments.
    It is my first Committee, and I have to be frank with you, 
I'm tired already of the back-and-forth. You know, I--as a 
mayor for 5 and a half years, you know, we dealt with 
management issues, we dealt with labor issues, and it's clear 
to me there's just a full lack of communication between the 
organizations. I mean, you believe one thing, you believe one 
thing. I want to just echo the Chairman's comments that we 
just--you've got to get beyond whatever the old battles are. 
You know, there's a new Administration, there's going to be a 
new contract, more than likely. There'll be more stabilization 
over in the FAA to get things done. But, I just--I want to add 
that just to the record.
    But, I have a question. Mr. Dillingham, I don't know if you 
can answer this, but, you know, I liked what Mr. Kallenbach 
said here. You know, he had some very simplistic ways to kind 
of move forward. And it seems like, as I went through your 
report--and correct me if I'm wrong, but the JPDO was 
statutorily set up to kind of set the vision, set the plan, set 
the activity in action. It's really now time for a project 
manager, people who actually know how to implement things, 
because, at least my way of looking at life as a--again a mayor 
that just happens to be a Senator, is how I describe myself--we 
have a lot of visionaries, but then you've got to get people to 
actually turn the dial and make it happen. Is that what's 
missing here, or are we trying to move what we--when I say 
``we,'' statutorily that's been set up, kind of moving it 
around to fit the box, versus let's just clean out the box and 
say, ``Now it's time to move to the next stage?''
    Dr. Dillingham. I think you're right, Senator. There is a 
consensus--if not a consensus, there are certainly several 
important stakeholders that are suggesting just the remedy that 
you have just talked about, is a program office, someone that 
is in charge--totally in charge of NextGen. Again, now, ATO has 
made that organizational change, and they have established a 
senior vice president for NextGen. It's just not clear that how 
this is all going to work has been communicated to the 
stakeholders. I think there is a communications problem here, 
as well.
    And I want to say, again, you know, various kinds of 
organizational structures may work; it is--you know, it's the 
end product that's important. And at this point, we are now 
turning the corner to implementation. You're right, the 
planning, at this stage, is, in fact, over, and now they're 
going to have to start planning for the next NextGen, because 
this is never going to stop. I mean----
    Senator Begich. Right.
    Dr. Dillingham.--there's going to be another revision. And 
that speaks to Senator DeMint's issue about, you know, How do 
we not end up with antiquated technology, and so forth? And 
that's a part of making that vision an integral part of the 
current situation, as well.
    But, the short answer is yes.
    Senator Begich. And----
    Mr. Krakowski. Senator, if I may?
    Senator Begich. Yes.
    Mr. Krakowski. The establishment of the Senior Vice 
President position for NextGen--and Vicki Cox is sitting behind 
me--she's accountable for all things NextGen at the FAA. One of 
the reasons we did this is the 14 runways that we've built 
since 2001, for the most part, came under budget, on time. The 
rigor of work and the organization, particularly with the new 
Director of Implementation and Integration that works for 
Vicki, is going to use a process that has served us well. 
That's why we have confidence in it.
    Senator Begich. OK. When you say ``served us well,'' what 
do you mean by that?
    Mr. Krakowski. Well, we opened three runways in November, 
on time and under budget, or at budget, and the FAA's not had a 
great history of doing that. We're off the GAO high-risk list, 
because we've cleaned up our act. The processes that worked 
under Ms. Cox and her organization helped get us here. So, I 
actually think we're in a better place.
    Senator Begich. Do you need the JPDO anymore?
    Mr. Krakowski. Absolutely. The JPDO does a number of 
important things for us. They created the long-term vision, 
they created the interagency discussions across a broad 
spectrum of stakeholders, and they're also kind of our long-
range radar. When they see technologies changing, if they see 
something way off in the distance that might suggest, ``Hey, 
maybe we shouldn't make this investment or go in this direction 
exactly the way it's planned,'' we're going to need them in 
there, as well.
    Senator Begich. And if I can jump back to one quick thing. 
Mr. Wright made the comment about the right person to be on 
those committees, from his organization. Do you select them, or 
does the union select them?
    Mr. Krakowski. The union typically selects them. Now, if we 
offer up or the union is sponsored into it through agreement, 
it's the union's choice.
    Senator Begich. But, you don't have any objection if the 
union says, ``Here's the person we want on any of the 
committees that relate to NextGen,'' do you?
    Mr. Krakowski. It's a place I've been to. Thirty years in 
the airline industry, that was common practice, so----
    Senator Begich. OK, so you don't have a problem with that.
    Mr. Krakowski. No, sir.
    Senator Begich. OK.
    I'll end there, because my time's expired.
    Mr. Kolshak. Senator, if I could just add one thing, is 
that, you know, the project management concept is--from the 
industry's view, we concur, it's very important. You know, if 
this needs to be a national priority--when you look at the 
importance of NextGen, you look at the amount of spend that 
people have projected, it is too important to be tasked to 
several organizations within the FAA. No disrespect meant to 
Mr. Krakowski. We in the industry feel that it should be 
treated similar to how the national interstate highway was 
treated when Eisenhower embarked upon it, is--he appointed an 
administrator to oversee and adopt the National Interstate 
Highway System. And we concur with Mr. Kallenbach's view of it.
    Senator Begich. Thank you very much, Mr. Chairman. I do 
agree, I mean, I've--if I can just say one quick comment, Mr. 
Chairman, and that is, I know when I did a major project--I 
love my architects, they have great design, great thought, but 
once the projects started, they were there off to the side, 
they did not help implement the program, because I would have 
ended up three times the cost, because they have great dreams, 
but I have to be practical about implementation.
    Thank you.
    Senator Dorgan. Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson [presiding]. Thank you, Mr. Chairman.
    It's my understanding, in December, that the FAA started 
installing Automatic Dependent Surveillance Broadcasts, ADS-B, 
in South Florida. Would you share that with the Committee?
    Mr. Krakowski. Absolutely. ADS-B is the primary moving 
force for NextGen which gives us the capacity increases and the 
efficiency and the safety we're expecting. We chose Florida as 
a test bed because of the wide variety of traffic and weather 
that occurs there. A lot of light airplane traffic, high-
intensity military operations, and, of course, a very robust 
airline system, as well. We also have the Embry-Riddle 
University, one of the premier aviation academies here in the 
country. So, we think we've got the right kind of environment 
to really start testing this system with equipped airplanes.
    A key part of the work in 2009 is going to be the human-in-
the-loop testing. How do pilots work with this system? How do 
controllers work with this system? How far do you take 
automation? What do you do with it? And we're very pleased to 
be doing this in Florida.
    Senator Nelson. So, what do you do, install some of the 
heads-up equipment in the cockpit and, in South Florida, you're 
broadcasting off of the satellites instead of through your 
normal communication? Is that what's--what you're going to do?
    Mr. Krakowski. The way it works is that the GPS receiver on 
the airplane picks up its position from satellites, but then it 
precisely transmits that position to the ground network that's 
been established in Florida, which is the ADS-B system. And 
that's what really creates the robustness of it.
    Senator Nelson. So, there's no new equipment that you have 
to put on the aircraft.
    Mr. Krakowski. You do need ADS-B equipment, yes, in order 
to do it. So, ADS-B is a technology attached to GPS to make 
this all work so the ground stations can see the airplane 
correctly. But, more importantly, and one of the really neat 
things, as a pilot----
    Senator Nelson. Is so the pilot can see.
    Mr. Krakowski. And not only that, we can see other 
airplanes, we can see----
    Senator Nelson. Now, how do you----
    Mr. Krakowski.--weather----
    Senator Nelson.--test the system, since eventually 
FutureGen is going to have all of that in all the cockpits so 
that a pilot could have awareness of everything around him 
right in his cockpit--how do you test that since it's only 
going to be a few airplanes that have this?
    Mr. Krakowski. Well, again, we have to lay this out and 
roll it out carefully, because you are mixing a modern system 
with an older system.
    Now, what's really interesting is, some of the airlines are 
already creating some capabilities with the electronic flight-
back, so they've got great capabilities, on the ground and in 
the air, to see other airplanes, see weather. So, it's 
incrementally going out there, but we also need to determine 
what works and what doesn't work successfully. It's one of the 
reasons we have Embry-Riddle involved with us, to make some of 
those determinations.
    Senator Nelson. OK. Now, I want to shift to a labor issue 
in Florida. In Orlando, you split the functions between the 
tower and the radar functions, but in Miami you kept them 
together. Now, if you're testing ADS-B in Miami, where radar 
and tower are together, but what you've done around the rest of 
the country is split the functions, explain that.
    Mr. Krakowski. Well, the splitting of the Orlando facility 
solved a number of issues. And I remember the phone call with 
you, sir, on this. We had some serious staffing problems at 
that facility. It took the complication of having controllers 
qualify in multiple positions and reduce that vulnerability. 
So, that was the primary reason we did it down there.
    But, looking forward, ultimately the current configuration 
of TRACONs, radar rooms, control towers, and en-route centers 
is going to change with NextGen. We don't need separate 
TRACONs, and we don't need separate en-route centers. NextGen 
provides the ability for us to combine all that. So one of the 
key things about Florida is, we're going to have to figure out 
and work to understand how that comes together. It's one of the 
reasons we're doing the test there.
    Senator Nelson. OK. So, you're saying that there's no 
difference with regard to splitting it, or not splitting it, 
with testing ADS-B.
    Mr. Krakowski. No, we don't think there's an issue, sir.
    Senator Nelson. OK. Now, tell me, has the experience factor 
in Orlando gone down as a result of separating the two 
functions in Orlando?
    Mr. Krakowski. We don't believe the experience factor's 
gone down. We actually think what it's done is, since you split 
the specialties to radar and tower, it actually created a 
better ability for people to become fully qualified in each of 
the two sectors.
    Senator Nelson. Mr. Wright, that's not what I hear from 
labor.
    Mr. Wright. No. Well, I worked in a--I worked in the 
Atlanta tower and at the Charlotte tower, both worked radar and 
tower. And what we feel is that you get a workforce certified 
quicker if you only have to certify on the tower, but what you 
lose is controller expertise and knowledge of the full 
operation. And that's what concerns us, is the--used to, the 
controllers worked tower and radar, they could help each other 
out, they knew what was going the other function. You lose that 
when you split it.
    Senator Nelson. The Chairman of the Aviation Subcommittee 
in the House of Representatives, Congressman Costello, has said 
that when he visited the Orlando tower, that only one 
controller out of ten had on-duty over-1-year experience. Now, 
what do you say about that, Mr. Krakowski?
    Mr. Krakowski. I'm not aware of that----
    Senator Nelson. All right, would you check----
    Mr. Krakowski. I would have to get----
    Senator Nelson.--and get back to this----
    Mr. Krakowski. Yes.
    Senator Nelson.--Committee in a timely fashion for the 
record?
    Mr. Krakowski. Yes, I will----
    Senator Nelson. And the record will remain open for that.
    Senator Nelson. Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. And I appreciate 
today's Subcommittee hearing, because there is no question that 
transforming our Nation's current air traffic control system is 
absolutely critical if we are to improve safety and plan for 
the anticipated growth in the amount of flights that our 
Nation's air traffic control system's going to be handling into 
the future.
    However, to make NextGen a reality is going to take a 
considerable amount of time and money, both from the Federal 
Government and from the users of our Nation's air traffic 
control system. And, while changing the current ground-based 
systems for air traffic control to satellite-based systems 
represents a host of new capabilities, the delays that we've 
experienced in the past have raised a lot of questions from the 
user community that have to be addressed for this 
transformation to be effective.
    And I guess my question--and I'd direct this to any of the 
panelists, and I appreciate your insights today--is that, 
seeing that the FAA has noted that two-thirds of its assets are 
beyond their useful life, how much longer can we wait to fully 
embrace NextGen technologies, both in terms of safety and 
handling the air traffic volume that's expected to exist in the 
future?
    Mr. Krakowski. We agree that we need to get moving on this 
quickly, because we do have old facilities. We're keeping them 
put together--or, you know, we're keeping them operating 
safely, but it does take more time, resources, and money to 
keep doing that with the old facilities every year. So, the 
NextGen effort, if we can accelerate, it's going to be very 
helpful.
    Senator Thune. How much time would you say we have, I mean, 
in terms of just the safety issues and the volume issues that 
we're dealing with?
    Mr. Krakowski. Well, the volume issues have some relief 
right now, because the industry's down. It will probably take a 
few years for that to catch up, which is why this is really a 
good time to try to get this moving quicker, so when the 
traffic does come back, I have new facilities, some 
groundbreaking on some new facilities, some modernization 
efforts going in there. This is the worst time I can think of 
to lay back and not spend the money.
    Senator Thune. Anybody else care to comment?
    Mr. Kolshak. If I could just add to Hank's point, is that 
now is the time, is--one, as you mentioned, Senator, the 
crumbling infrastructure, and two, with capacity being in a 
lull right now, one of the highest costs that we have in the 
airlines for equipage isn't the equipment itself, generally, 
it's the out-of-service time, it's pulling aircraft down to 
equip them. And now, just with the natural drop in demand, we 
have more capacity that's pulled down that we could equip. And 
the important thing is, is that this is real--we talk about 
NextGen, and people's eyes roll back because they think of this 
futuristic Star Wars--is that really there are some elements 
that we can accelerate, available technology, today--in GPS, in 
ADS-B transponders--that we could realistically equip our fleet 
with in the next 2 to 3 to 4 years and start to derive benefit. 
So, the timing is crucial, and we're certainly more than 
willing to pay our way there, but we've got to see the benefit 
of doing so.
    Mr. Kallenbach. And I think that--if I may--on the 
technology front especially, the comment was made earlier about 
ADS-B and the equipage rates. One of the things that is very 
easy to do is to accelerate the mandate of ADS-B from, 
currently, 2020 in the U.S. to 2015, which also harmonizes us 
with Europe. And that's still a reasonable time-frame to equip. 
It's a time-frame that we can then realize the benefits across 
the system, because everybody will be equipped.
    And that's back to your point earlier, Senator, where you 
need to have everybody in to get the benefits. And I think, in 
some ways, we tend to look for the grand solution, but just the 
acceleration of that mandate, just that piece, would accelerate 
the equipage, which would then generate the demand for more 
features, and we'd be well ahead, by at least 5 years, from 
what the current timescale is. And that's an action, I think, 
that we can take immediately and get going on it. And to line 
up with the capital budgets of things like the airlines, 6 
years is a very reasonable planning horizon; whereas, 12 years 
gets way too far out.
    Senator Thune. If we--so, from the Committee's standpoint 
as we work to reauthorize the FAA bill this year, what is the 
one improvement that you would like to see the FAA make 
regarding its ongoing efforts on NextGen?
    Mr. Kolshak. Well, first off, the controllers--the figures 
you put out, and Senator Brownback said earlier, if you want us 
to work two to three times traffic, we know we need the 
equipment. We need to see progress toward that as we move 
along, because as traffic increases, our system can't handle 
it. You're asking the controllers to work more airplanes, and 
we're already working as many planes as we can with the present 
system. So, as we go into this year, we'd like to first see, as 
the project gets more defined, where it's going, a direct path. 
Like has been said by the Committee members, the controllers 
run the advanced automation system from 15 years ago; it was 
coming along, and then it just went away. And we want to 
believe in the project, and we want to see a defined path next 
year of the--of where it's going.
    Senator Thune. Thank you, Mr. Chairman.
    Thank you all very much.
    Senator Dorgan [presiding]. Senator Thune, thank you very 
much.
    Let me thank all the witnesses today. You have heard, from 
the Chairman of the Committee and others, the passion about 
trying to move on this. I said earlier, the issue is one of 
price and pace. How do we decide to raise the funding for it 
and meet the funding needs, even now, during more difficult 
times? And how do we find ways to truncate the time that's 
required to begin implementing this?
    Mr. Krakowski made the point that, you know, you don't just 
flick a switch in the morning and you've changed the entire 
system. I understand that. I mean, we've had an aviation system 
in this country that has developed over time. One point, many, 
many years ago, nobody had a transponder. And then, you know, 
everybody just sort of flew, looking out the window, and then 
got transponders, and so, you can--you've got some controllers 
up there taking a look at little dots on a screen; and, you 
know, the development of general aviation, the development of 
commercial aviation, and now the newer issue of, How do you 
integrate into our airspace unmanned aerial vehicles? We're 
doing that substantially in a war theater, in Afghanistan and 
Iraq, with Predators and Global Hawks. But, having Homeland 
Security fly Predators on our borders raises other issues of 
integrating it into the airspace, which makes, I think, this 
next-generation--or NextGen, NowGen, whatever you call it, so 
much more important, and so much more urgent than it was, from 
a time standpoint.
    So, we have asked you to come and give us your perspective 
from many different centers, and we appreciate that, and we'll 
hold other hearings and try to move this forward.
    I do want to make one final point. We--there's a lot about 
the Congress that everybody's frustrated about, even those who 
serve in this body. You know, we're over on the floor now on a 
national service bill. We had to file cloture on the motion to 
proceed to go to a bill. It's unbelievable to me. You know, 
as--and then, after you get cloture, 30 hours post-cloture--I 
mean, this is not a huge, controversial piece of legislation. 
This Congress isn't working so well, and we need to find a way 
to make it work better.
    On issues like this, we can't, at the end of this Congress, 
say, ``Well, we just missed it, we couldn't get this done, we 
couldn't reach agreement.'' We need to move forward. If this 
country's going to keep its lead in technology and science 
and--particularly the new technologies--we need to be 
determined to make that happen. So, this is one of those areas 
of new technology and modernization and capability that this 
Congress, Republicans and Democrats, working together, have to 
dedicate themselves to achieve. To not achieve this and not 
move forward on this would be inexcusable, in my judgment. So, 
we're going to push very, very hard to make this happen.
    Let me thank you again.
    This hearing is adjourned.
    [Whereupon, at 11:18 a.m., the hearing was adjourned.]
                            A P P E N D I X

                                 Gebhardt & Associates, LLP
                                     Washington, DC, March 24, 2009
Hon. Byron L. Dorgan
Chairman,
Aviation Security, Safety, and Operations Subcommittee
Washington, DC.

Dear Senator Dorgan:

    As the FAA contemplates modernization of the air traffic control 
system, we wish to call to the Aviation Subcommittee's attention the 
cautionary tale of the FAA's 2005 privatization debacle, in which the 
FAA undermined the effectiveness of the Air Traffic Control System by 
contracting out Flight Service Controllers. The result has been a sharp 
decline in essential services to general aviation pilots in need of 
weather, navigation, and rescue services. The FAA also seriously harmed 
a dedicated and experienced Federal employee workforce based on illegal 
age discrimination.
    Our law firm represents over 200 of the 1,900 former Federal Air 
Traffic Controllers wrongfully fired by the Federal Aviation 
Administration in 2005 because they were deemed an ``aging work 
force.'' \1\ These Controllers not only lost their Federal employment 
but also their ATC retirement benefits.\2\ We are urging you to support 
restoration of lost ATC retirement credits to the Controllers and a set 
aside of $100 million in the FAA budget to pay claims of age 
discrimination in the case of Breen v. LaHood, C.A. 05-0654 (RWR) 
(D.D.C.).
---------------------------------------------------------------------------
    \1\ The FAA terminated this aging workforce from Federal service in 
the largest Reduction-in-Force (RIF) in U.S. Government history. Many 
of the fired Controllers were within a few years of retirement when the 
FAA contracted out their jobs to Lockheed Martin, which did not give 
them any retirement credit. The FAA's RIF and contracting out to 
Lockheed Martin eliminated the ATC retirements of nearly 2,000 long-
time government employees.
    \2\ The Congress's previous attempt to address this issue in 2005, 
the Snowe Amendment, P.L. No. 109-115 (S.Amdt. 2150 to H.R. 3058), 
provided limited relief to almost 100 Controllers, but also set a 
precedent for allowing Controllers to accrue Federal retirement 
benefits while working at Lockheed Martin.
---------------------------------------------------------------------------
    Our expert economic analysis, by the former Chair of the Economics 
Department of Georgetown University, estimates that a judgment against 
the FAA would total at least $85 million, and most likely more in light 
of recent Controller layoffs by Lockheed Martin.
    The fired FAA Controllers have been working closely with Congress 
to fashion a bill to restore lost ATC retirement credits and provide 
reemployment opportunities for the Controllers, much needed measures to 
address the devastating loss of employment and retirement benefits by 
the Controllers and one which we hope you will support.
    We request that this letter be placed in the record and that you 
take up this issue with your colleagues. Please feel free to contact me 
if you need any further information.
            Sincerely,
                                         Joseph D. Gebhardt
cc: Randy Lueders
Frank Eastman
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Hank Krakowski
    Question 1. What specific modernization efforts is the FAA pursuing 
over the next 5 years that will improve the ATC system and its 
management?
    Answer. FAA's near-term NextGen implementation efforts are targeted 
across three broad areas: airfield development, air traffic operations, 
and aircraft capabilities. Together, these efforts will increase 
capacity and operational efficiency, enhance safety and improve our per 
flight environmental performance. We are moving forward with a dual-
pronged approach: maximizing the use of available capabilities in 
today's aircraft and ground infrastructure, while working aggressively 
to develop and deploy new systems. We believe this approach allows both 
government and industry to extract the greatest value from existing 
investments, while moving the industry to gain exponential benefits in 
the mid-term and beyond.
    Looking forward for the next 5 years, the FAA has additional runway 
and taxiway improvement projects planned at a number of airports, 
including Dulles, Houston, Denver, Philadelphia, and Chicago. In 
addition, the FAA is pursuing improvements that will allow improved 
efficiency and capacity from existing runways. For example the FAA is 
currently pursuing a near-term rule change that will allow us to safely 
restore lost capacity and efficiency in inclement weather at airports 
with operations to closely spaced parallel runways. This offers the 
potential to improve poor weather operations at a number of airports 
with reduced delays throughout the NAS.
    The FAA continues to make progress with our transformational 
programs--ADS-B, SWIM, Data Communications, NextGen Network Enable 
Weather and the NAS Voice Switch--and significant upgrades are planned 
over the next 5 years. These are the long-lead time acquisition 
programs, so we won't realize benefits from these programs in the very 
near term; but they are progressing on schedule through the acquisition 
process. Of the five initially identified as transformational NextGen 
programs, ADS-B is most mature; but all are projecting substantial 
advances between now and 2013.

    Question 2. What are the schedules and performance metrics that 
will be used to track these problems?
    Answer. High level schedules and metrics for NextGen programs for 
FY09 can be found in the FAA's NextGen Implementation Plan. For 
managing the specific details, the FAA uses disciplined portfolio and 
program management processes to track the schedules and associated 
metrics (i.e., costs, obligations, implementation progress, 
performance, etc.) to ensure that NextGen implementation remains on 
track. These tools are supported by a comprehensive NAS Enterprise 
Architecture that provides the framework and technical strategy for the 
integration and transition of NextGen capabilities. NextGen 
capabilities are implemented by applying System Engineering discipline 
to define requirements, align implementation schedules across programs 
and minimize program risk.

    Question 3. What is the demand for FAA to develop RNP/RNAV routes 
over the next 3 to 10 years? How many total RNP/RNAV routes does the 
industry need the FAA to develop at the top 35 airports? Does the FAA 
have the resources and staff needed to meet this demand? If not, what 
resources does the FAA need to accomplish meaningful implementation of 
RNP/RNAV at the top 35 airports?
    Answer. Based on forecast aircraft equipage, there is sufficient 
Performance-Based Navigation (PBN)-equipped capability in the Part 121 
airlines to use the expected growth in procedure development. The 
equipage levels are already high enough for the future demand of RNAV. 
For RNP procedures, equipped capability levels are at 60 percent 
(approximately the minimum equipage needed for air traffic to run a 
beneficial operation) and forecast to increase to close to 80 percent 
by 2016. This also meets the demand for RNP procedures.
    To fulfill the needs of industry, the FAA will have to develop a 
minimum of 1,200 new PBN procedures during the next 10 years at the top 
35 airports.
Forecast Equipped Capability at the Top 35 Airports
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We are migrating away from site-by-site (or runway-by-runway) 
procedure implementation process toward a NextGen readiness concept 
that would include development of an integrated system of PBN routes 
and procedures by geographic area (incorporating metro areas and 
outlying airports). The key difference is that funding requests would 
combine airspace, environmental, and procedure development. This 
concept delivers optimum benefits for the air traffic and carrier 
communities. Funding would run from $10-$15 million for each geographic 
area and would include procedure development, airspace redesign, and 
associated environmental assessments or studies.

    Question 4. I understand the FAA contracted with ITT to begin the 
installation and use of ADS-B ground installations in 2007. What has 
been accomplished under this contract to date? Is the contract 
currently on schedule and within budget? Are there any performance 
problems with this contract?
    Answer. To date, ITT, Corp. has met all outlined program 
milestones. In just over a year after the contract was awarded, the FAA 
made an In-Service Decision (ISD) on November 24, 2008 that 
commissioned ADS-B essential services which improve situational 
awareness--i.e., Traffic Information Service-Broadcast (TIS-B) and 
Flight Information Service--Broadcast (FIS-B). Pilots flying in 
equipped aircraft can see live traffic on displays; and receive free, 
real-time graphical weather displays from the National Weather Service, 
along with critical flight information, such as temporary flight 
restrictions and special-use airspace.
    Eleven ADS-B radio stations were installed at the following 
locations: Lakeland Linder Regional Airport, Hardee, Okeechobee, Dade-
Collier Airport, Key West, St. Cloud, Sebastian Municipal Airport, Hobe 
Sound, Boca Raton Airport, Homestead Dade Marina, and Florida Keys 
Marathon Airport.
    The ISD decision cleared the way for the vendor to install ground 
stations and transmit broadcasts for operational use across the nation, 
starting on the East and West Coasts and portions of the Midwest, with 
340 ground stations scheduled to be operational by September 2010.
    The FAA's ADS-B contract is on schedule and on budget. As with any 
initial production, there are issues relating to radio station 
performance with the system and adjustments will be made as required. 
The program office is working closely with the vendor to make these 
changes. Additionally, with all large scale programs there are risks. 
Currently, the program office has identified risks in the deployment 
and implementation of ADS-B, is monitoring them, and has planned 
mitigations for each risk.

    Question 5. In testimony before the House Transportation and 
Infrastructure Committee last month, both the DOT Inspector General and 
Dr. Dillingham testified that one stumbling block to wider scale 
acquisition of NextGen equipment by the airlines is the FAA's failure 
to specify technical requirements. For example, ``ADS-B In'' equipment 
must be FAA-compatible. But the FAA has not yet finalized its 
requirements for this equipment. Because of this, airlines have waited 
before investing in this new technology. For which core NextGen 
programs (ADS-B In and Out, DATACOM, etc.) does the FAA need to 
finalize technical requirements for users, and when do you expect the 
FAA to issue these standards?
    Answer. The standards do need to be developed in order for equipage 
to occur.
    ``ADS-B Out'' \1\ is well defined by the FAA with planned 
operational use for air traffic separation services. The FAA plans to 
mandate ``ADS-B Out'' by a rule in 2010 with compliance required by 
2020. The aviation community--consisting of avionics manufacturers, 
aircraft manufacturers, airlines, and the Department of Defense (DoD)--
commented and provided input on the Notice of Proposed Rulemaking 
(NPRM) through the Aviation Rulemaking Committee (ARC). However, the 
aviation community and FAA realize additional large scale benefits 
reside in ``ADS-B In''.\2\ ``ADS-B Out'' provides immediate benefits in 
non radar airspace and supplements the availability of air traffic 
separation services in existing radar airspace. Additionally, ``ADS-B 
Out'' is the enabling function for ``ADS-B In.'' The current activities 
for publishing the Technical Standard Order (TSO) for ``ADS-B Out'' 
will be compatible to future ``ADS-B In'' applications. ``ADS-B In'' 
has multiple functions. The first function is the ability for aircraft 
to receive traffic and weather information on a cockpit display within 
a specific ADS-B service volume from the ground infrastructure. 
Currently, this is being used operationally in the NAS and the FAA is 
moving forward with confidence for nationwide deployment. Additional 
information to the cockpit, including traffic, weather, and flight 
information can be employed to accrue additional safety benefits 
(reduction in fatal accident rate), increased efficiency of flight 
(including fuel savings), and an increase in capacity of the NAS. 
Inclusion of avionics into the cockpit also provides a notional 
opportunity for industry to develop additional services, including 
runway safety and incursion prevention.
---------------------------------------------------------------------------
    \1\ ADS-B Out is defined as the transmission of the aircraft 
position into a unique digital code and combines it with other data 
from the aircraft's flight-management system--the type of aircraft, its 
speed, its flight number, and whether it is turning, climbing or 
descending. The code containing all of this data is automatically 
broadcast from the aircraft's transponders once a second.
    \2\ ADS-B In is the ability for aircraft to receive traffic and 
weather information on a cockpit display within a specific ADS-B 
service volume and also the ability to do aircraft-to-aircraft 
applications.
---------------------------------------------------------------------------
    A core set of high value aircraft-to-aircraft applications of 
``ADS-B In'' are expected to be completed by FY 2010. As noted in the 
ARC report published in September 2008, the ARC recommends that the 
FAA, in partnership with industry, consider establishing a program for 
``ADS-B In'' by 2012. The ARC further recommends that this program 
defines how to proceed with ``ADS-B In'' beyond the voluntary equipage 
concept in the current NPRM. Finally, the ARC recommends that the final 
rule preamble be modified to include the intention to move toward and 
encourage ``ADS-B In'' in the future. The ARC report recommendation 
emphasizes their understanding that ADS-B ``in'' has high value 
benefits.
    As stated in the 2009 NextGen Implementation plan, Datacom 
requirements should be completed in 2014 and Paired Guidance Approaches 
have requirements planned to be complete in 2015.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Hank Krakowski
    Question 1. As you answered my question regarding the FAA's 
decision to split the radar and tower functions at Orlando (MCO), you 
indicated that air traffic control modernization will essentially mean 
the end of terminal radar approach control and en route centers. Could 
you elaborate on the implications this would have on staffing and 
experience levels?
    Answer. The FAA expects that new technologies will result in a more 
automated system that will, over time, change the role of controllers. 
The phase-in of these new technologies and the phase-out of older 
technologies is a long-term gradual process currently under 
development. The FAA is still determining how the changes in technology 
will change the controller workload.
    Determining air traffic controller staffing is a dynamic function 
based on traffic volume, operational complexity, future FAA forecasts, 
hours of operations, controller retirements and other attrition losses. 
As the FAA moves toward general service delivery facilities, it is 
envisioned that future air traffic controllers will be trained in areas 
of specialization ranging from basic and minimally complex entry level 
positions to more complicated and demanding areas of specialization 
matched to the correct experience level.
    As we move closer to finalizing the design and implementation of 
the general service delivery facilities, we will be in a better 
position to anticipate staffing/experience levels. We will continue to 
provide Congress with our annual updates and staffing projections 
through our Controller Workforce Plan, FAA's 10-year strategy for the 
Air Traffic Controller Workforce.

    Question 2. We have spoken about the levels of experience at the 
Orlando International Airport since the recent split of TRACON and 
radar functions. Have you investigated the severe dip that has 
reportedly occurred as a result?
    Answer. The split did not result in a severe decline in experience 
levels. Prior to the split, 47 percent of controllers had more than 5 
years of experience. Today, 41 percent of controllers in the tower and 
59 percent of TRACON controllers have more than 5 years of experience 
respectively.

    Question 3. It is clear that we are at a crossroads; we are looking 
forward to a total reevaluation of how our Nation's airspace works and 
how new technologies will affect our airspace users, and we are trying 
to find the best ways to implement NextGen quickly and to pay for it 
efficiently--yet we cannot abandon the safe upkeep of our current 
system until we know the next one works. In light of this, why are we 
going ahead with realigning facilities and services like radar and 
tower functions? Shouldn't we postpone further realignments until 
Congress can enact a comprehensive review and evaluation process?
    Answer. The decision to realign facilities is based on operational 
needs. As technological advances have allowed greater radar coverage 
and multiple radar inputs, opportunities for increased services, 
efficiency, and cost savings necessitate our ongoing examination of 
alternative operational arrangements.
    Realigning radar and tower functions does not impact the quality or 
the amount of training controllers receive in each environment, and it 
increases proficiency by reducing the number of positions that 
controllers are required to learn. The effects to the operation are 
virtually seamless.
    Facility realignments enhance the safety and security for our 
customers, since controllers are more focused and more familiar with 
the areas under their control. The FAA has successfully realigned some 
of the busiest facilities in the country including Las Vegas, Nevada; 
Atlanta, Georgia; Chicago, Illinois; Dallas, Texas; and Minneapolis, 
Minnesota.
    The FAA supports a review and evaluation process that is 
transparent and reasonable and we look forward to working with the 
Congress to develop the process. However, we must continue to move 
forward to address our operational needs. As the FAA implements 
NextGen, we will continue to analyze each of our facilities to make the 
best decisions for safety, operations, and employees.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                             Hank Krakowski
    Question 1. Given the technological advances that come with a GPS-
based air traffic control system, the NextGen system could allow for 
safer flights and increased traffic into National Airport. As you 
testified at the March 25th hearing, the FAA and airlines will be able 
to route flights more precisely and efficiently, resulting in reduced 
flight times, delays and congestion at airports. Do you believe 
implementation of the NextGen system offers the ability to safely 
restore general aviation at National Airport?
    Answer. One of the outcomes of the NextGen system is heightened 
situational awareness and enhanced air surveillance tools for air 
navigation services. However, the Department of Defense and Department 
of Homeland Security determine the security and response time 
requirements necessary to protect the National Capital Region (which 
includes Ronald Reagan National Airport).

    Question 2. The current air traffic control system forces European 
flights into the Washington, DC area to follow an indirect flight 
pattern toward the west in order to reach an air traffic control point 
before landing. This situation creates inefficiencies in terms of 
flight times and fuel usage. Keeping community interests in mind, can 
the NextGen system facilitate a more direct and efficient eastern 
approach to the Washington, DC area airports?
    Answer. As the FAA considers future airspace redesign in the 
Washington, D.C. area, it will review all stakeholder requests for 
improvements. However, these requests must also be reviewed in light of 
security issues in the National Capital Region airspace. Security in 
the airspace is governed by the Departments of Defense and Homeland 
Security.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                             Hank Krakowski
    Question 1. What incentives for accelerated early aircraft avionics 
equipage is the FAA pursuing?
    Answer. The FAA has been working with Industry through the ADS-B 
Aviation Rulemaking Committee (ARC) to accelerate early equipage of 
ADS-B. Specifically, two of the ARC recommendations focus on benefits/
equipage:

  <bullet> Recommendation #9: Leverage the benefits of ADS-B 
        information to incentivize equipage by establishing agreements 
        with specific operators.

  <bullet> Recommendation #10: Continue to establish agreements with 
        local and state governments to leverage the benefits of ADS-B.

    Since receiving these recommendations, the FAA met with multiple 
operators to determine potential incentive mechanisms to include in 
potential agreements. Most recently the agency has signed approximately 
four agreements with entities to accelerate equipage and NextGen. Below 
is the list of the agreements and their objectives:

        1. Honeywell was awarded approximately $3 million to develop 
        requirements, standards and human factors analysis in relation 
        to surface applications.

        2. ACSS was awarded approximately $6 million and partnered with 
        U.S. Airways to create standards, flight demonstrations and 
        prototypes in relation to surface applications.

        3. The agency signed a separate agreement with U.S. Airways and 
        ACSS to develop a plan to accelerate NextGen capabilities.

        4. An agreement was signed between the FAA and NetJets to 
        develop a plan to accelerate NextGen capabilities.

        5. The most recent agreement was signed with United Airlines to 
        work together on advancing the concept of In-Trail Procedures 
        (ITP) using ADS-B capable avionics.

    Additionally, the program office is reviewing potential agreements 
with the various states (California, Wisconsin and Minnesota) to 
provide ADS-B services where currently they are not receiving any 
services.

    Question 2. What is the FAA doing to accelerate the deployment of 
RNAV and RNP procedures?
    Answer. With a solid foundation of routes and procedures in place, 
we are exploring ways to accelerate Performance-Based Navigation (PBN) 
and Next Generation Air Traffic System (NextGen). We are migrating away 
from a site-by-site (or runway-by-runway) procedure implementation 
process toward a NextGen readiness concept that would include 
development of an integrated system of PBN routes and procedures by 
geographic area (incorporating metro areas and outlying airports). The 
key difference is that funding requests would combine airspace, 
environmental, and procedure development. This concept of integrated 
design and implementation makes sense and may help to reduce the 
departure delays that continue to impact the public and industry. This 
concept delivers optimum benefits for the air traffic and carrier 
communities.
    This concept provides integrated RNAV and RNP procedure design, 
coupled with airspace and environmental changes, ensuring optimal 
configuration of operations between airports. These changes will result 
in increased predictability and increased efficiency, capacity, 
throughput, and safety in terminal radar approach control operations.

    Question 3. An important component of the transition to NextGen is 
having enough qualified engineers to implement and install the 
technology as well as oversee facility upgrades and maintenance. How 
will the proposed Engineering Services Efficiency Plan (ESEP) impact 
the FAA's readiness to implement NextGen?
    Answer. The Engineering Services Efficiencies Plan is specifically 
designed to position the engineering organization to enhance its 
ability to support future requirements. NextGen is an increasing 
component of this expected workload. The implementation of ESEP will 
allow an increase in our field workforce to improve our ability to 
manage facility upgrades that will be needed for NextGen in conjunction 
with our ongoing modernization and sustainment of the existing NAS. In 
addition, the plan also includes a strategy for centralized design 
engineering that will enhance our efficiency and capability in this 
area, enabling us to leverage our existing resources to better meet the 
challenges of the future. This is standard industry practice.
    We are also developing an enhanced training program for incoming 
engineers to improve our ability to meet increasing needs.

    Question 4. What are the FAA's plans for implementing ADS-B in the 
non-radar areas of the lower 48?
    Answer. Remote locations and hostile terrain environments can make 
it cost prohibitive or even physically impossible to install and 
maintain a radar site. ADS-B services could be provided at a lower cost 
and could provide Air Traffic Control (ATC) the ability to use radar-
like separation and services to ADS-B equipped aircraft. This will 
result in a higher IFR arrival acceptance rate, a reduction in 
departure delays, and increase overall safety. In order to realize the 
full benefits of increased surveillance capabilities, additional 
equipment such as communications and automated weather stations may be 
needed.
    The largest area of non-radar airspace that the FAA plans to 
implement ADS-B is the Gulf of Mexico. This area sees almost as much 
daily traffic as the busy East-Coast corridor. In addition to 
commercial carriers flying between the United States and Mexico, there 
are 5,000 to 9,000 daily helicopter operations to oil rigs. An 
agreement signed in 2005 between the FAA, Helicopter Association 
International, oil-platform operators, and helicopter owners is 
enabling the agency to install ADS-B ground stations on oil platforms, 
with installation and maintenance transportation provided by helicopter 
owners. The helicopter owners and operators are voluntarily equipping 
early with ADS-B-capable avionics. In return, the FAA will provide a 
range of new services where radar coverage has never been possible.
    In addition to the Gulf of Mexico, the FAA plans to provide ADS-B 
services wherever radar coverage exists today by 2013. Recognizing 
there may be coverage gaps in certain areas, the FAA, in cooperation 
with state and local governments, will review these gaps and determine 
if there are additional areas that may be cost effective to supplement 
ADS-B coverage. In addition, the FAA plans to work with the Department 
of Defense (DoD) to explore using ADS-B in Special Use Airspace (SUA).

    Question 5. Will the FAA reaffirm its commitment to working with 
the Alaskan aviation community to accelerate the deployment of ADS-B 
technology and infrastructure to more fully realize the safety benefits 
of the Capstone Program?
    Answer. The Capstone Project ran from 1999--2007 in Alaska and it 
demonstrated a 47 percent reduction in aircraft accidents for ADS-B 
equipped aircraft operating within the Yukon-Kuskokwim (Y-K) Delta 
area. This was a factor in obtaining additional funding for the 
deployment of Surveillance and Broadcast Services (SBS) throughout the 
Nation. The FAA integrated the Alaska Capstone Program into the SBS 
program in January 2007 to streamline the national ADS-B deployment and 
accrue safety benefits more quickly in Alaska by accelerating ADS-B 
deployment in the state.
    Since that time, the FAA continued with deployment in Alaska and 
added services in Anchorage, Fairbanks, Kotzebue, and Cantwell in 
September 2008--a year ahead of schedule. The agency is continuing to 
meet its commitment to deploy in the areas of Selawik, Point Hope, 
Kivalina, Nome, Savoonga, Moses Point, and Shishmaref. Deployment in 
these areas will be complete by the end of Fiscal Year 2009.
    The FAA is fully committed to deploying ADS-B in Alaska and across 
the Nation. The FAA's SBS Alaska office will maintain communications 
with the Alaskan aviation community and state officials to address 
Alaska's unique aviation challenges.

    Question 6. What can be done this year to expedite the installation 
of the ground-based infrastructure for the ADS-B component of this 
important safety-enhancing system?
    Answer. The ADS-B infrastructure deployments cannot be further 
accelerated in FY2009. The deployment is aggressively proceeding as 
planned within the scope defined in the baseline. All major program 
milestones continue to be met. Furthermore, the FAA is utilizing 
funding provided in FY2008 and FY2009 to expedite aircraft to aircraft 
applications and 3 nautical mile separation in the en route 
environment.

    Question 7. What is the FAA doing to prepare for the incorporation 
of Unmanned Aerial Vehicles (UAV) into the NextGen system and the 
Nation's airspace?
    Answer. The integration of Unmanned Aircraft Systems (UAS) poses 
technical, operational, and regulatory challenges that must be 
addressed to meet increased demands by both Government and industry for 
access to the National Airspace System (NAS). These challenges provide 
unique opportunities to enable future technologies that may very well 
play an important role in the Next Generation Air Traffic System 
(NextGen). There are many ongoing supporting activities that focus on 
immediate, near-term, and long-term objectives and goals. In general, 
these activities include:

        1. Certificates of Waiver or Authorization (COA) and 
        Experimental Airworthiness Certificates to address current 
        needs;

        2. Rulemaking activities to enable small UAS commercial 
        operations; and

        3. Development of standards for ``sense and avoid'' and 
        ``control and communications'' technologies to enable file-and-
        fly capabilities in the longer term.

    The FAA is responsible for ensuring UASs are safely integrated into 
NAS air traffic control procedures, airport operations, and 
infrastructure, and with existing commercial, military, and general 
aviation users of the system. To enable immediate UAS access to the 
NAS, the FAA reviews applications from Government agencies and private-
sector entities on a case-by-case basis. Federal, state, and local 
government agencies apply for COAs, while private-sector entities apply 
for Experimental Airworthiness Certificates. In either case, the 
proposed UAS operation is reviewed and evaluated to ensure the operator 
has acceptably mitigated all safety risks.
    All users of the NAS, including UASs, must be capable of complying 
with the general operating rules as stated in title 14 of the U.S. Code 
of Federal Regulations. For full access to the NAS, UASs will need to 
perform at a level equivalent to manned aircraft operations. Current 
UASs are unable to comply fully with these requirements, due to 
undeveloped enabling technologies in the areas of sense and avoid and 
command and control. The FAA is leading the lengthy standards 
development process under the auspices of RTCA Special Committee 203. 
Development for these technologies will be a lengthy, time-consuming, 
and resource-intensive effort. The need to harmonize these standards 
both domestically and internationally makes this an even greater 
challenge.
    To address the shorter term industry needs, in early 2008, the FAA 
established an Advisory Rulemaking Committee (ARC) comprised of members 
from the UAS industry, aviation associations, and other Government 
agencies. The ARC was tasked to develop final recommendations to 
address commercial and private/recreational (remote control model) 
operations in limited areas of the NAS. These recommendations were 
submitted to the FAA on April 1 and are anticipated to provide the 
framework for rulemaking efforts in support of small UAS operations. 
These regulations will address requirements for certification and 
operation of small UASs, operator qualifications, and UAS registration. 
The final rule is expected to be issued in the 2010/2011 timeframe.

    Question 8. Does the FAA support the creation of a single program 
office to facilitate the implementation of NextGen?
    Answer. A Senior Vice President was appointed to lead NextGen and 
Operations Planning in the Air Traffic Organization in May, 2008, so 
this objective has been accomplished.

    Question 9. What steps can the FAA take to better communicate with 
industry and other stakeholders to ensure that they fully understand 
the content and objectives associated with implementing NextGen?
    Answer. The FAA recognizes that it is imperative to communicate 
effectively with the stakeholder community to keep it informed of 
NextGen plans and progress. For example, the Air Traffic Control Assn. 
which represents many members of the industry involved in air traffic 
control, hosted a forum in September, 2008 to allow the FAA to hear a 
broad range of industry views on critical NextGen implementation issues 
and the community's needs for the NextGen Implementation plan. As a 
result of this meeting, the FAA issued a new NextGen Implementation 
plan this year that answers many of the key questions raised in the 
ATCA forum. These include what NextGen will look like in 2018, what 
NextGen will deliver in the mid term (2012-2018), what aircraft 
avionics equipage needs will emerge through 2018 and what the FAA plans 
to deploy in the near-term to make the best use of existing resources. 
In a second initiative to communicate with stakeholders, the FAA has 
launched the NextGen Implementation Task Force through the RTCA 
industry forum to tackle the most significant issues surrounding 
NextGen implementation including how to achieve the most benefits and 
how to address business investment issues in the mid-term. The FAA 
looks forward to receiving the Task Force's consensus recommendations 
on ways to capture NextGen benefits as early as possible. The group's 
final report is due to be complete in August, 2009.

    Question 10. What can be done to eliminate confusion over avionics 
equipment standards for the aviation industry?
    Answer. The NextGen Implementation Plan (NGIP) identifies a series 
of initiatives involving avionics. These initiatives are in varying 
stages of development, with some already in implementation and others 
in the initial research and development stages. The FAA recognizes the 
need to clearly identify the avionics equipment standards for each 
initiative within NextGen, and has provided a high-level overview of 
standards in appendix A of the NGIP. The majority of avionics standards 
are developed by industry through the Federal Advisory Committee of the 
Radio Technical Commission for Aeronautics (RICA, Inc.)
    In the case of transmission of ADS-B data (ADS-B Out), the FAA 
published a notice of proposed rulemaking in 2008 that will eliminate 
confusion over the ADS-B transmission standards. We plan to publish the 
final rule in April 2010.
    For reception and use of ADS-B data (ADS-B In), we will publish the 
standards for situation awareness displays by the end of 2009. The FAA 
is investigating strategies to accelerate the schedule for more 
advanced applications, currently scheduled to be completed in 2012.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Ensign to 
                             Hank Krakowski
    Question 1. I believe that moving from a ground-based national 
airspace system (NAS) to one based on satellite technology is a 
critical development for aviation. Redundancy within the NAS is crucial 
to maintain a consistent and high level of safety and to avoid 
unnecessary delays. Compared to ground facilities, however, satellites 
are much harder to service, repair, or replace. What steps is FAA 
taking to ensure sufficient redundancy within a GPS-based NextGen 
environment? What is the vulnerability of such a system to space events 
like solar flares that currently disrupt other satellite activities?
    Answer. Moving to a National Airspace System (NAS) based on 
satellite technology provides a significant improvement in performance 
for aviation, as well as new technical issues and vulnerabilities. 
Satellite-based navigation relies on the global positioning system 
(GPS) and the wide area augmentation system (WAAS) for vertically 
guided approaches down as low as 200 feet above a runway. The GPS 
constellation and the leased geostationary satellites used for WAAS are 
redundant and highly reliable. Solar flares and ionosphere disturbances 
do cause temporary outages of vertical guidance over short periods 
during the 11 year solar cycle. The FAA plans to eliminate these 
outages by including the new GPS L5 signal into WAAS in concert with 
the GPS modernization program, underway by the United States Air Force. 
The FAA also plans to retain a portion of the ground based navigation 
and surveillance systems to provide a backup for area navigation and 
surveillance to avoid unnecessary delays or disruptions to the air 
traffic system. Radar will be used as an initial backup. As articulated 
in the January 2007 Surveillance/Positioning Backup Strategy 
Alternatives Analysis Final Report, the FAA will reassess the ADS-B 
backup strategy prior to making an investment decision for radar 
replacements beyond 2020. This may provide a differing approach based 
upon the additional operational experience gained with ADS-B and 
emerging technologies that are deployed, such as Galileo, the satellite 
navigation system, and GPS-3, which could support an alternate backup.

    Question 2. As the FAA repairs and maintains its outdated 
infrastructure, is the FAA taking steps to ensure that existing 
facilities can easily and efficiently be reconfigured in the future for 
NextGen technology? If so, what are those steps?
    Answer. The FAA is working to address future NextGen facilities 
capabilities on a number of fronts. Current facilities will be upgraded 
to accept NextGen capabilities as they are deployed in the near term. 
In the meantime, the FAA is exploring future concepts for NextGen 
facilities. In addition, by developing and implementing the NextGen 
Voice Switch, facilities will have the flexibility to respond to 
increased demand and continuity of service needs.

    Question 3. Several years ago, NextGen was estimated to cost $40 
billion--$20 billion for infrastructure and $20 billion for airlines. 
Is there a more recent cost estimate?
    Answer. A special JPDO/Industry team estimated the range from $15 
to $22 billion for the development of NextGen. This range of figures is 
just for capital expenditures, not life cycle costs. A similar range 
has been cited for the cost of avionics. These preliminary figures were 
based on rough estimates and a great deal of NextGen system definition 
work has occurred since then. Estimates now under development represent 
a much more structured and verifiable cost estimating process. All 
known NextGen programs and activities are being identified, their costs 
gathered or developed, adjustments (in terms of program maturity) are 
being applied, and then the overall data is being evaluated for 
completeness. There will also be sensitivity analysis to account for 
changes in the aviation environment, demand, and funding levels. On 
this basis, it will be possible to apply useful confidence levels to 
programs with known requirements. It should be noted that requirements 
for many key NextGen programs such as Data Communications and System 
Wide Information Management as well as requirements for a common 
automation platform have not been established. This means that a final, 
highly accurate cost estimate will not be available until these 
programs have fully developed requirements.
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                      to Dr. Gerald L. Dillingham
    Question. Several industry stakeholders have called for the 
development of clear performance metrics to track the modernization of 
the ATC system. Further, stakeholders have noted these metrics should 
focus on the performance of the ATC system, not FAA activities. What 
special metrics does GAO believe should be used to track the FAA's 
progress in modernizing the ATC system?
    Answer. We agree that it is critical to have clear and transparent 
metrics to manage and track the implementation of NextGen. You can't 
manage what you can't measure. Metrics are important to manage any 
system, but especially one of NextGen's size and complexity. The 
transformation from the current radar-based air navigation system to 
the satellite-based NextGen will require the cooperation and 
participation of multiple stakeholders, including four cabinet-level 
agencies and other Federal organizations, commercial and general 
aviation, and aircraft and avionics manufacturers. In addition, 
integrating a new technology or new procedures into the National 
Airspace System requires coordination within several FAA lines of 
business. For example, a change in procedures that would allow the use 
of closely spaced parallel runways at airports, which could in turn 
increase capacity and efficiency, would require coordination among FAA 
units to develop the appropriate standards, procedures, and 
regulations; the aviation safety unit, which will need to certify the 
safety of the procedures; and controllers and pilots, who will need to 
be trained. All of this must take place before the new procedures can 
be implemented.
    Through our work, which has included interviews with key 
stakeholders, we have found a consensus emerging that the 
transformation to NextGen should focus first on implementing 
capabilities that are available in the relative near-term and mid-term 
(2012-2018), and can help address the current system's capacity and 
efficiency challenges. We agree with those stakeholders who say that 
the metrics should focus on ``outcomes'' rather than process. A focus 
on outcomes is particularly important to demonstrate to the airlines 
that they will derive real benefits from purchasing and installing 
NextGen avionics on their aircraft. Furthermore, as early-adopting 
airlines start to equip their aircraft with those avionics, 
identifiable returns on investment, such as operational benefits and 
cost savings, will be important to create further incentives for other 
airlines to equip their aircraft. Therefore, specific metrics should be 
developed to measure the impact of specific improvements introduced in 
the National Airspace System. Such metrics could include reductions in 
jet fuel consumption associated with specific system operational 
improvements, increases in the number of take-offs and landings during 
bad weather, reductions in flight times for NextGen-equipped aircraft, 
or reductions in delays attributable to NextGen-enabled capabilities at 
specific airports.
    At the request of this Committee and other Congressional 
Committees, we are planning to begin a study on the development and use 
of appropriate metrics for measuring progress in the implementation of 
NextGen capabilities.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                        Dr. Gerald L. Dillingham
    Question 1. Does GAO support the creation of a single program 
office to facilitate the implementation of NextGen?
    Answer. During our work for this Committee, industry and some 
government stakeholders often advocated the creation of a single 
program office because this organizational structure is familiar to 
them. For example, when Boeing decides to build a new aircraft, it 
establishes a program office. The program office is given 
responsibility, authority, and a budget for all aspects of the aircraft 
program. The National Aeronautics and Space Administration adopted a 
similar structure for the moon landing program, establishing a program 
office with responsibility and accountability for achieving the 
mission.
    We agree that having a single office in charge of NextGen would 
have many advantages. For example, it would help to create clear 
accountability for outcomes and encourage the establishment of clear 
lines of communication with the numerous stakeholders involved in 
NextGen. FAA's recent reorganization reflected an effort to put a 
single office in charge of NextGen. According to the Chief Operating 
Officer of the Air Traffic Organization, there is now one ``team'' with 
one person in charge to plan, implement, and oversee NextGen. That one 
person is the Senior Vice President for NextGen and Operations 
Planning. However, as we have recently reported, this position does not 
have budget authority over several key NextGen projects and is not as 
highly placed within FAA's organization as other FAA executives with 
responsibilities for NextGen-related activities who are Associate 
Administrators. Furthermore, this reorganization--along with the 
creation under Executive Order 13479 of a new support staff for the 
Senior Policy Committee within the Office of the Secretary--has led to 
significant uncertainty about the roles and responsibilities of the 
Director of the newly created support staff, the Senior Vice President, 
the Director of the Joint Planning and Development Office, and other 
advisory bodies associated with NextGen.
    One option to address concerns about the current organizational 
structure for NextGen would be to create an Associate Administrator for 
NextGen. Establishing this new position would elevate the NextGen 
program office in FAA's organizational structure. However, further 
reorganization could be disruptive and likely to result in 
uncertainties as new roles and responsibilities created by the 
reorganization are defined and agreed upon. Therefore, we believe that 
the outcomes of the current organizational structure are of more 
immediate concern than the structure itself. In our view, the focus 
should be on the extent to which the current structure results in the 
implementation of operational capabilities that alleviate capacity 
constraints and system inefficiencies and deliver agreed-upon outcomes.

    Question 2. What steps can the FAA take to better communicate with 
industry and other stakeholders to ensure that they fully understand 
the content and objectives associated with implementing NextGen?
    Answer. FAA has begun to improve communications with stakeholders 
by issuing an implementation plan that strikes a better balance between 
providing technical information and responding to stakeholders' 
concerns that earlier iterations of plans were overly technical. In 
addition, FAA has developed detailed roadmaps that identify next steps 
and establish timelines for their completion. These documents differ 
from earlier NextGen planning documents, such as the concept of 
operations and enterprise architecture, which many stakeholders said 
were not very useful for their understanding and planning. However, 
some stakeholders told us they remain frustrated because the NextGen 
planning documents still lack any clear commitments from FAA.
    Another step in the right direction is FAA's establishment of the 
NextGen Midterm Implementation Task Force to focus on ``NowGen'' 
development. This task force, which is to include representatives of 
all relevant stakeholder groups, is charged with identifying those 
technologies and capabilities that can be implemented in the relative 
near term and midterm and showing airlines how they can develop 
business cases for accelerating efforts to equip their aircraft to 
achieve those capabilities. FAA has also increased opportunities for 
representatives of its largest labor unions to participate in the 
planning of NextGen and has promised further outreach. For example, 
going forward, participation in the task force would allow these groups 
to have input at a key early stage of implementation. In addition, the 
resolution of labor issues has been identified as a top priority of the 
new FAA leadership. To move forward, both FAA and the unions must 
recognize the value of setting aside differences and working together 
to implement the vision of NextGen and realize its promised benefits. 
However, given longstanding difficulties related to this issue, we 
believe further monitoring by and consultation with Congress are 
warranted.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Ensign to 
                        Dr. Gerald L. Dillingham
    Question 1. We have been talking about or planning NextGen 
modernization for about 7 years now and we are still working on the 
plans. What do we need to do so that 7 years from now we can be here 
talking about the substantial progress that we have made and the 
improvement in the safety, efficiency, and capacity of the National 
Airspace System?
    Answer. To ensure that it moves from planning to progress, FAA must 
identify the operational capabilities that can be achieved with 
currently available technologies and procedures and develop the 
validations, certifications, rules, and other efforts needed to deploy 
those technologies and procedures in a timely manner. Known as 
``NowGen,'' this effort usually refers to capabilities FAA plans to 
implement between 2012 and 2018. Concurrently, FAA will need to ensure 
that pilots, controllers, and technicians receive the training 
necessary to implement the new capabilities. FAA's creation of the 
NextGen Midterm Implementation Task Force is a key first step toward 
implementing NowGen. Charged with identifying critical near-term and 
midterm capabilities and developing a consensus among industry 
stakeholders, the task force plans to issue recommendations to FAA, 
that FAA must then follow through on to ensure that the identified 
capabilities can be deployed quickly, safely, and efficiently. To the 
extent that it measures outcomes achieved, such as increases in 
efficiency and capacity, rather than processes completed or actions 
taken, FAA will be able to demonstrate the results of its efforts to 
Congress and the public.
    To deploy the new capabilities identified by the task force, 
airlines will need to equip their aircraft with the necessary avionics. 
However, as we have reported, airlines face a number of disincentives 
to early investment in new technologies. Therefore, FAA must develop 
specific strategies for airlines and other users of the national 
airspace system (NAS) to invest as early as possible in the necessary 
avionics equipment. FAA has outlined principles that will govern its 
efforts to accelerate equipage. These principles include providing 
operational benefits to early adopters of new technologies (the ``best- 
equipped, best-served'' concept) and possibly using financial 
incentives to minimize the business risk for airlines. However, FAA 
must now develop specific plans for realizing such operational benefits 
in the NAS, identify their potential magnitude, and specify how the 
financial incentives will be structured.

    Question 2. Stakeholder involvement in NextGen is absolutely 
critical to its success. How well is FAA including stakeholders, 
including air traffic controllers, in NextGen decisions? Are there any 
obstacles to stakeholder cooperation that need to be addressed or 
eliminated?
    Answer. FAA has recently made some progress in including air 
traffic controllers and technicians. For example, it has used active 
controllers as subject matter experts and allocated seats on the 
NextGen Management Board to representatives of both the controllers' 
and the technicians' unions. Controller union officials have likewise 
reported participating in several NextGen planning and decision-making 
groups. However, officials from both unions have continued to express 
concerns that their unions are not involved in selecting the subject 
matter experts that participate in NextGen activities and that their 
involvement in NextGen efforts remains limited. In our view, long-
standing labor issues continue to prevent FAA from involving these key 
groups more extensively and limit these groups participation in NextGen 
activities. Recent direction from the Chairmen and Ranking Members of 
the Senate Commerce Science and Transportation Committee and its 
Aviation Subcommittee to the unions and FAA that they find a way to 
work together for the greater good could, if implemented, contribute to 
easing tensions between labor and management at FAA.
    Going forward, participation in the NextGen Midterm Implementation 
Task Force, which is designed to build stakeholder consensus, would 
allow these groups to have input at a key early stage of 
implementation. In addition, the resolution of labor issues has been 
identified as a top priority of the new FAA leadership. To move 
forward, both FAA and the unions must recognize the value of setting 
aside differences and working together to implement the vision of 
NextGen and realize its promised benefits. However, given the long-
standing difficulties related to this issue, we believe further 
monitoring by and consultation with Congress are warranted.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                              Joe Kolshak
    Question 1. If the necessary infrastructure were in place, how soon 
could the airline industry equip commercial aircraft with NextGen 
Avionics?
    Answer. Through leadership and investment by the Federal 
Government, ADS-B and other proven air traffic technologies, such as 
RNP/RNAV, GBAS and Electronic Flight Bags, could be deployed, and the 
resulting benefits to the traveling public, the environment and the 
Nation's economy could be delivered in the next 3-4 years.

    Question 2. In your opinion, would the airline industry support the 
creation of a single program office to facilitate the implementation of 
NextGen?
    Answer. Yes. Because of its complexity, scope, and national 
importance, we believe NextGen demands a single program office to 
provide necessary leadership and ensure success.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Ensign to 
                              Joe Kolshak
    Question. ADS-B is a cornerstone technology for NextGen. While FAA 
plans to mandate ``ADS-B Out,'' the majority of airspace user benefits 
and costs are associated with ``ADS-B In'' and cockpit displays. From 
your company's perspective, what needs to be done to facilitate the 
quick deployment of these technologies?
    Answer. Current plans call for deployment of ground-based 
infrastructure by 2013 and mandatory aircraft equipage by 2020. This 
plan delays the benefits of air traffic modernization, including better 
customer service, reduced greenhouse gas emissions and overall economic 
improvement, for far too long. Through leadership and investment by the 
Federal Government, ADS-B and other proven air traffic technologies 
should be accelerated, and the resulting benefits to the traveling 
public, the environment and the Nation's economy could be delivered in 
the next 3-4 years. The U.S. Government should finance and provide 
incentives for ADS-B avionics equipage across air transport, general 
aviation, government and DoD aircraft to accelerate deployment and 
assure maximum return on investment for taxpayers and system users. 
There are various ways to make equipage more affordable, including 
general fund stimulus, incentives, leasing, and other creative 
financing techniques. In addition, procedure improvements such as 
``best-equipped, best served'' and reduced separation standards will 
help to deliver benefits sooner and improve the business case for 
accelerated equipage.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                              Dale Wright
    Question 1. From NATCA's position, how many more Air Traffic 
Controller positions are needed to adequately support our Nation's 
airspace?
    Answer. In 1998, the FAA and NATCA jointly authorized a staffing 
standard derived from scientific formula which took into account time 
and motion studies, sector complexity and workload, number of 
operations on the 90th percentile day, and relevant non-operational 
activities (i.e., training, leave). As part of its Controller Workforce 
Plan, the FAA abandoned these scientifically-based allocations and 
established staffing ranges for each air traffic control facility, 
which it modified slightly in 2008. These ranges represented a 
reduction in controller staffing of between 20 and 25 percent across 
the system.
    Rather than basing its staffing goals on an accurate and precise 
scientific assessment of each facility's requirements for safe 
operation, the FAA has designed these ranges in order to deliberately 
mislead stakeholders about the staffing crisis currently facing the air 
traffic control system in this country. They were designed in order to 
meet specific budget goals, with regional directors identifying the 
number of air traffic control positions it could fund at each facility 
and remain within its fixed budgets.\1\ NATCA has reason to believe 
that the FAA's official staffing ranges were engineered by the Air 
Traffic Organization (ATO) Finance office, rather than the ATO Safety 
Office based on a memo written by the workforce staffing manager, Jodi 
McCarthy.\2\
---------------------------------------------------------------------------
    \1\ Letter from FAA Regional Administrator Christopher R. Blum, 
Central Region, to Congressman Dennis Moore. February 22, 2006.
    \2\ Untitled memo from Jodi S. McCarthy, ATO-T Finance, Manager, 
Workforce Staffing. Received February 28, 2007 on the topic of the 
Staffing ranges featured in the 2007 Controller Workforce Plan.
---------------------------------------------------------------------------
    The FAA attempted to justify this budget-based staffing standard by 
presenting a pseudo-scientific justification for its staffing numbers 
in its controller workforce plan. The FAA's reasoning is based on an 
average of the following:

        1. Scientific Data--The FAA does not specify which study this 
        refers to, who conducted it, or whether the study was conducted 
        by an unbiased third party. It has thus far refused to provide 
        NATCA with the details of the study parameters or the results.

        2. Current staffing at peer facilities--As the entire system is 
        suffering the same staffing shortage, peer facilities will be 
        equally understaffed. Therefore using these as a basis of 
        comparison yields a dangerously low standard.

        3. Past staffing lows--The FAA misleadingly refers to this 
        comparison as the past year of ``highest productivity.'' 
        However, it goes on to define productivity as the highest 
        number of operations per controller--or the year when the 
        fewest controllers were relied upon to control the largest 
        amount of traffic--without taking into account error rates, 
        delays, or effect on the work force. By using this definition 
        of productivity the FAA is selecting a dangerously low staffing 
        number as a standard again.

        4. Managers' advice--The FAA misleadingly refers to this as 
        ``service unit input.'' This input did not include input from 
        NATCA and came entirely from within FAA management ranks who 
        are under pressure to conceal the extent of the staffing 
        shortage and assure Congress and the flying public that all is 
        under control. Therefore this too is likely to yield a 
        dangerously low and inaccurate estimate of needed staffing.

    NATCA recognizes that circumstances have changed since 1998. There 
have been some technological advances, changes in traffic flow, 
increases or decreases in service at particular airports or facilities, 
and changes in facility alignments and boundaries. There is also an 
increased training burden on the workforce as a result of the current 
staffing crisis. All of these affect the staffing needs of the both the 
system as a whole and individual facilities. As a result we are not 
comfortable giving concrete estimate for the number of additional 
controllers needed to safely and efficiently support the National 
Airspace System (NAS). Rather we would like to see a new scientific 
study, conducted by an independent 3rd party, preferably the National 
Academy of Sciences, in an open and transparent manner that would again 
be able to provide a scientific basis for the systems air traffic 
controller staffing needs. The FAA and NATCA would then be able to 
utilize this scientific study to work together to develop a staffing 
standard that is designed to meet the needs of the NAS.

    Question 2. Does NATCA support the creation of a single program 
office to facilitate the implementation of NextGen?
    Answer. NATCA does support the creation of a single program office 
that would facilitate the development and implementation of NextGen. It 
is important that NextGen be developed in a way that comprehensively 
considers and addresses the impact changes would have on the system as 
a whole. The piecemeal approach that the FAA has used for realignment 
initiatives and airspace redesign has yielded problematic results that 
have compromised the safety of the system and the efficacy of the 
projects. A single program office would be better positioned to ensure 
a holistic approach to this major modernization undertaking.
    Furthermore, a single program office would enable accountability 
for NextGen. This office must have the authority to do what is 
necessary to ensure that NextGen initiatives remain within budget and 
on time, without compromising safety or effectiveness of the projects.
    Lastly, this office must serve as the point of contact for 
stakeholders. Stakeholders in general, and NATCA in particular must be 
given the opportunity to meaningfully collaborate on NextGen from 
development through implementation. NATCA's members are frontline 
workers who are able to provide vital insight to help the team identify 
and address human-interface issues and other concerns. Doing so on the 
front-end rather than during implementation will save the agency time, 
taxpayer money and resources while avoiding potential damage to the 
integrity of the air traffic control system. Because NATCA's members 
have an intimate understanding of frontline air traffic control, they 
are uniquely qualified to provide insight into the needs of the system, 
the utility of the FAA's proposed technology, and the usability of the 
products included under the NextGen umbrella. It is therefore important 
that stakeholders collaborate directly with this single NextGen program 
office, in order to minimize the chance of miscommunication.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Begich to 
                            T. K. Kallenbach
    Question. Do manufacturers have enough information on NextGen 
avionics equipage standards to produce the necessary equipment and 
instrumentation necessary for the aviation industry?
    Answer. As I mentioned in my testimony, there are a number of 
NextGen capabilities ready for implementation today including Required 
Navigation Performance (RNP), GPS Ground-Based Augmentation System 
(GBAS), Automatic Dependent Surveillance--Broadcast (ADS-B) ``OUT'',\1\ 
and Continuous Descent Arrivals (CDA). For these capabilities, 
manufacturers have sufficient information on standards, and in most 
cases, already have solutions developed and ready to be deployed. These 
capabilities go a long way toward improving the performance of our air 
transportation system in the near and mid-term.
---------------------------------------------------------------------------
    \1\ ADS-B ``OUT'' is the capability to broadcast position and 
identification information off of the aircraft for use by the ground 
ATC system or other aircraft.
---------------------------------------------------------------------------
    However, more capabilities are needed to stay ahead of air traffic 
demand and fully implement the NextGen system. Follow-on capabilities, 
including ADS-B ``IN'' \2\ and associated applications, data link 
communications, and full 4-dimensional flight plans, require additional 
definition before manufacturers are able to develop solutions. It is 
important that this definition work be accelerated, in parallel with 
the deployment of the already developed NextGen capabilities (above). 
With parallel deployment and standard development efforts, we can 
ensure the next wave of follow-on capabilities is ready to go when 
needed, and that they will efficiently support on-going air 
transportation system growth.
---------------------------------------------------------------------------
    \2\ ADS-B ``IN'' is the capability to receive position and 
identification information from other aircraft or surface vehicles for 
use by the flight crew on the aircraft.
---------------------------------------------------------------------------

                                  <all>

</pre></body></html>
